<html>
<title> - NO CHILD LEFT INSIDE: RECONNECTING KIDS WITH THE OUTDOORS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         NO CHILD LEFT INSIDE:


                           RECONNECTING KIDS


                           WITH THE OUTDOORS

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                             joint with the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 24, 2007

                               __________

                           Serial No. 110-26

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

35-982 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Bobby Jindal, Louisiana
Solomon P. Ortiz, Texas              Tom Cole, Oklahoma
Frank Pallone, Jr., New Jersey       Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South     Vacancy
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 24, 2007...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1

Statement of Witnesses:
    Calengor, Jerry, Chairman, Normark Corporation, on behalf of 
      the American Sportfishing Association......................    46
        Prepared statement of....................................    48
    Cason, James E., Associate Deputy Secretary, U.S. Department 
      of the Interior............................................     4
        Prepared statement of....................................     5
    Dolesh, Richard J., Director of Public Policy, National 
      Recreation and Park Association............................    56
        Prepared statement of....................................    58
    Ginsburg, Dr. Kenneth R., M.D., on behalf of the American 
      Academy of Pediatrics......................................    34
        Prepared statement of....................................    37
    Kimbell, Gail, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     9
        Prepared statement of....................................    10
    Lambert, Alan F., Scout Executive, National Capital Area 
      Council, Boy Scouts of America.............................    69
        Prepared statement of....................................    71
    McCarthy, Gina, Commissioner, Connecticut Department of 
      Environmental Protection...................................    13
        Prepared statement of....................................    16
    Penny, Dale, President, Student Conservation Association.....    65
        Prepared statement of....................................    66
    Pertschuk, Amy, Managing Director, Children & Nature Network.    40
        Prepared statement of....................................    42

Additional materials supplied:
    Byler, Jeremy, Senior, Schools Without Walls Senior High 
      School, accompanying Dale Penny, Statement for the record..    68


 OVERSIGHT HEARING ENTITLED ``NO CHILD LEFT INSIDE: RECONNECTING KIDS 
                          WITH THE OUTDOORS.''

                              ----------                              


                         Thursday, May 24, 2007

                     U.S. House of Representatives

      Subcommittee on Fisheries, Wildlife & Oceans, joint with the

         Subcommittee on National Parks, Forests & Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva, [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Sarbanes, 
Inslee, Herseth Sandlin, Shuler, Brown, and Gilchrest.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call to order the joint oversight 
hearing of the Subcommittee on National Parks, Forests and 
Public Lands and the Subcommittee on Fisheries, Wildlife and 
Oceans. The subject of the oversight hearing is ``No Child Left 
Inside: Reconnecting Children with Nature.''
    Thank you very much, and I want to welcome everyone to this 
joint oversight hearing on the importance of nature in 
children's lives. Our witnesses have worked hard to prepare 
testimony and to be with us today, and we thank them for their 
efforts. It is also my pleasure to welcome colleagues from the 
Subcommittee on Fisheries, Wildlife and Oceans. The issues we 
will discuss today affect both agencies and programs within the 
jurisdiction of both Subcommittees, and we look forward to a 
good discussion.
    What our children will become as adults depends on genetic 
makeup and some will be the result of life experience. We will 
likely never declare a winner in this nature versus nurture 
debate. One thing for certain is that for human beings, and 
children in particular, nature is nurture and America's youth 
need more of it.
    Time spent outdoors during childhood, whether it is hiking 
Yosemite or fishing in the creek behind your house, fosters 
creativity, self-confidence, family bonding, better health, not 
to mention the beginnings of scientific and environmental 
curiosity. It also fosters a conservation ethic that will be so 
critical to ensuring the long-term stewardship of our natural 
world.
    Competition for young peoples' time and attention is 
tougher now than it has ever been before, and there is mounting 
evidence that the kind of unstructured outdoor exploration many 
of us remember as children is losing out to indoor electronic 
entertainment. In too many instances, adventure games are 
replacing actual adventure in children's lives.
    We face the possibility that a child who might have grown 
up to be the next Teddy Roosevelt or Rachel Carson is inside 
right now playing Grand Theft Auto instead. Today's panelists 
will discuss current efforts to document and address this trend 
as well as the impacts these developments are having on 
America's young people.
    In addition, we welcome our witnesses' thoughts on what it 
might mean for the future of our parks, forests, oceans, 
refuges and other public lands if the next generation of 
Americans has little or no interest in visiting or protecting 
them. More important, we look to them for recommendations on 
how our Federal resource agencies can play a role in reversing 
this trend.
    Once again, we thank our witnesses for their energy and 
effort, and I would like to turn to our Ranking Member, Mr. 
Bishop, for any opening comments that he may have. Sir?

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that.
    I am intrigued by the title of today's hearing and hope it 
brings better results than the fatally flawed No Child Left 
Behind education program of the Federal Government. Witnesses 
will point out the obvious, that children today need more 
exercise and time outdoors. Although there may be a consensus 
on this fact, the role of the Federal Government solving this 
challenge is entirely another question.
    Some witnesses will testify the Federal Government should 
provide even more money to buy private land so the kids have 
more outdoor recreation opportunities. I am a living case study 
of how people coming from states with vast public land 
ownership can indeed be overweight. I will also challenge all 
those who will be talking. Be careful what you say about 
obesity today. I am very sensitive about it.
    The Federal Government already owns one-third of the lands 
in the United States and as Congress appropriates more money 
for land acquisitions, kids are becoming more obese. So let us 
not overlook the role the private sector can play in providing 
vast outdoor recreation opportunities in this country. Today we 
will hear from Alan Lambert with the Boy Scouts of America, 
which owns thousands of acres of its own land, which has been 
used to train millions of kids to appreciate the great 
outdoors.
    The Philmont Scout Ranch in New Mexico alone has over 
120,000 acres or roughly three times the land area of 
Washington, D.C., and if many of the largest and the loudest 
national environmental groups would spend less money focusing 
on politics they, too, could follow the sterling example of the 
Boy Scouts and use their tax-free largesse to buy lands for 
kids to reconnect with nature.
    Boy Scouts' example of private conservation is being 
replicated throughout this nation by electric utilities, timber 
companies, ranches, campgrounds and other private enterprises 
that are providing outdoor recreation under the free enterprise 
system. At a time when our existing national parks, forests and 
refuges face a vast backlog of maintenance and rehabilitation 
projects, it is vital that we encourage the policies that allow 
the private sector to continue its outstanding work in this 
regard. Thank you. I yield back.
    Mr. Grijalva. Would anyone else wish to make an opening 
statement?

  STATEMENT OF THE HON. WAYNE GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. A quick one, Mr. Chairman. Thank you very 
much.
    I think this is a wonderful hearing. I think just the 
conversations, just the discussion about America's future, 
which is our children, and how are they nurtured, and how are 
they raised, and how are they exposed to this fascinating, 
majestic, dangerous world. The Chairman used the word 
unstructured, which is I think so vital here.
    When many of us in this room grew up in the 1940s and the 
1950s, there was virtually no structure for children other than 
the parents, and the grandparents and the community, but you 
were outside and with even a sandlot, the universe was at your 
fingertips through your imagination. There was baseball, and 
there was horseshoes, and there was hiking, and there was 
canoeing and the exploring.
    You could climb an apple tree and you would end up on the 
other side of the universe. All of these unstructured, vast, 
important things that kids could figure out in their small, 
small, tiny world without the structure, without the cell 
phones, without the computers, without the games, without all 
those things, even without organized baseball, little league, 
or all those things and even, and I was a Boy Scout leader, 
even without the Boy Scouts because you always had an adult 
telling you what to do.
    The kids could go on their own star trek to the Amazon 
Jungle, to the Rocky Mountains, to the other side of Pluto. In 
doing that herein lies the idea that can regenerate a 
generation and for generations to come, and that is brain 
development. We all know about neurons, and their connections, 
and how it works and evolves. You make up a new cell every time 
you think a new thought.
    So the confidence, the independent thinking, the 
initiative, the ingenuity, the intellect that arises in an 
enormous fashion just by a child, children, on their own 
figuring things out with their brains, with their fingers, with 
their motions, with their laughter, and all of that happens 
outside. It is really a responsibility of adults to figure out 
how we can regenerate that lost art.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir.
    Let me welcome the first panel. I appreciate your presence 
and am looking forward to your comments. At the outset, let me 
just indicate that all your testimony will be accepted in its 
entirety, your written testimony into the record, and if at all 
possible we would like the oral presentation to be five 
minutes.
    With that, let me begin with Mr. James Cason, Associate 
Deputy Secretary, the Department of the Interior. Welcome, sir.

  STATEMENT OF JAMES CASON, ASSOCIATE DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cason. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before your subcommittees today to 
discuss efforts to reconnect children with the outdoors. 
Secretary Kempthorne has highlighted the significance of this 
issue and its relevance to the Department of the Interior's 
mission. Connecting children with the outdoors can affect their 
health, enhance their knowledge of our environment and 
strengthen their commitment to environmental stewardship.
    We affirm these goals and the role the Department plays in 
advancing them. In September 2006 the Secretary invited more 
than 300 educators, health professionals, business leaders and 
conservationists to participate in a national dialogue on 
children and nature.
    The inaugural conference focused on the positive impact 
nature can have on the health, conservation awareness and the 
character development of children, the positive and negative 
impacts of technology, media and the built environment on 
children's connection to nature and what can be done to restore 
the connection between children and the outdoors.
    At the conference the Secretary stated, ``We are here today 
to light a fire of passion that opens the doors to the great 
outdoors so that children can see, and hear, and smell, and 
taste and touch nature.'' Government can be a catalyst, an 
encourager, a motivator and a provider of great places for 
children to have fun, to exercise and to love the outdoors.
    The Department is uniquely positioned to be such a 
catalyst. Our agencies manage 501 million acres of the nation's 
special places. One in every five acres in the nation. The 
Bureau of Land Management manages 3,500 recreation sites under 
its multiple use mission. The National Park Service cares for 
391 units of the Park Service, some of which include our 
nation's most unique, natural and cultural historical places.
    The U.S. Fish and Wildlife Services manages 547 refuges 
including 2,500 miles of land and water trails with an emphasis 
on six activities consistent with its mission of protecting 
wildlife and its habitat. Hunting, fishing, wildlife 
observation, natural photography, environmental education and 
interpretation. Each agency has a distinct mission. Together 
the agencies offer children an endless array of recreational 
educational opportunities in myriad of natural settings.
    We have two formidable tools at our disposal, a land base 
and a set of passionate professionals with interest and 
expertise of the natural world. The Department participates in 
thousands of programs that encourage kids to reconnect with 
nature from interagency nationwide year-round programs that can 
impact large numbers of children to special local events that 
target a limited population of youth.
    Some programs focus on introducing children to an outdoor 
experience while other programs seek to provide a more 
immersive educational experience for our children. Our agencies 
are creative making the ways that we can engage children and 
appeal to different interests and backgrounds of children 
limitless.
    An example of some of the programs that we either 
participate in or sponsor ourselves is Hands on the Lands 
Program; the Wonderful Outdoor World Program referred to as 
WOW; VIEWS Conservation Corps; Student Conservation 
Association; President Bush's Healthier U.S. Initiative; Take 
It To the Outside, a BLM program to connect with your public 
lands; Junior Explorers Program; Student Education Employment 
Program; An Urban Treehouse Program; Kids Fishing Day; the 
Great Background Bird Count; Catch a Special Thrill of Fishing, 
a program set up by BOR, the Bureau of Reclamation; Little 
Marine Explorers Program.
    We have a host of them within the Department of the 
Interior that we have sponsored for years and had millions of 
children go through our programs. In conclusion, Mr. Chairman, 
together we can help families and children become healthier and 
live fuller lives by reigniting America's passion for the 
outdoors. We can offer children opportunities by providing 
parks, trails, camping sites and nature programs for children.
    We can work together to conserve and restore our land and 
make it accessible to urban and under served children and 
others who would not normally venture outdoors. We can raise 
the next generation of conservationists, inspire the children 
of today to grow up to be the land stewards of tomorrow and to 
ensure that they will care about and care for our nation's 
special places. Thank you for the opportunity to testify. I 
would be happy to answer questions when we get there.
    [The prepared statement of Mr. Cason follows:]

       Statement of James E. Cason, Associate Deputy Secretary, 
                    U.S. Department of the Interior

    Madam Chairwoman and Mr. Chairman, thank you for the opportunity to 
appear before your subcommittees today to discuss efforts to reconnect 
children with the outdoors. Secretary Kempthorne has highlighted the 
significance of this issue and its relevance to the Department of the 
Interior's mission. Connecting children with the outdoors can affect 
their health, enhance their knowledge of our environment, and 
strengthen their commitment to environmental stewardship. We affirm 
these goals--and the role the Department plays in advancing them.
    In the mid-1800s, there was a young boy who lived in New York City. 
He was smart and inquisitive but was always sick and suffered terribly 
from asthma. Few medicines were available to ease his discomfort. He 
would treat his condition by spending time outdoors. He learned to ride 
a horse, to fish, to hunt, to take long hikes, and his health improved 
dramatically. As a young man, he went to live on a ranch in North 
Dakota, where he saw elk, bison, and deer for the first time. That boy 
was Theodore Roosevelt; he became our 26th President. He later 
remarked, ``I never would have been President if it had not been for my 
experiences in North Dakota.'' His passion for experiencing the 
outdoors continued throughout his life, and during his Presidency, he 
established 5 National Parks, 18 National Monuments, and 150 National 
Forests as well as 51 Federal Bird Reservations and 4 National Game 
Preserves, which together served as the foundation for the National 
Wildlife Refuge System.
    In 1956, in an article entitled, November 5, 2007 Help Your Child 
To Wonder, a woman shares her efforts to give her nephew first-hand 
experiences with nature. She wrote, ``[a] child's world is fresh and 
new and beautiful, full of wonder and excitement....I sincerely believe 
that for the child, and for the parent seeking to guide him, it is not 
half so important to know as to feel .--That woman was Rachel Carson, a 
wildlife biologist for the U.S. Fish and Wildlife Service and notable 
author. The 100th Anniversary of her birth is just three days from 
today.
    In 2005, in an influential book entitled, Last Child in the Woods: 
Saving Our Children from Nature Deficit Disorder, Richard Louv writes, 
``[t]he postmodern notion that reality is only a construct...that we 
are what we program...suggests limitless human possibilities; but as 
the young spend less and less of their lives in natural surroundings, 
their senses narrow, physiologically and psychologically, and this 
reduces the richness of human experience...[r]educing that 
deficit...healing the broken bond between our young and nature...is in 
our self-interest, not only because aesthetics or justice demands it, 
but also because our mental, physical, and spiritual health depends 
upon it.''
    Many people, especially young people, have become separated from 
the power of the great outdoors to renew and revive the human spirit. 
Children are spending more and more of their time inside on the 
computer, playing video games, or watching television. Studies have 
shown that the incidences of obesity in children have risen markedly in 
the last decade. With a click of a mouse, children can use the internet 
to access the content of libraries and the resources of the 
universities around the world. They can read all there is to know about 
a buffalo. They can see a picture of a giant redwood. They can even 
listen to recordings of the humpback whale. While this knowledge is 
important and can enrich a child's life, it is no substitute for 
feeling and experiencing and immersing oneself in nature--touching a 
pinecone, watching ants march into an anthill, listening to a river 
cascade down the rocks, or smelling a forest after it has rained.
    In September 2006, the Secretary invited more than 300 educators, 
health professionals, business leaders, and conservationists to 
participate in a National Dialogue on Children and Nature. The 
inaugural conference focused on the positive impact nature can have on 
the health, conservation awareness, and character development of 
children, the positive and negative impact of technology, media, and 
the built environment on children's connection to nature, and what can 
be done to restore the connection between children and the outdoors. At 
the conference, the Secretary stated, ``We are here today to light a 
fire of passion that opens the doors to the great outdoors so that 
children can see, hear, smell, taste and touch nature. Government can 
be a catalyst, an encourager, a motivator and a provider of great 
places for children to have fun, to exercise, and to love the 
outdoors.''
    The Department is uniquely positioned to be such a catalyst. Our 
agencies manage 501 million acres of our nation's special places--one 
in every five acres of the Nation. The Bureau of Land Management (BLM) 
manages 3,500 recreation sites under its multiple use mission. The 
National Park Service (NPS) cares for 391 units, some of which include 
our nation's most unique natural, cultural, and historical places. The 
U.S. Fish and Wildlife Service (FWS) manages 547 refuges, including 
2,500 miles of land and water trails, with an emphasis on six 
activities consistent with its mission of protecting wildlife and its 
habitat: hunting, fishing, wildlife observation, nature photography, 
environmental education and interpretation. Each agency has a distinct 
mission; together, the agencies offer children an endless array of 
recreational and educational opportunities in a myriad of natural 
settings.
    We have two formidable tools: a land base and passionate 
professionals with interest and expertise about the natural world. The 
Department participates in thousands of programs that encourage kids to 
reconnect with nature, from interagency nation-wide year-round programs 
that can impact large numbers of children to special local events that 
target a limited population of youth. Some programs focus on 
introducing children to an outdoor experience, while other programs 
seek to provide a more immersive educational experience for the 
children. Our agencies are creative--making the ways that we can engage 
children and appeal to the different interests and backgrounds of 
children limitless. Together, we can discover, rediscover, and get lost 
in our America. We have made a great start, but much more can and 
should be done.
Interagency Efforts
    The agencies participate in a number of interagency programs and 
public-private partnerships that seek to connect children and youth to 
the natural world. For example:
    The Hands on the Land (HOL) Program is a national network of field 
classrooms designed to connect students, teachers, and parents to their 
public lands and waterways. HOL programs involve students in hands-on 
activities designed to support the teaching of the required curricula. 
Programs at HOL sites range from sensory-awareness hikes to long-term 
monitoring projects. For example, in Oregon, the Cascade Streamwatch 
program at BLM's Wildwood Recreation Site provides students from 
underserved schools with an opportunity to experience nature firsthand 
by donning waders and life vests to monitor the Salmon River.
    The Wonderful Outdoor World (WOW) Program, currently operates in 
six states, including right here in our Nation's Capital, introduces 
urban youth, ages 8-12, to the great outdoors through overnight camping 
trips, typically at sites right in their community. WOW helps the 
children learn about basic camping skills, investigate an urban 
ecosystem, and participate in a community service activity all while 
getting needed outdoor physical activity and having fun.
    The Youth Conservation Corps (YCC) and the Student Conservation 
Association (SCA) provide high school teens and college-age young 
adults with opportunities to work on resource management and education 
projects. The programs expose them to natural settings, teach them the 
values of service, stewardship, and conservation of natural resources, 
and potentially inspire a future generation of land stewards. Over the 
past 50 years, our partnership with SCA has allowed us to work with 
approximately 40,000 young people. For example, FWS and BLM each worked 
with about 100 SCA students in 2006.
    President Bush's HealthierUS Initiative is aimed at increasing 
personal fitness. In 2002, a number of Federal agencies, including the 
Department of the Interior and the U.S. Department of Agriculture, 
signed a Memorandum of Understanding for the purpose of promoting the 
uses and benefits of the nation's public lands and waters to enhance 
the mental and physical well-being of Americans of all ages.
The U.S. Fish and Wildlife Service
    FWS is connecting children with nature through activities that are 
consistent with its mission. The National Dialogue on Children in 
Nature resulted in a service-wide focus on engaging children called, 
Children and Nature--Better Together . This effort refocuses existing 
activities and initiates new activities that encourage the direct 
interaction of children with nature. FWS will expand youth fishing and 
hunting programs, develop junior naturalist and junior birder programs, 
and make special efforts to improve access to natural areas in urban 
settings. FWS will create programs that appeal to today's youth, such 
as incorporating technology into an outdoor experience.
    FWS will continue to create Schoolyard Habitats across the country. 
Each region will initiate at least one school yard habitat program in 
2007. FWS will work with the schools and provide the expertise on 
native plantings and creation of habitats that attract wildlife. Since 
virtually all children congregate and spend a significant time at 
school, these efforts will bring outdoor experiences right to the 
children's front door.
    FWS also will continue to cultivate existing programs. For example, 
 the Junior Duck Stamp Conservation and Design Program, a dynamic, 
active, art and science program, teaches students in kindergarten 
through high school about wetlands habitat and waterfowl conservation, 
scientific and wildlife observation principles, and how to communicate 
what they learned through the Junior Duck Stamp art contest. Another 
program, the Nature of Learning, is a community conservation education 
program that emphasizes field experiences and student stewardship 
projects. One example is the Prairie Science Class at the Prairie 
Wetlands Learning Center in Fergus Falls, Minnesota. This class is the 
result of a partnership between FWS and the local school district to 
use real world, field-based learning experiences in the prairie 
wetlands ecosystem to engage fifth-grade students in science, math, and 
writing. The FWS is exploring similar place-based, experiential 
programs across the country. FWS estimates that, since 2003, nearly 
60,000 students and about 2,300 teachers have benefited from the Nature 
of Learning program.
The National Park Service
    One of the Secretary's highest priorities is the National Parks 
Centennial Initiative . The Centennial Initiative, included in the 
President's FY 2008 Budget, proposes up to $3 billion in new funds for 
the national park system over the next ten years. An increase of $100 
million plus another $100 million in mandatory funds that will match 
philanthropic contributions up to a $100 million will help engage all 
Americans in preserving our heritage, history and natural resources 
through philanthropy and partnerships, with a special emphasis on 
linking children to nature. The 2008 increase includes $13 million to 
be used to hire one thousand additional seasonal naturalist and 
education rangers.
    Through the Centennial Initiative, NPS proposes to expand the 
Junior Ranger Program, which will receive an addition $1 million in 
funding under the Centennial Initiative, which gives young people 
meaningful experience in their national parks. It drew approximately 
401,115 participants at 290 park units in 2006. The Parks as Classrooms 
Programs provide resource-based activities for people of all ages in 
park units as well as offsite, at schools and community centers. In 
2006, this program was offered in nearly every one of NPS's park units 
and attracted 1.8 million children and youth, ages 5 to 18 years old. 
NPS also has Research Institutes and Field Schools that allow more in-
depth educational opportunities for small groups in natural and 
historic settings.
The Bureau of Land Management
    Consistent with its multiple use mission, BLM lands offer 
traditional dispersed recreation uses, such as hunting, camping, 
fishing, hiking, boating, and horseback riding, as well as non-
traditional activities such as rock crawling, base-jumping, hang-
gliding, and geo-caching. With many of the cities in the West growing 
toward its borders, BLM lands are increasingly becoming the backyards 
of urban children.
    An estimated 3 million children participate in BLM programs that 
seek to reconnect families and children with nature. BLM recently 
established a campaign, Take It Outside: Connect with Your Public 
Lands, which proposes to expand existing programs under an overarching 
initiative. Take it Outside: Connect with Your Public Lands seeks to 
increase the number of children who participate in the programs in 
three key ways:
    1.  Through their families, because outdoor recreation and 
volunteer activities can help families realize significant health 
benefits through improved physical conditioning and strengthening of 
family bonds;
    2.  Through their schools, because educating children in outdoor 
settings is a proven technique for improving student test scores and 
motivation, enhancing understanding of natural processes, and promoting 
attitudes of respect and responsibilities; and
    3.  Through their youth groups, or organizations, because engaging 
children in nature through structured youth activities helps to foster 
a stewardship ethic, promotes good physical and mental health, and 
prompts interest in natural and cultural resource careers.
    This campaign includes the Junior Explorers program, outdoor 
environmental education programs, interpretive programs, the Student 
Educational Employment Program (SEEP), Urban Tree House (UTH), Kids 
Fishing Day, and the Great Backyard Bird Count, and outdoor classroom 
programs, as well as other environmental education and interpretive 
programs.
Other Efforts
    Other agencies, including the Bureau of Reclamation (BOR) the U.S. 
Geological Survey (USGS), the Minerals Management Service, the Office 
of Surface Mining Reclamation and Enforcement, and the Bureau of Indian 
Affairs, also provide opportunities to link children to nature:
    <bullet>  BOR sponsors over 20 Catch a Special Thrill or C.A.S.T. 
events each year. C.A.S.T. for Kids Foundation, formed in 1991, joins 
volunteers who love to fish with disabled and disadvantaged children 
for a day of fishing outdoors.
    <bullet>  In St. Petersburg, Florida, USGS participates in the 
Little Marine Explorers Program, which teaches children ages 5 to 7 
about science through activities that include catching and identifying 
fish, looking at sediment cores, and learning about animal habitats.
Conclusion
    Together, we can help families and children become healthier and 
live fuller lives by reigniting America's passion for the outdoors. We 
can offer children opportunities by providing parks, trails, camping 
sites, and nature programs for children. We can work together to 
conserve and restore our land and make it accessible to urban and 
under-served children and others who would not normally venture 
outdoors. We can raise the next generation of conservationists--inspire 
the children of today to grow up to be the land stewards of tomorrow 
and to ensure that they will care about and care for our nation's 
special places.
    Thank you for the opportunity to testify on this compelling issue, 
and I will be happy to answer any questions that the subcommittees may 
have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir, and let me now turn to Chief 
Gail Kimbell of the Forest Service, Department of Agriculture. 
Chief?

               STATEMENT OF GAIL KIMBELL, CHIEF, 
         FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Kimbell. Thank you, Chairman, and thank you for the 
opportunity today to provide the Department's views on how we 
are reconnecting kids with the outdoors. I am Gail Kimbell, 
Chief of the United States Forest Service.
    We understand the significance and benefit of connecting 
our citizens and youth to the natural environment. We are 
stewards of over 193 million acres of national forest system 
lands. For over 100 years we have been providing interpretive 
services, ranger talks, challenging summer outdoor work 
opportunities and educational programs for youths and adults 
from the time that rangers were first assigned to protect and 
conserve the forest reserves.
    Today we have a world-class research organization devoting 
resources to examining the connections between our natural 
environment and the people that use our forests and grasslands, 
a technical assistance program that assists urban and rural 
communities in connecting with nature and a myriad of programs 
and projects developed by Forest Service personnel to engage 
children in the outdoors.
    The national forests and grasslands are the natural 
backyards for many communities throughout the 46 states that 
have national forest system lands. These lands and our 
infrastructure of trails, roads and recreation facilities 
provide opportunities for solace and solitude, challenge and 
risk, hunting and fishing, outlets for keeping physically fit 
and represent an important conduit for society's connection to 
nature.
    Yet even with the resources we devote to this part of our 
mission environmental illiteracy is one of the most significant 
challenges facing America's wildlands. As our country becomes 
increasingly urban most of America's children grow up with 
little connection to the natural world. Recent media attention 
has highlighted downward trends in visitation to national 
parks.
    Visitation numbers are more difficult for national forests 
and grasslands given the ready access to such lands. Still, our 
data shows a reduction in use by youth. We must examine 
approaches to connect children with the outdoors if we want 
that generation to care about clean water, clean air, wild 
places and where forest products come from.
    The Forest Service has many strong programs across the 
agency to address this phenomenon including programs such as 
Nature Watch, Project Learning Tree, A Forest for Every 
Classroom, Natural Enquirer, and Chicago Wilderness, which have 
accomplished a great deal.
    Building off this solid foundation programs such as the new 
More Kids in the Woods Initiative, connecting schools to the 
Forest Service, and the Woodsy Owl Head Start Program will help 
to foster the next generation of conservation leaders and more 
active outdoor participants.
    We are reinvigorating our conservation education programs 
to focus on pre-K through 12th grade and their educators. Every 
year tens of thousands of desk bound students become connected 
to nature through Forest Service Science. The Natural Enquirer, 
a middle school science journal written directly from published 
Forest Service research, taps into and stimulates students' 
natural curiosity about nature.
    We have copies available for each of you. One area of 
increasing focus for us is to address the need to engage urban 
and minority youth in nature-based activities. The Forest 
Service has broad authorities that allow our programs to work 
across the landscape including inner-city neighborhoods all the 
way to rural, remote communities.
    We work with community volunteers, state forestry agencies, 
other Federal agencies, tribes, not-for-profit organizations 
and other associations to plant trees and turn abandoned lots 
and brownfields into neighborhood parks that are a magnet for 
kids. Surveys conducted by the Centers for Disease Control 
document the rapid increase in childhood obesity.
    Being overweight or obese increases the risk of many 
diseases and health conditions including the early onset of 
chronic diseases such as Type II diabetes and heart disease. 
Physical inactivity is a contributing factor to this issue. The 
national forests and grasslands offer a wide array of outdoor 
settings and opportunities for healthy, physical activities.
    We provide important opportunities for meeting the needs 
for outdoor experiences which can lead to healthier lifestyles. 
We are developing an increasing emphasis on programs that 
engage children in outdoor recreation activities to combat 
inactivity and sedentary lifestyles. Forest Service supported 
research is examining connections between people and nature and 
links being identified that could bring important and 
beneficial changes to communities and individuals.
    In summary, the Forest Service provides a diverse spectrum 
of programs, projects, research and a spectacular land base to 
help meet the concerns raised by a number of committees on 
reconnecting children to nature. I am proud of the efforts of 
Forest Service employees and partners. We have more work to do 
to address these issues, and we will continue to support these 
efforts within the resources we have.
    I believe our work with children is critical to the long-
term health of the lands under our stewardship and to the 
Forest Service. This concludes my testimony. I will be happy to 
answer any questions the Committee members may have.
    [The prepared statement of Ms. Kimbell follows:]

           Statement of Gail Kimbell, Chief, Forest Service, 
                     U.S. Department of Agriculture

    Thank you for the opportunity today to provide the Department's 
view on how we are reconnecting kids with the Outdoors. I am Gail 
Kimbell, Chief of the United States Forest Service.
    We understand the significance and benefit of connecting our 
citizens and youth to the natural environment. We are stewards of over 
193 million acres of National Forest System lands. For over 100 years, 
we have been providing interpretive services, ranger talks, challenging 
summer outdoor work opportunities and educational programs for youth 
and adults, from the time that Gifford Pinchot our first Chief, 
assigned ``Rangers'' to protect and conserve our National Forests. 
Today we have a world class research organization that is devoting 
resources to examining the connections between our natural environment 
and the people that use our forests and grasslands, and a technical 
assistance program that assists urban and rural communities in 
connecting with nature.
    The National Forests and Grasslands are the natural backyards for 
many communities throughout the 46 States that have National Forest 
System lands. These lands and our infrastructure of trails, roads and 
recreation facilities provide opportunities for solace and solitude, 
challenge and risk, hunting and fishing opportunities, outlets for 
keeping physically fit, and represent an important conduit for 
society's connection to nature.
    Yet, even with the resources that we are devoting to this issue we 
still see perhaps one of the biggest threats to our nation's forests 
and grasslands is environmental illiteracy. As our country becomes 
increasingly diverse and urban, most of America's children grow up with 
little connection to the natural world. We are beginning to see trends 
in visitation to our National Forests, Grasslands that are revealing a 
downturn in the numbers of children and adults that are participating 
in outdoor activities. Research showing us the benefits of connecting 
our children with nature and the health benefits of outdoor activities, 
requires us to examine approaches that will encourage greater 
participation in outdoor activities.
    The Forest Service has many strong programs across the agency to 
address this situation and they reflect a growing recognition of the 
Forest Service's role and responsibility to foster the next generation 
of conservation leaders in conjunction with our partners. Our efforts 
not only strive to connect children with nature, they also emphasize 
building environmental literacy--the knowledge and skills needed to 
make informed decisions and become active citizens. There are far too 
many excellent efforts to reconnect our children with the outdoors that 
we are currently involved in to share during this brief testimony, but 
I would like to highlight a handful of projects and programs that 
illustrate the strengths of the Forest Service and describe how we are 
refocusing our efforts to reconnect our children to nature.
Connecting Children to Nature Through School Based Programs
    A 2005 study conducted by the State Education and Environment 
Roundtable offers evidence to support the positive benefits on school 
achievement from environment-based study in schools. We are 
reinvigorating our conservation education program to focus on pre-K 
through 12th grade and their educators. We have developed in 
cooperation with the Department of Health and Human Services' Head 
Start Program, efforts that start with early childhood to instill the 
sprit of outdoor play through the use programs and materials related to 
Woodsy Owl and using Woodsy's ABC's as part of the Head Start program.
    Every year, tens of thousands of desk-bound students become 
connected to nature through Forest Service science. The Natural 
Inquirer, a middle school science journal written directly from 
published Forest Service research, taps into and stimulates students' 
natural curiosity about nature. We are assisting educators through the 
``Forest for Every Classroom'' program which is a year-long 
professional development program for educators focused on place based 
education. The teacher-developed curricula integrate hands-on natural 
and cultural explorations that address concepts in ecology, sense of 
place, stewardship, and civics. The program is currently operating in 
New Hampshire, Vermont and Texas and we are replicating the concept to 
other States.
    Deep in the heart of the Hiawatha National Forest in Michigan is 
the Clear Lake Education Center. This center is a place for people of 
all ages to come and connect with their natural world through 
educational and recreational programs. Because of its realized 
contribution to the achievements of students, the program is largely 
funded from nearby school districts.
Connecting Children to Nature Through Non-School Based Programs
    One area of increasing focus for us is to address the need to 
engage urban and minority youth in nature based activities. 
Opportunities to explore nature can begin once a student walks out 
their door. The Forest Service has broad authorities that allow our 
programs to work across the landscape from inner city neighborhoods to 
federally designated wilderness areas. Through our Urban and Community 
Forestry Program (UCF) we help to connect young people to nature on 
municipal, county and state public lands. We work with community 
volunteers, state forestry agencies, not-for-profit organizations and 
other associations to plant trees and turn abandoned lots and 
brownfields into neighborhood parks that are a magnet for kids.
    One of the more successful urban connections is the Chicago 
Wilderness consortium. With over 200 partners, including the Forest 
Service, Chicago Wilderness is positioned to coordinate programs 
connecting urban children to nature. Chicago Wilderness consists of 
225,000 acres of protected natural areas stretching from southeastern 
Wisconsin, through northwestern Illinois and into northwestern Indiana. 
These lands contribute to the conservation of global biodiversity, and 
enrich local residents' quality of life. Chicago Wilderness is also a 
place for people to explore, relax, learn, restore and appreciate the 
wonders of the natural world. Volunteers of all ages help to protect 
and restore wildlife habitat in preserves, inform others about nature 
and collect scientific data on the health of local ecosystems. These 
woodlands, wetlands, and prairies are as much a part of the region's 
identity as its art, music and architecture. Chicago Wilderness makes 
the area a great place to live and work, and it provides solace, 
inspiration, and education to diverse ethnic groups.
    The Forest Service NatureWatch Program has been in existence for 
over 20 years. National programs include Kids Fishing Days, Migratory 
Bird Day, Every Species Counts and Animal Inn as well as several 
partnership initiatives. These and other initiatives have garnered 
awards for their excellence and cooperative spirit as we partner with 
national and local conservation organizations such as the Rocky 
Mountain Elk Foundation, Audubon, and Boone & Crockett Club, local 
communities and governments, youth organizations, and volunteers.
The Health Connection
    National Health and Nutrition Examination Surveys conducted by the 
Centers for Disease Control and Prevention at the Department of Health 
and Human Services document the rapid increase in childhood obesity. 
Being overweight or obese increases the risk of many diseases and 
health conditions, including the early onset of chronic diseases such 
as type II diabetes and heart disease. Physical inactivity is a 
contributing critical factor to this issue. In 2002, President Bush 
launched his HealthierUS Initiative aimed at increased personal 
fitness.
    The National Forests and Grasslands offer a wide array of outdoor 
settings and opportunities to provide avenues for healthy physical 
activities. We boast over 140,000 miles of a system of trails and 
routes, which provide diverse opportunities to get outside to exercise 
and experience the outdoors. Our recreational service providers 
operating under special use authorizations provide opportunities for 
such activities as downhill skiing, river rafting, hunting and fishing, 
horseback riding, rock climbing, outdoor experiential education and 
much more. We fill an important role in meeting the needs for outdoor 
experiences which can lead to healthier lifestyles.
    We have several community efforts aimed at promoting outdoor 
recreation as a natural way to combat inactivity and sedentary 
lifestyles that can contribute to obesity.
    ``Be Active Bitterroot'' is an offshoot of the HealthierUS 
Initiative. The Bitterroot National Forest, the Bitter Root Resource 
Conservation & Development (RC&D) Area and many other local partners 
including the health sector, recognized the potential benefits that 
could be generated by combining interests in children's health issues 
with the hopes and concerns we share regarding the health of natural 
resources surrounding our communities.
    ``Get Fit Great Falls'' is working with our Lewis and Clark 
Interpretive Center, Lewis and Clark National Forest in Montana. 
Together they have several events, such as ``Fit for the Trail'' which 
commemorated and re-created the games and outdoor activities that 
Captain William Clark used to keep his men in shape while waiting for 
the snows to melt. Over 1,000 children and adults spent the day 
outdoors learning traditional Indian games and some European games like 
quoits. This June, ``Get Fit Great Falls'' will host a National Trails 
Day event to provide educational information about outdoor 
opportunities on national and state lands, as well as blood pressure 
screenings, free healthy food and juice donated by local vendors and 
local distributors
Researching the Value of Connecting Children with Nature
    The Forest Service Research and Development program has supported 
the development of the academic field of environmental psychology. 
Through this research, connections between people and nature are being 
identified that could bring important and beneficial changes to 
communities and individuals. Forest Service supported scientific 
research studies conducted by the Landscape and Human Health Laboratory 
of the University of Illinois at Urbana-Champaign suggests symptoms of 
Attention Deficit Hyperactivity Disorder (ADHD) in children are 
relieved after contact with nature. Kids are better able to complete 
tasks and follow directions after playing in natural settings. Other 
Forest Service supported studies at the Urbana-Champaign campus have 
found that higher self-discipline in girls results from increased 
exposure to nature and that green views and access to green spaces in 
urban areas may, in fact, help strengthen community relations, relieve 
the everyday pressures of living in poverty and reduce crime.
    It is important to determine the effectiveness of tools to enhance 
the connection of youth to the outdoors. A one-day pilot study was 
conducted, during which diverse youth from the Los Angeles basin 
participated in two technology dependent (camera safaris and geo-
caching) and two non-technology dependent (etchings and nature 
scavenger hunt) activities at the Boys Camp at Griffith Park The goals 
of the project were twofold: to determine whether technology matters in 
youth outdoor participation, and to develop a process by which other 
entities can replicate youth days across the country. Pilot study 
results indicate the youth participants liked all four activities, with 
the youth casting the most votes for the technology-dependent 
activities (camera safaris and geo-caching). Replication guidelines are 
being developed for use across the U.S.
    The Forest Service has taken the lessons learned from work in the 
inner city neighborhoods and broadened them to cities and suburbs 
around the country. Eight out of ten Americans live in cities or 
suburbs and need easy access to parks and forests to fulfill daily 
needs for exercise, recreation community building and spiritual renewal 
with nature. Research shows that two in three do not have access to 
nearby parks, playgrounds or open space. Most children and adults don't 
have daily access to national forests, so many rely on everyday parks 
to keep them healthy. We believe that all children need safe, 
accessible and engaging places to play and explore nature. With that in 
mind the Forest Service has helped to fund research to examine the 
value that a park system brings to a city.
Connecting More Children to Nature
    Based on what we have learned through research and experience, we 
are taking additional steps beyond those I have described to you to 
addressing the issues of reconnecting our youth with nature. On Tuesday 
May 22, 2007 we participated in a special event hosted by the National 
Forest Foundation, the American Recreation Coalition and 
ReserveAmerica. At the event we announced the national recipients of 
the Forest Service More Kids in the Woods challenge cost share program. 
This program is designed to engage children in recreation activities 
and nature-based learning to establish meaningful and lasting 
connections with nature.
    For the first year of this effort, we are able to award $510,000 in 
matching funds to leverage over $1.0 million in partner contributions 
for projects that reconnect children with nature. Examples of the 
recipient projects include: The Harlem Link Charter School in New York 
City, to introduce students to nearby forest and wetlands, thereby, 
bringing real world experiences to complement the school's academic 
subject areas. The Poudre School District North of Denver, Colorado, 
hosts a three-day ``Eco-week'' experiential residential camp where 
underserved students can learn about ecological and stewardship 
principles, teambuilding and begin to develop a connection with the 
natural world. The Salish-Kootenai College in Polson, Montana, where an 
American Indian Math and Science Camp will engage the interest of 
tribal children in math and science in the context of their traditional 
culture. The camp annually serves about 70 6th graders from the 
Flathead Indian Reservation.
    In summary, the Forest Service provides a diverse spectrum of 
programs, projects, research and a unique land base to help meet the 
concerns brought up by your committees on reconnecting children to 
nature. I am proud of the efforts put forth by our employees and 
partners. We have more work to do to address these issues and we 
continue to support these efforts within the resources we have. I 
believe our work with children is critical to the long-term health of 
the lands under our stewardship, and to the Forest Service. This 
concludes my testimony, I would be happy to answer any questions that 
the committee members may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Chief. Let me turn now 
to the Commissioner, Gina McCarthy, from the Connecticut 
Department of Environmental Protection. Commissioner?

     STATEMENT OF GINA McCARTHY, COMMISSIONER, CONNECTICUT 
             DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. McCarthy. Thank you, Mr. Chairman, and thank you for 
inviting me here today to offer my testimony. I know you have 
heard and you will hear from many experts who will speak 
eloquently and many have written eloquently about the need and 
the importance of connecting children with nature. Today you 
will hear from many of us who have actually taken action to do 
just that.
    In particular, I would like to call your attention to 
Richard Louv, the author of Last Child In the Woods: Saving Our 
Children From An Age of Deficit Order, and many others who have 
observed that today's children are actually in danger of losing 
that connection or indeed never getting the connection to 
nature that is so important. It is clear that if we fail to get 
our children back outside, and fail to have them make a 
connection with nature, our society as well as our children 
will suffer.
    Now, speaking to you as a mother of three as well as an 
environmental professional, I am gravely concerned with this 
issue, and I am very engaged in this issue because if you show 
me a generation of adults that did not experience the wonders 
of nature firsthand when they were young I will show you 
taxpayers and voters who do not care about preserving open 
space, who do not understand about biodiversity, who will not 
invest in clean air and clean water and will not work to 
maintain our forests and parks and keep our lands free from 
pollution.
    At least they will not care until it is too late. There is, 
of course, no way for us to turn back the times to the good old 
days when we as kids would fly out the door and not come home 
until the lights came on--playing endlessly in unstructured 
play--but if we want to get our children out today, we can 
still do that. We just need to be creative. We need to be 
committed. We need to make it easy, safe.
    We need parents and their children outside in safe places, 
and we need to make it interactive for them. We cannot just 
have open spaces and expect them to come. Now, in Connecticut 
we have taken some steps, and we are trying to do an initiative 
that we had launched with the help of Governor M. Jodi Rell 
back last March, in March of 2006, and we called it the No 
Child Left Inside Initiative.
    The goals of No Child are to reconnect our youngsters with 
the outdoors, to build the next generation of environmental 
stewards and to showcase our state's wonderful parks and 
forests. It is a multifaceted approach to spread the word to 
families of all types in all corners of the state. The key 
element of this initiative is our own brand of a reality TV 
show, and it is complete with clues and prizes.
    We call the multi-week contest Our Great Park Pursuit, and 
we have families traveling to different state parks and forests 
across the state pursuing games and adventures. When we 
launched it last year the response was so overwhelming that we 
had to shut off or overwhelm our state parks. We shut off the 
contest, but we launched it again this year in 2007. We had 
more than 750 families signed up.
    That is more than 3,000 people signed up in the course of a 
couple of weeks and registered online to participate in this 
game. I would encourage you to connect in with our website, it 
is called www.nochildleftinside.org, because it has become a 
community bulletin board. There are pictures, there are 
comments from all of the families participating, and you will 
see what it looks like when families are having a wonderful 
time outdoors together.
    The seven week adventure this year started in Bridgeport, 
which is an old industrial city like many that are scattered 
throughout New England, but we use the occasion to show people 
that there are great places to visit and there are safe outdoor 
activities for them no matter where they live. We had them 
fishing in an urban pond and having fun in all the grasslands 
and the zoos that surround it.
    This past week the families went on a hike up at Haystack 
Mountain State Park where they could see the beautiful views of 
Long Island Sound as well as the beautiful views of the 
Berkshires in Massachusetts. During the next five weeks they 
will be visiting five other parks doing a variety of games, and 
they will be eligible for grand prizes that were donated by 
private sector business retailers that are outdoor equipment, 
like camping, hiking and bicycling, to keep them engaged in 
outdoor activities.
    Now, while the Great Park Pursuit is the major focus of our 
No Child Left Inside effort it is not the only thing we are 
doing. We are reengaging park interpreters. We cannot expect an 
urban kid to go in the middle of the woods, plunk him down and 
say go have a good time. We need to have staff there that will 
greet them, that can introduce them to the natural resources, 
that can really get our kids and families hooked.
    We are placing free park passes in our libraries so that if 
access or funding is an issue we will get around that, too, we 
are offering free park passes to every foster family because of 
donations from Bank of America, and we are reaching families 
that we never would have reached and drawn into our park system 
before. We have a new urban fisheries program to bring the 
community in the urban areas fish that they can fish.
    We give them the poles, we give them the training, we 
connect them with the park agency. We get them out there and 
get them hooked. We are focusing on safe swimming so that when 
we get them out there they will be safe while they are there. 
So we believe that Connecticut is paving the way in 
demonstrating that we can take action, and we can turn all of 
this worry into great things that are exciting, and that are 
fun and engaging.
    Today is a great opportunity for us to engage in this with 
Congress because we all know that it is very difficult to keep 
all of these programs operating and functioning.
    As we are facing difficulties with budgets, it seems that 
parks and educational opportunities tend to end up being the 
last on the totem pole but, as you know, that is a bit 
shortsighted because nothing is more important than investing 
in the health and well-being of our children, nothing is more 
important than stimulating this next generation of 
environmental stewards and reconnecting them to the outdoors, 
so through programs like No Child Left Inside we really can 
make a difference.
    I would just end by mentioning Rachel Carson because I 
know, Mr. Chairman, you did mention her. I do not know if you 
realize it but this Sunday is Rachel Carson's 100th birthday 
that we are celebrating. As you know, she was one of the great 
environmental thinkers of our time and everybody knows about 
her book, Silent Spring, which was a wonderful dedication to 
make us really sit up and take notice.
    She pretty much single-handedly called attention to our 
great national treasure, the bald eagle, and helped to save 
that with that book. Rachel Carson also wrote another book, and 
that book was called The Sense of Wonder. It was about this 
special connection between children and nature.
    What she said is if a child is to keep alive his inborn 
sense of wonder, he needs the companionship of at least one 
adult who can share it--rediscovering with him the joy, the 
excitement and mystery of the world we live in. That is exactly 
what we are trying to do in Connecticut through our No Child 
Left Inside initiative. We are trying to have children and 
adults share memorable adventures in our state parks so they 
can rediscover the joy, the excitement and the mystery of our 
natural world.
    We hope with the support of the Subcommittees here today 
that we can begin a similar national program that will reach 
every child in this country and give families everywhere an 
opportunity to have that kind of life-altering experience. 
Thank you very much.
    [The prepared statement of Ms. McCarthy follows:]

               Statement of Gina McCarthy, Commissioner, 
           Connecticut Department of Environmental Protection

    Thank you for inviting me to offer testimony today on ``The Nature 
Deficit: Reconnecting Kids with the Outdoors.''
    Preparing for today's event made me think back a little to what the 
world was like when I was a youngster.
    It was a time when you left the house early on a Saturday morning--
and you were not likely to return until the streetlights came on.
    But that was ok. Staying inside was punishment. What you wanted to 
do was get outside to ride your bicycle, explore the neighborhood woods 
or find some adventure somewhere.
    I bet if I asked all the adults in this room to think back to the 
best memories of their childhood, those memories would not be indoors. 
They would be of time spent outdoors--with friends--or on family trips 
to a park, a beach or a campground.
    I know the world has changed a great deal since I was a child--and 
most changes have been very positive. The passage of time, however, has 
taken a heavy toll on our children and their ability and willingness to 
simply go out and play, unless you count sports or other organized 
activities, which I do not.
    Today, youngsters are not itching to go outside. They are stuck 
indoors, plugged in to cable TV, DVDs, high-speed Internet access and 
electronic games. Even if a child wants to go out, the cars drive too 
fast and no one wants to let their kids out of their sight for safety 
sake. In many ways, our sense of community is confined to our homes, 
schools and places of worship.
    Whatever the reasons our kids stay indoors, the results are 
alarming.
Protecting the Health and Well Being of Our Children
    More and more children are getting an unfortunate head start on 
health problems such as diabetes and heart disease that they will carry 
into adulthood.
    Medical studies show that in the mid-1970s, five percent of kids 
were overweight. In 2002, 23% of preschoolers were overweight or obese. 
Currently the national average of overweight kids is 33%, and obese 
kids represent 17% of the population. In the last 30 years, rates of 
overweight and obesity have tripled among preschoolers and quadrupled 
among school-aged kids. In fact, the prediction is that by 2010, one-
half of all American children will be overweight.
    In addition, children are less active than they have ever been.
    One-third of kids watch more than four hours of TV a day. Young 
children spend more time watching TV, video games, or computer, than 
doing any other activity other than sleep. In the United States, fewer 
than 10% of kids receive daily physical education and only 15% of kids 
walk to school.
    Experts also tell us that spending time outdoors is not only 
important for physical health, it is critical to the development of 
cognitive and social skills. Is it any wonder that more and more of our 
homebound youngsters are taking medication for depression and other 
behavioral problems?
    A number of experts from many fields have written eloquently about 
the importance of the connection between nature and ourselves and our 
children.
    Edward O. Wilson, the Harvard professor noted for his work in the 
field of biodiversity, addressed this topic head on.
    In his Pulitzer Prize winning book, ``The Diversity of Life,'' 
Wilson wrote, ``Given the means and sufficient leisure, a large portion 
of the populace backpacks, hunts, fishes, birdwatchers and 
gardens...They crowd the national parks to view natural landscapes, 
looking from the tops of prominences out across rugged terrain for a 
glimpse of tumbling water and animals living free. They travel long 
distances to stroll along the seashore, for reasons they can't put into 
words.''
    ``These are examples,'' Smith said, ``of what I have called 
biophilia, the connections that human beings subconsciously seek with 
the rest of life.''
    Yet, as Richard Louv has observed, we are in danger of losing this 
important connection.
    Louv is a newspaper columnist in San Diego who is leading the 
charge across our nation to get children back outside. He wrote a book 
entitled, ``Last Child in the Woods: Saving Our Children from Nature-
Deficit Disorder.''
    In his book, Richard Louv writes, ``...at the very moment that the 
bond is breaking between the young and the natural world, a growing 
body of research links our mental, physical and spiritual health 
directly to our association with nature--in positive ways.''
    Louv wrote it is critical to restore this bond because ``the health 
of the earth is at stake...'' He says, ``How the young respond to 
nature, and how they raise their own children, will shape the 
configurations and conditions of our cities, homes--our daily lives.''
    It is clear, that if we fail to get our children back outside and 
fail to have them reconnect with nature, our society as well as our 
children, will suffer. Show me a generation of adults that did not 
experience the wonders of nature firsthand when they were young, and I 
will show you taxpayers and voters who will not care about preserving 
open space, maintaining biodiversity, keeping the air and water clean, 
maintaining our forest and parks, and keeping our land free from 
pollution.
    There is of course, no way to turn back the hands of time. There is 
no way to wave the magic wand and return to the so-called ``good old 
days,'' when children could fly out the door and play outside to their 
hearts content. If we are going to get our children outside again we 
need to make it easy, safe and fun for parents and their children to 
rediscover the wonders of nature and some old fashioned sense of 
community.
Connecticut's Answer: No Child Left Inside
    In Connecticut, that is exactly what we are trying to do through an 
initiative we call, No Child Left Inside.
    With the encouragement of Governor M. Jodi Rell, the Connecticut 
Department of Environmental Protection launched No Child Left Inside in 
March of 2006.
    The goals of No Child Left Inside are to reconnect youngsters with 
the outdoors, build the next generation of environmental stewards and 
showcase Connecticut's state parks and forests.
    Exactly how are we moving to accomplish these goals? With a multi-
faceted approach that tries to spread the word to families of all types 
in all corners of our state.
    A key element of this initiative is a contest that is Connecticut's 
own version of a ``reality TV'' show--complete with clues and prizes. 
We call the contest--which has families pursuing games and adventures 
in state parks and forests across Connecticut--The Great Park Pursuit, 
The Connecticut State Parks Family Adventure.
    We recently launched the 2007 edition of the contest. More than 750 
families signed up on our website to compete. The website--
www.nochildleftinside.org -- is also the ``community bulletin board'' 
for participating families, a place where they can share stories and 
photos of their days in our parks and forests. Take a look at the site, 
read some of the positing and look at the pictures. You'll see what it 
looks like when families are having fun together in the outdoors.
    This year's seven-week state park contest kicked off May 12 in 
Bridgeport, Connecticut. Bridgeport is an old industrial city, like 
many scattered throughout New England. But we used this occasion to 
show people that there are great places to visit everywhere in our 
state. At Beardsley Park in Bridgeport, families fished in a pond that 
we stock as part of an urban fishing initiative and participated in fun 
and educational games on acres of grass that surround the park.
    This past weekend, participating families went on a hike at 
Haystack Mountain State Park in western Connecticut. There reward was a 
view of Long Island Sound to the south and the Berkshire Mountains of 
Massachusetts from the top of a historic 34-foot high stone tower that 
sits atop this mountain.
    During the next five weekends, families will visit five other 
parks, participate in a variety of activities and try to maintain their 
eligibility for three grand prizes. Families that make it to all seven 
parks will be eligible to compete for these prizes on the last day of 
the contest. The prizes are attractive packages of outdoor equipment--
camping, hiking and bicycling--offered by Connecticut retailers.
    Last year, more than 400 families registered for the game; about 
200 actively participated. One hundred families came out for every week 
of the 2006 Great Park Pursuit and were eligible to compete for the 
grand prizes. This year we expect at least twice as many to be 
eligible.
No Child Left Inside: Other Program Elements
    While The Great Park Pursuit contest is certainly a major focus of 
No Child Left Inside, it is only the beginning. It should be noted that 
many of these programs are part of a broad strategy to provide a safe 
and convenient framework to make certain families have a positive 
experience when they do get outdoors. You cannot hope to have a 
meaningful and lasting impact on people's attitudes if you literally 
drop people off in the woods--especially if they have spent little time 
there--and tell them to have fun. We need to provide proper guidance, 
support and activities that will capture the imagination of today's 
youngsters.
    The other program elements include:
    Additional park interpreters at Connecticut's state parks.
    <bullet>  Last summer we were able to add 10 interpreters, bringing 
our number to 47, and we will again have these positions this summer. 
The interpreters are able to offer programs and activities at our key 
parks, and to be on hand to make visits to them more rewarding and 
enriching. Our park interpreters help ensure that once people go to a 
park they will want to visit more parks.
    Free passes to our state parks and state park museums at public 
libraries
    <bullet>  Working with the Connecticut Library Consortium, we have 
placed a free state park day pass in the main branch of every municipal 
public library in Connecticut. Library patrons can borrow the pass and 
use it for free parking--or admission--at the major state parks where 
these fees are charged. Library patrons can also checkout a guidebook 
we are providing to research their state park destination. Libraries 
tell us this program has been a success and the park pass is an item 
always in demand. We are offering this program for the second year this 
summer. We also worked with libraries to coordinate their summer 
reading programs with activities in our state parks--so youngsters 
could translate what they were reading into first hand experiences in 
the outdoors.
    Safe Swimming
    <bullet>  We have made the DEP and the No Child Left Inside 
websites a clearinghouse for information on swim lessons offered 
throughout Connecticut by the Red Cross, the YMCA and city and town 
park and recreation departments. Once again, if we are successful in 
getting families back outside and to our park beaches, we want to make 
certain everyone knows how to swim and be safe in the water.
    Expanded Environmental Education
    <bullet>  DEP is increasing and improving environmental education 
programs we offer at nature centers and state park facilities we 
operate. We are working to bring more school groups, scout groups and 
youth groups to these centers to engage in ``hands on'' learning that 
makes the outdoors come to life in a lasting way. That is the best 
strategy for leaving a lasting impression and stimulating a lifelong 
interest in youngsters.
    Several of our new programs are aimed at reaching people in our 
society who are often left behind and provided with little 
encouragement or few opportunities to spend time outdoors. These 
programs, which are helping to increase the diversity of the people we 
are reaching, include:
    Free state park pass for foster families
    <bullet>  Through a grant from Bank of America, we are able to 
offer, for the second year, a free state park pass to each of the more 
than 2,500 foster families in our state. The pass, which normally sells 
for $40, is good for free parking at the major parks where the state 
charges parking fees. Last year more than 1,300 foster families 
accepted our offer and obtained a pass. We expect this number to grow 
this year. The foster family state park pass program vastly extends the 
reach of our No Child Left Inside initiative.
    Urban Fishing
    <bullet>  Stocking fish at 11 ``family-friendly'' trout parks and 
at four new urban ponds--in coordination with local park department 
programs. We also offer free school-based fishing lessons in urban 
schools with the assistance of trained volunteers. There is no activity 
better than fishing to entice families to spend time together in the 
outdoors and we want to make certain this activity is readily available 
and accessible to everyone on our state.
    Free Bus Transportation
    <bullet>  With the leadership of a regional water company in 
Connecticut, Aquarion, we are offering free bus transportation from 
Connecticut's urban centers to four of the Great Park Pursuit 
activities. This bus service provides an ``environmentally friendly'' 
way for families to reach thee events. It also, however, makes it 
possible for families lacking their own transportation to get outside 
and join in.
Lessons of No Child Left Inside
    So, what do we have to show for our efforts with No Child Left 
Inside?
    We believe Connecticut is paving the way and demonstrating that we 
can take action to address the issue of getting children back outside. 
No one is going to solve this problem overnight. But it is time to stop 
lamenting the problem and to take some action. Just get the ball 
rolling. and we can start building some momentum. The fact that this 
issue is before two Congressional subcommittees today is a positive 
sign that we are building some momentum.
    Connecticut's efforts have received tremendous media attention in 
both our state and across the nation. This has helped call more 
attention to the issue of getting children back outside.
    Staff from the Connecticut DEP is in demand--everywhere--to speak 
to state and federal officials about what we have done, how it is 
working and how others can build on the No Child Left Inside model.
    Two other New England States, Massachusetts and New Hampshire, 
actually launched their own version of The Great Park Pursuit state 
park contest this summer. We even lent them our logo.
    No Child Left Inside is more than child's play. It is a sustained 
effort to entice families and children back outside. Once they get out, 
they will discover the beauty of our state and national parks and the 
wonders of nature. They will also find out that fresh air and exercise 
is invigorating and healthfully addictive. We've also seen another real 
benefit--that these outdoor activities bring families together and help 
families make new friends. Put people outside, away from all of the 
distractions of modern life, and you are giving people some truly 
``quality time,'' time when they can relax, talk, have fun together and 
reconnect with each other as well as nature.
    Listen to what some of our families are telling us...these are 
notes posted on the No Child website I mentioned earlier. The 
excitement and spirit of the experiences these families have had in the 
outdoors comes ringing right through their words.
    These letters came to us at the conclusions of last year's Great 
Park Pursuit contest:
    ``Kudos, kudos, kudos--please tell whoever dreamed up this idea 
that this is a real winner! CT has lots of outdoor activities to get 
our kids out behind the Game Boy, Play Station, TV, etc. I am very 
impressed with this.''
    ``We are so grateful to the many volunteers who participated and 
made this so wonderful. This will truly be an experience that the 
families in CT will remember and cherish.''
    ``We are so fortunate to have moved to this wonderful state...We 
had a wonderful time, and are grateful to the DEP for providing us with 
the experience.''
    These letters have come to us with the start of this year's 
contest.
    The first one came to us after the first day. This family wrote:
    ``The first day was so exciting! When we arrived at Beardsley Park 
there were so many families enjoying the beautiful day, the various 
activities, and, of course, the fishing! Our 8-year-old son thought the 
fishing was the best part of the day. So much so, that we were 
convinced to get fishing equipment for the whole family! He's been 
asking to go fishing just about every day! The fun games and activities 
were a hit with our 2-year-old daughter. The fish prints made are still 
gracing the fridge door! We are having fun deciphering the clues and 
look forward to solving them and going to the next park. This is a 
great way for our family to spend quality time together.''
    After taking the hike that was the activity for the second week, 
another family's note on the web page said:
    ``We really had a great time Saturday. ``We met a few families that 
were as happy about doing this activity as we were. It was damp but not 
really cold and I was proud of my children and myself as I have not 
hiked in awhile with a backpack baby. Thank you all for your wonderful 
words of encouragement, and we look forward to running, hiking, or 
whatever into you again next time. Thank you also to Trailblazers for 
teaching us about letterboxing, we think we are going to try it out.''
Shaping a National Policy
    No Child Left Inside is a wonderful, ongoing story of 
accomplishment in Connecticut. The most important point here, today, 
however, is to relate it to the work of your subcommittees.
    How do we use the Connecticut experience to shape national policy 
and accomplish what we all want to see: more healthy children enjoying 
the outdoors and developing a lifelong appreciation for nature?
    Let me share a few thoughts with you on this topic.
    As always, funding is a key.
    In Connecticut, we have put our initiative into place with limited 
funds. A large part of our success is due to grand prizes donated by 
leading retailers and free time on television donated by our local CBS 
affiliate to promote the Great Park Pursuit contest.
    Ingenuity is great and we all need to work hard to stretch the 
resources available to us. But, if states are going to succeed in 
developing their own programs, they need your support. And if we want 
to use our national parks and forests as a springboard to get families 
back outside, they also need your support.
    And while more funding is needed for maintenance, repairs and 
upkeep to our national and state parks and forests, we also need 
additional funds. These dollars are needed to promote the parks, to 
attract families there and to provide them with programs and activities 
that make their visits memorable and exciting. We not only want to get 
families to our parks and forests, we want them to come away excited to 
plan their next visit.
    In the public sector, we always face the budget squeeze.
    Somehow, spending on items like parks, park programs and 
environmental education are the first casualties when the budget ax 
comes out.
    But that is short sighted.
    Nothing is more important than investing in the health and well 
being of our children. Nothing is more important than stimulating a new 
generation to experience the outdoors and to care about the environment 
and the very future of our planet.
    This week's announcement of a new grant program from the U.S. 
Forest Service to help state's address this issue is a good start--but 
it is only a start. The Forest Service, along with foundations 
providing funding, announced a $1.5 million ``Kids in the Woods'' 
program to help more youngsters reconnect with nature.
    The Forest Service says this program will fund 24 projects in 15 
states that will reach more than 23,000 children. This points us in the 
right direction. But working together we can hopefully extend and 
expand this and other similar programs to help the 50 states reach more 
and more children. With additional federal funds for programming and 
outreach, states will be able to leverage support from foundations and 
the business community.
    As Connecticut is showing, through programs like No Child Left 
Inside, we can make a real difference in the lives of our young people 
and the future of our nation.
``Sense of Wonder''
    Just a few days from now, on Sunday, we will make the 100th 
anniversary of the birth of Rachel Carson. Rachel Carson was one of the 
leading environmental thinkers of the 20th century. She wrote the 
landmark book, ``Silent Spring,'' that warned of the dangers of the 
unrestricted use of pesticides such as DDT and probably save our 
national symbol, the bald eagle from extinction.
    Rachel Carson understood the important Connecticut between the 
healthy development of children and the outdoors.
    In another of her books, ``The Sense of Wonder,'' she wrote, ``If a 
child is to keep alive his inborn sense of wonder, he needs the 
companionship of at least one adult who can share it, rediscovering 
with him the joy, excitement and mystery of the world we live in.''
    That is exactly what we are trying to do in Connecticut through No 
Child Left Inside.
    We are trying to have children and adults share memorable 
adventures in our state parks so that they can rediscover the joy, 
excitement and mystery of our world.
    We hope that with the support of the subcommittees here today that 
we can begin building a program--national in scope--that will give 
families everywhere the opportunity to have that kind of life altering 
experience.
    Thank you for the opportunity to speak with you today.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me begin with questions, and 
the other members of the Committee as well. Chief Kimbell, you 
mentioned the environmental literacy in your testimony, and 
what a need that was, a looming problem that is becoming more 
and more. The other issue that you mentioned was the need to 
have an urban interface with our public places and our natural 
places.
    As we listened to Commissioner McCarthy's testimony, she 
testified that even offering free park passes for targeted 
populations that are under-represented or under-utilize our 
public parks is a way to increase attendance at these state 
parks and get particularly young people and kids involved. Is 
there any concern in your part, Chief, as we continue to talk 
about increasing recreational fees the kind of potentially 
negative impact it is going to have on efforts to encourage 
families and young people to use our national forest land?
    As you mentioned that visitation of young people to our 
public forests, do you think that recreational fee has an 
impact on visitation rates?
    Ms. Kimbell. Chairman, less than one percent of the 193 
million acres of national forest system land is managed with a 
fee structure. Less than one percent. The remaining acres, 
nearly 191 million acres, have open access to anyone and 
everyone. The national forests vary pretty significantly from 
the national parks in that we do not have entrance gates, we do 
not have access gates and there is tremendous landscape there 
available for use by all Americans and American visitors.
    We look at the national forest as being a component and a 
system of public lands including all the lands that Mr. Cason 
talked about, and certainly Americans have access across that 
spectrum.
    Mr. Grijalva. One other question, Chief. In the Fiscal Year 
2008 budget proposal from the Administration it constricts the 
Forest Service budget. Some of the estimates that we have heard 
is that if it were to be enacted as recommended that we are 
looking at a cut of 3,000 FTEs. This potential, what effect 
would that have on the efforts that we are talking about today 
to reconnect kids and nature in our forests?
    Ms. Kimbell. The 2008 budget as proposed by the 
Administration has a lot of very difficult tradeoffs displayed 
in it, and certainly to finance fire suppression it has caused 
us to have to show reductions in other programs across the 
board. Still, with the dollars that are proposed in that 2008 
budget we would look at prioritizing allocating those monies to 
where there are partners, where there are contributed dollars 
and really focusing on where there is a larger gain to be 
realized than just if there were national forest system dollars 
applied to specific projects.
    Mr. Grijalva. And that larger gain I would assume is part 
of the subject of this hearing today, reconnecting kids and 
young people to our public lands?
    Ms. Kimbell. Absolutely. In fact, on Tuesday we had a 
ceremony at the Department of Agriculture where we awarded 
grants to 24 projects across the Nation where there were 
partners who had come forward with dollars and contributed 
time. This is not simply a Forest Service issue, but certainly 
we are all in this together across the Federal agencies, the 
states and local agencies.
    Mr. Grijalva. Commissioner, if I may, other than the 
obvious point, which is funding--can't get away from it--but 
other than the funding question, which you mentioned is in 
short supply everywhere, are there other specific ways that you 
think the Federal Government can partner with states to further 
the programs that Connecticut has created as a model nationally 
for all of us?
    Ms. McCarthy. Mr. Chairman, we have had a wonderful 
response, both with other states who are launching similar 
types of initiatives as well as with the Federal agencies who 
have shown great interest in looking at what they do and trying 
to figure out if they can sort of restructure the way in which 
they think about the preservation of the country's forests and 
natural resources.
    I know that I have met with many individuals at the Federal 
level, with the Forest Service, we have gone to working groups 
together. One of the things they are considering is that much 
of what we do on the conservation side has tended to set up 
areas that are less than inviting to individuals. They almost 
look like they are pristine areas where you would be afraid to 
bring your kids in for fear that they would trample on the 
wrong flower.
    I think we have to recognize that we need to draw kids in 
to these natural areas where they can have fun again and try to 
engage them in an interactive way rather than create museums of 
our open spaces. We have to think differently about it, and 
there will be tradeoffs associated with that.
    If we continue to keep looking at these areas as if they 
are pristine, and unconnected with individuals and with our 
kids, we will not reconnect kids as part of an ecosystem and 
get them to understand they are part of this larger natural 
world and it will reinforce this screen saver mentality that 
they are all by themselves and then the world is this out 
there. We need to break through that, and I think part of that 
may be how we manage our lands.
    Mr. Grijalva. Thank you. Just before I turn over to the 
Ranking Member for his questions just let me note that 
Connecticut has done a very impressive job connecting kids, 
young people, with nature and with our public lands and truly 
is a good model for all of us to look at.
    Ms. McCarthy. Thank you very much.
    Mr. Grijalva. Mr. Bishop?
    Mr. Bishop. Thank you. Let me see if I can hustle through 
some of these questions for all of you. Secretary Cason and 
Chief Kimbell, actually it is probably unfair to ask you this, 
but maybe you at sometime could provide for us, Chief Kimbell, 
especially with the programs you are talking about, if there is 
any objective data you have showing the efficacy of those 
particular programs, not anecdotal.
    It is probably unfair right now, but if you have that if 
you could supply that for us in the future I would be 
appreciative.
    Ms. Kimbell. Absolutely we can supply that given specific 
research data actually from a project in the Los Angeles basin. 
We can provide just that kind of information.
    Mr. Bishop. That would be helpful, and the same thing with 
Secretary Cason. I understand that visitation in the national 
parks, for example, is declining, but it is declining 
especially amongst young people. I think Commissioner McCarthy 
just said I think the key element to it, that oftentimes we 
need to come up with programs that make them more inviting, 
especially with young people coming in here.
    I was actually going to ask you some questions, but to be 
honest the new director you have at the Park Service clearly 
understands that and has stated that is one of her goals is to 
try and make these parks more inviting so it is not a museum 
and kids would be willing to come in there. So I commend the 
Administration for what you are doing in both of these 
particular areas.
    Mr. Cason. Thank you.
    Mr. Bishop. Let me spend most of the time if I could with 
the Commissioner. I do not ask any of these questions in 
criticism because I enjoyed what you said, and I am very 
pleased with what is going on. I think it would be wise, also, 
just for the record to show that according to the Center of 
Disease Control there are four states. The four states that 
have the least obesity amongst their kids, Connecticut is one 
of those four states.
    Of those four states only one, Colorado, is a public land 
state. The others have almost very little Federal, Federal 
public land states that are in there. I did notice, we will 
have testimony later on, that in a 15 year period of time 
organized sports have increased like 27 percent, but the 
obesity has still increased beside that. How long has the 
Connecticut program been going on? Well, that is the first 
question. How long have you been doing this program?
    Ms. McCarthy. We launched it in March of 2006.
    Mr. Bishop. I am actually wondering, have you done any kind 
of studies to see if there is a Hawthorne effect going on, 
i.e., people get excited about something when it is new and 
then it drops off precipitously? I am making the assumption. 
You probably have not been going long enough with that program 
to make that kind of evaluation.
    Ms. McCarthy. No. I cannot say. We can give you some 
anecdotal evidence. Certainly people are excited about it. 
Whether it is going to last is the challenge. Moving this into 
something other than this game situation is what we need to do.
    Mr. Bishop. Yes. Which is a challenge obviously. The parks 
and the forest have it the same time. It runs with everything, 
any kind of organized program. Can I just ask you, though, some 
specifics you had there? When you said they went to Fun in the 
Grasslands, and the zoos, Games in the Park, can you just give 
me an example of what you are talking about?
    Ms. McCarthy. Sure. Let me tell you what we did. We have 
launched this a couple of times, and we bring in programs that 
are already developed educational initiatives that have been 
funded through Federal dollars and state dollars like Project 
Learning Tree, WOW, Project Wild. These are all educational 
programs.
    Mr. Bishop. I am not trying to cut you off, I just want to 
know what would the kids actually be doing?
    Ms. McCarthy. Part of it was visiting booths where we have 
a variety of activities. They were fishing. We actually taught 
them how to fish. We gave away fishing poles that were donated 
to us. We had instructors there teaching kids and parents how 
to fish. We even did silly things like tug of war, three-legged 
races, sack races, because it lights up families.
    Mr. Bishop. That is the kind of stuff I want.
    Ms. McCarthy. This is not just connecting kids with the 
outside world. It was a wonderful memory building moment. It 
was really priceless to see this happen. It was totally 
unstructured play, which is what we do not get.
    Mr. Bishop. All right. That is what I wanted to hear, and I 
appreciate that. Especially we noticed, also, with the Chief 
when you said the kids got hooked on the fishing. I am 
supposing you are talking about the kids not necessarily the 
fish. Nice pun anyway.
    Ms. McCarthy. Much more the kids than the fish, actually.
    Mr. Bishop. I have like one minute. Let me pontificate for 
just a minute. I appreciate the testimony of the Commissioner 
because you have illustrated what a state can actually do with 
the creativity of a state. Louis Brandeis said the states are 
the great laboratory of experimentation in America. What you 
are doing in Connecticut probably will not work in Alaska. I do 
not think it will work in Utah either.
    I think what you illustrate is the importance that states 
can play in this role by designing programs specifically for 
their demographic needs, and that is why the states need to 
have the greatest amount of flexibility. The worst thing I 
think that could happen to this is in some way letting the 
Federal Government Federalize this program and try to export it 
throughout the rest of the nation.
    My whole background is a school teacher and a member of the 
legislature. I realized it was often easy to come to the 
legislature and try and mandate a program for the schools to 
carry through simply because you only have one spot to stop and 
you can mandate it over everybody. Even if we mandated 
something on a state if the local school board did not buy into 
that program it was not going to be done.
    I think you have illustrated very clearly the same thing 
that will happen on the Federal level. We could mandate almost 
anything we want to. If the state has not bought into it, if 
the local communities have not bought into, if they are not 
willing to put forth their money, and to work seriously and 
have this as a major concern we can mandate anything we want to 
up here and it just flat out will not happen.
    So I commend what you have done in the State of 
Connecticut, and I think it is a good model for other states to 
look at and then try to replicate it by their own needs, and 
their own standard, and their own basis and with their own 
commitment. I am sorry I went over. I apologize for that.
    Mr. Grijalva. Let me next go to Ms. Herseth-Sandlin if she 
has any questions.
    Ms. Herseth. Yes. Thank you, Mr. Chairman. Thank you for 
having this hearing. I want to thank all of our witnesses for 
their testimony today. I agree to a large measure with what the 
Ranking Member was talking about in terms of the flexibility 
that states maintain as it relates to developing these 
programs.
    However, some states are better than others in working 
directly with tribes to develop programs that reach children in 
Indian country, and so I would ask you, Mr. Cason, and Chief 
Kimbell, what has been developed through your agencies 
specifically with tribes to enhance these outdoor experiences 
for Native American children when we have the highest teen 
suicide rates among that demographic in the country; when we 
have--not so much in terms of the exact figures that I have for 
childhood diabetes--but clearly adult onset diabetes in Indian 
country?
    So what has been the outreach there? Are there any programs 
that have been specifically designed through either of your 
agencies to work with tribes to enhance outdoor experiences 
with the Forest Service or other outdoor programs through the 
BIA or elsewhere with tribes directly?
    Ms. Kimbell. With the Forest Service, we actually have over 
600 offices located across the country, most often in very 
rural communities and most often the closest Federal or state 
agency office to so many tribal headquarters' locations. The 
Forest Service has been very actively involved in working with 
tribes. An immediate example I can give you is in Tuesday's 
ceremony that was hosted by a number of partner groups.
    We were actually able to make an award to a program that 
has been ongoing for a number of years with the Salish-Kootenai 
Tribe in Montana where the Rocky Mountain Research Station is 
working with kids at the sixth grade level to get kids out and 
involved with understanding the ecosystem and ecology around 
Flathead Lake, which is an important tribal area.
    On the Nez Perce Reservation with the Nez Perce Tribe the 
Clearwater National Forest in Idaho works very closely with the 
leadership on the Nez Perce Tribe to offer different programs 
to the kids in that location. This is repeated around the 
country working with tribes, with pueblos, with a lot of 
different Native American groups, both at the governmental 
level and at the cultural level.
    Ms. Herseth. Just a quick follow-up, Chief Kimbell. Are the 
state governments in Montana and Idaho involved as partners in 
that program as well?
    Ms. Kimbell. Not in those two that I mentioned, but the 
states are very involved in a number of other programs. We try 
and not duplicate, but rather try and ensure a pretty broad 
application of our resources.
    Mr. Cason. Congressman, I would say for the Department of 
the Interior, as you know we have the Bureau of Indian Affairs 
in the Department of the Interior, and we have government-to-
government relationships with 561 tribes scattered across the 
U.S. One of the things that I would point out is that generally 
Indian country is rural to begin with.
    The way that our country expanded and where we placed 
Indians ended up having them in rural locations, so the typical 
environmental exposure for Indian children is rural to begin 
with. Then if you take a look at the Department of the Interior 
overall most of our lands are fish and wildlife refuges, our 
national parks, our Bureau of Land Management land, and the 
other programs we have are principally rural as well.
    We have cooperative and partnering relationships with both 
state governments, local governments, Indian tribes, private 
sector organizations, on how we can bring children into our 
environment which is essentially a rural environment. So across 
the board either through 638 compacting or contracting under 
the Indian Self-Determination Act, there may be examples there 
where we have actually contracted with the Indian governments 
to undertake some of our programs.
    As Gail was mentioning, we have that kind of a program at 
the National Bison Range in Montana with the Salish-Kootenai 
and with the Athabaskan Tribe in Alaska, so we have a multitude 
of opportunities there. I do not know the full breadth of 
programs where we have actually contracted with the Indians, 
but those are a couple of examples.
    Ms. Kimbell. If I might add just real quickly, too, that we 
have a lot of natural resource camps for Native American youth. 
The Forest Service does an in-partnership with states and local 
agencies and certainly with the tribes. In some of those camps 
they even go on further to provide training for different 
potential jobs in fire fighting. These are very active 
programs, and we would be happy to visit with you more.
    Ms. Herseth. I am well aware of the partnership in South 
Dakota between the Forest Service and the state firefighting 
team out in western South Dakota, and with the students that I 
have met personally from some of the tribes--not just in South 
Dakota but also from surrounding states--who have participated 
and understand how important that is.
    Mr. Chairman, if I may just ask for one more minute to 
comment on Mr. Cason's response. I think what we are trying to 
get at here is an educational outdoor experience for children. 
It is not a rural experience, it is an educational outdoor 
experience. I grew up on a farm in a rural county right on a 
national wildlife refuge and benefited from programs offered 
within the refuge, benefited from the types of field trips that 
some of the schools in this rural county participated in.
    So I do not think that it is adequate simply to say that 
given the history of where reservations were located there the 
children are growing up in a rural setting.
    It is creating programs where we integrate native culture 
that has been demonstrated to enhance the educational 
experience, to participate in not only with what the Forest 
Service has to offer or other Federal lands, but also providing 
resources and expertise with the sensitivity and input gathered 
from elders and others to create these programs, not just the 
fact that because these young people are growing up in a very 
remote area. That in and of itself addresses the issue that 
urban young people may not have.
    So I appreciate some of those relationships that have 
developed as it relates to park management and other things, 
but I do want to make clear that just because a young person 
grows up in rural America does not mean they are having an 
enhanced outdoor educational experience unless we have programs 
that we have developed to ensure that. So I appreciate the 
additional time, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Gilchrest, any questions, 
please?
    Mr. Gilchrest. Thank you, Mr. Chairman. I guess the word 
here is initiative on our part. The word is not a mandate, the 
word is not a Federal program. I think the word is initiative, 
and what the gentlelady from South Dakota said--North Dakota, 
South Dakota, I always get those two states mixed up, South 
Dakota--is the word integration.
    It is the integration of ideas not necessarily that is 
coming from the Federal Government, or the state government, or 
the local government, it is the integration of ideas. Emerson 
said a quote a number of years ago which I will paraphrase. A 
thousand forests from one acorn. It is that seed we plant.
    I remember back in the 1960s when President Kennedy and his 
family were playing touch football, hiking mountains and going 
on 50 mile hikes, and I was in high school at the time, and we 
wanted to do all of them. It was just the idea that people were 
doing that. Recently, a few years ago I started in my district 
taking homeless children on picnics, and hikes in the woods and 
canoe rides.
    My area is mostly rural, but there are a few urban areas, 
and I can tell you whether they are rural kids or urban kids. 
Some of them have no exposure to the outside, to the woods. We 
have also taken juvenile delinquents, kids from an urban area, 
kids from homeless shelters along with their families, and the 
way we set it up we brought them to this beautiful spot on a 
tidal basin, we laid out on two big picnic tables every little 
nut, and grape, and seed and you name it that we could find, we 
put it on a table, we said we are going to go for a hike like 
the Indians did a thousand years ago.
    Here is a bag, this is what we want you to pick up and this 
is what you are going to have for lunch. You would have thought 
that each one of those little berries, or acorns, or beechnuts, 
or cat tails, or whatever they gathered was worth $100, they 
were so excited. Now, it did take a little organization to do 
it, but for the most part they were on their own during that 
day with a little bit of direction.
    That seed that was planted into their minds that we do 
several times a year exceeded all our expectations about their 
wonderment and a child's ability to learn. So what I would 
suggest, going back to what my high school days were like, with 
sneaking out of the house at 4:00 a.m. with my high school 
buddies because my parents did not want us to walk around 
Rahway, New Jersey, it is where I grew up, for 50 miles, but we 
did it, we mapped out 50 miles.
    Pretty sore when we got back. We played touch football all 
the time. Could local rangers, whether it is BLM, the Forest 
Service, Park Service, wildlife refuges or even people in the 
state invite their Member of Congress to invite a group of 
children and their parents for a hike through the woods or some 
activity like that? Across the country you would have 535 
people doing some activity.
    Not a mandate but taking some initiative, creating that 
ingenuity on the part of your partners in your district to set 
up a program with a local homeless shelter, with urban kids, 
with Native Americans, with the Lions Club, the Chamber of 
Commerce, the Rotary or whatever, that could be carried on for 
a long time to come.
    The gentlelady from Connecticut mentioned Last Child In the 
Woods, which is an extraordinary book that I guess if you 
thought about it you would probably already have all the 
answers, but just reading the book reenhances a view that is 
deep inside all of us.
    So what I would like to suggest, and your quick comment on 
it for my last 15 seconds is could a park ranger, wildlife 
refuge manager, BLM, Forest Service manager, send out an 
invitation to the local congressman to talk about an idea where 
you could get kids out in the woods with their parents?
    Mr. Bishop. Make sure your answer is no.
    Mr. Gilchrest. Come on. Hey, I was an old school teacher.
    Ms. Kimbell. Actually, we all compete pretty fiercely for 
the time of the members when they are home during August 
recess, but we could certainly work on that.
    Mr. Cason. I agree with that. We do compete for the 
attention that we can get. We often host groups, and any 
congressman here, we would be happy to have you out on the 
public lands.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Grijalva. You are welcome. Thank you, sir. Mr. Shuler.
    Mr. Shuler. Thank you, Mr. Chairman. Also would like to 
reiterate what my colleague, Mr. Gilchrest, was saying. You 
know, I grew up in western North Carolina. Great Smoky Mountain 
National Park, Blue Ridge Parkway. Eighty-three percent of my 
home county was the Great Smoky Mountain National Park, so we 
really took it for granted that all kids stayed outside all the 
time. Having kids of my own I am very pleased that my wife had 
those same values, and our kids stay outside all the time.
    My dad never let us have any of the game machines on our 
TV. That was not part of our lifestyle. But far too often today 
we are seeing, because both parents are having to work a lot of 
times, kids are either with babysitters or with their 
grandparents in my district and not as often outside. The first 
time I had the opportunity to actually meet with a wildlife 
officer was when he was checking my license and seeing if I was 
fishing with live bait on the park.
    Mr. Cason, what are some relationships that we have? What 
are some relationships that you are working with the Department 
of Education, the Secretary there, of how we can actually 
integrate the education of the outdoors? We talk about how we 
can be actively involved in the schools, and we are trying to 
get our kids involved. It seems like that is the best place to 
do it is to actually get our kids involved.
    Are we getting the officers, are we getting the management 
into the schools to have these type of programs? It is a 
learning experience. Then, OK, here is what you can do on our 
public lands, now let us take it outside the classroom and let 
us really be instrumental. I know when my kids were up here for 
a short time during January, February and March--they are young 
kids so they are in school, but preschool--one of the great 
things, there is a program here in Alexandria.
    They have a program and the kids are outside like 70 
percent of the time. Thirty percent is inside, 70 percent is 
outside. It is learning, it is finding the acorns, it is 
looking at the seeds, and where the grasses are growing, and 
frogs and lizards. What are we doing from the standpoint with 
the education program? That is our basis. That is our children.
    Mr. Cason. Great multi-part question. I guess a couple of 
comments. First, I grew up just like you did. I started hunting 
and fishing when I was a young kid. Did that with my dad for a 
long time. So I grew up in the woods, doing things in the 
woods. I had all the traditional pets, turtles, snakes, frogs, 
praying mantis, all that stuff, and my boys do, too. I have two 
young boys right now who are 10 and 12, and we have gone 
through the same thing.
    I have pet homes in my garage for snakes, and turtles and 
frogs. You mentioned the Gameboys. Both of their Gameboys are 
currently embargoed now because they have spent too much time 
on it and not enough time outside. You asked the question about 
working with the Department of Education. I would say that as 
far as I know we have not had a specific conversation with 
Margaret Spellings about trying to do things from top down.
    Typically what we end up doing is working from the bottom 
up. We do have a multitude of programs and contacts between our 
professional staff, the 70,000 employees we have in the 
Department of the Interior, with school systems across the 
country, and that we worked actively with schools on a school 
by school basis to get kids to the outdoors, whether it be in 
fish and wildlife refuges, or the parks, or it is in our BLM 
land, because as I said we have 500 million acres of land out 
there in various states, and so we work with schools to get 
kids out.
    As it turns out, congressman, we are planning to have 
Margaret Spellings over to the Department to talk about Indian 
education in the near future, so I will put it on the 
Secretary's radar screen to actually ask the question is there 
something we can do together? As we talk to her about Indian 
education we will see if there is something we can do on a top 
down format on this element.
    Mr. Shuler. Real quickly, Commissioner McCarthy, tell us a 
little bit more about the relationship with Bank of America and 
how that has been a positive influence from a financial 
standpoint.
    Ms. McCarthy. It was a wonderful thing. In Connecticut we 
launched our initiative. It got a considerable amount of press 
because it was very positive obviously. While Connecticut does 
not have a huge amount of open space land we certainly have a 
lot of parks and forests that the state owns and we maintain, 
so there was a lot of interest among the states. We simply got 
a blind call from Bank of America who said I love this 
initiative.
    They obviously have money that they spend on charitable 
giving. They said we have $10,000, how can you use it? We said, 
well, I will take it and figure it out. But we had a 
conversation with them, and we knew that there were more than 
2,500 or so foster families in the state.
    We well know that those are not the families that generally 
go to our state parks, so it ended up that they donated funding 
to an advocacy organization for Connecticut foster families and 
they in turn, we sent a letter out and offered a free pass to 
any foster family that wanted one and 1,700 responded, so we 
were able to send them out free of charge. So it has been a 
wonderful thing.
    They offered it again this year. They have offered it to 
two other states in our region who have launched similar 
initiatives, Massachusetts and New Hampshire. So there are 
wonderful private partnerships available for this activity 
because it is something that seems to be near and dear to 
everyone's heart.
    Mr. Shuler. Thank you for your testimony. Chief Kimbell, 
thank you for testifying again. Thank all of you for being here 
today.
    Mr. Grijalva. Thank you very much, sir. Mr. Sarbanes, 
questions, please?
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate your 
having this hearing today. I have started to read more about 
this issue that some call nature deficit disorder, other terms 
where kids are just not outside enough, and as a result I have 
been paying a lot more attention to how my own three kids spend 
their days.
    It is obvious the forces that pull kids inside and keep 
them inside are significant and any bag of tricks we can come 
up with to try to pull kids outside, have them engage; 
obviously the dividends are both at the individual level 
because children benefit when they are outdoors in so many 
ways, but collectively we all benefit because it raises their 
consciousness.
    They are going to be the next generation stewards of our 
environment and the outdoors, and so there is a real value 
there as well. I am very interested in the potential to have 
there be more integration within schools of that consciousness 
of environmental science education. I serve on the Education 
and Labor Committee. I am trying to bring that perspective to 
the table as we look at the reauthorization of No Child Left 
Behind and where there is potential to integrate that more.
    I agree that it has to be done not through a mandating kind 
of approach, but by creating initiatives, and grant 
opportunities and other ways to encourage schools to work 
collaboratively with all the resources that are out there to 
deliver these programs to children. So in that vein, 
Commissioner McCarthy, I would love to have you speak just a 
little bit more to what Congressman Shuler began a conversation 
on, and that is where do you see the most effective 
partnerships existing in your experience?
    Can you describe some of the most effective partnerships 
that have existed between schools, and parks and other 
resources that are out there? Maybe you could comment on what 
you have seen at the elementary, middle and high school level 
in particular.
    Ms. McCarthy. We have been doing work that has been 
supported by the Federal Government and state funds for a 
number of years in terms of trying to get environmental 
education into the schools and make some connections. It is 
everything from planting trees and gardens at the schools to 
after school activities. We have our own camp where kids can 
go, and there are a number of programs for kids from very small 
to older.
    What I have found is with No Child Left Behind, we have 
more difficulty with the No Child Left Inside. We are losing 
our recesses. They are not going outside in Connecticut as they 
were before, and getting that opportunity to have even field 
trips out to the parks is getting limited.
    We have to be very careful to take and build it into 
curriculum that is in the standard curriculum for the schools 
now so that if you are out in the park we have to connect it 
with the science curriculum or we may be able to connect it 
with one of our historic parks and build it into the social 
studies curriculum.
    There is no free time in the schools, and so we have 
struggled to figure out what is the next big thing we can do, 
which is why we began to focus less on the schools and more on 
families because I think we are trying to build a way of doing 
exactly what you suggested, which was how do you draw kids out 
from their homes, and their computers, and their video games 
and their I-pods? It needs to be interactive.
    What we have not adjusted well to I think is this need for 
an interactive way of getting kids outside into the parks and 
into the forests. You know, it is just not good enough to have 
it there and they will come. So part of the thing that I am 
trying to drive at the Federal level is that it is great to 
have a centennial where you invest in huge infrastructure in 
the parks, but just because you build a clean toilet it does 
not mean they are going to come or go.
    Sorry. I could not resist. You have to have something that 
draws them there. We have not invested in the people in the 
programs to keep up with that investment, and you really need 
to drive that home. For us the Great Park Pursuit was about 
families. I am trying to make families reconnect, have some 
wonderful unstructured play and make that connection outside. 
That seems to be working at least anecdotally.
    I could show you the e-mails of families who started out 
going to a park, and in fact the winner of last year's Park 
Pursuit because we had donated large gifts, outdoor equipment, 
took the camping equipment rather than the more expensive 
kayaks because their family wanted to go camping, and they went 
camping last year three or four times. So they are making those 
connections. We just need to drive them out there initially, 
and that is the challenge.
    Mr. Sarbanes. Thank you. I believe that you made a 
reference to sort of the fact that there is not time in the day 
for recess, for physical education, and it would probably be 
productive, and maybe this is happening for the advocates, 
those that were advocating for more recess and more physical 
education to come back in the schools to join up with the 
advocates of children being outside.
    I agree that the family opportunities are critical outside 
of school, but too often it seems like families are having to 
battle against the wrong kind of modeling in the schools on 
this particular thing. If one could hand off to the other and 
back in terms of this consciousness about the environment it 
would be much better for our kids and raise that awareness 
across the board, so hopefully we can move in that direction.
    Ms. McCarthy. I would love to work with you on it, 
congressman. It is a great idea.
    Mr. Grijalva. Excellent point, Mr. Sarbanes. That is a 
very, very good point. One quick question, and then a comment 
and then I want to thank the first panel for your time and your 
testimony. One of the issues that comes up from parents and 
even community-based organizations that want to work in public 
parks, and forests and are working with kids is the issue of 
safety. Let me begin with you, Commissioner.
    How do we deal with that concern or that worry? Legitimate 
it might be or not be, but the fact that perception and that 
question of safety comes up needs to be dealt with. Chief, 
Deputy Secretary, please comment as well. Commissioner?
    Ms. McCarthy. I think that is probably the single biggest 
issue that we are facing is the safety issue. I know when my 
kids were young it was a large issue. I was more relaxed than 
many of the other parents. I can remember my daughter, Julie, 
when she was nine she wanted to go with me to the Blue Hills, 
which is a small, little hiking area downtown just south of 
Boston. Beautiful area. I went there every day as a kid. My 
father took us all there.
    She called up a friend to take her friend with us when we 
were going hiking, and she could not go. I spoke to the 
friend's mother and she said I cannot let her go there, I have 
heard there are snakes there. I said, yes, there are snakes 
there, that is why we are going. We have terrified our children 
not just about what could happen to them if they are out of our 
eyesight, but what could happen to them if they actually 
experience real world things.
    So that is really why we focused on our park and our forest 
system. It is a safe place, people recognize it so, it is a 
controlled atmosphere. There are 105 state parks and 32 state 
forests in the small community like Connecticut, and they are 
wonderfully safe places. All we really need to do is get them 
engaged initially with this seven or eight week game. They get 
more comfortable, they can understand what is risky and what is 
not and hopefully begin to integrate it into their own lives in 
a way that we do not need to support any longer. So that is the 
idea.
    Ms. Kimbell. Thank you, Chairman. I believe I testified to 
you a couple of months ago, and this was one of those issues. 
The whole business with the kids being more comfortable in the 
out of doors is an important part of our conservation ed 
programs as well. Not being afraid of the snakes, but maybe 
looking for the snakes. Not being afraid of the bears, but 
knowing how to behave around bears.
    Not being afraid of alligators, but knowing how to behave 
around alligators. So that is an important part of our program. 
At the same time we do realize that our national forests and 
grasslands are often in very remote locations and sometimes can 
attract people who perhaps are not the cream of society and 
that create some issues for forest visitors. We are working 
very hard on that with other law enforcement agencies, all 
Federal, state and county.
    Mr. Grijalva. Thank you.
    Mr. Cason. The only thing I would add, Chairman, is it is 
basically a risk management process and an education process. 
We have all kinds of risk in life. Getting exposed to the 
outdoors, you take some minimal risks being in the outdoors, 
but if you are educated about what they are and how to deal 
with them, as Gail was saying, that you can mitigate a lot of 
those.
    There is a flip-side risk, too, that if we do not get our 
kids in the outdoors there are risks and consequences that 
happen with that, too. So we just need to be smart about it to 
the extent that we as Federal agencies are sponsoring visits to 
our Federal lands. We try to look at what the character of the 
land is, what kind of recreational or outdoor opportunity we 
can offer.
    We look for the safety issues and try to mitigate those 
safety issues when we expose people to the outdoors. So there 
is an intelligent process that we go through to deal with the 
safety issues.
    Mr. Grijalva. Thank you very much.
    Mr. Gilchrest. Mr. Chairman?
    Mr. Grijalva. Yes?
    Mr. Gilchrest. Can I just follow-up with a quick comment? 
There is always that safety issue, but I am glad Ms. Kimbell 
made a comment about how you deal with it when you are out in 
the woods. Knowledge is the solvent for danger, which is a 
quote by Norman Cousins some 40 years ago. It is that 
information that is so valuable, and you cannot get it on a 
computer screen.
    I wanted to follow-up on a couple of things that Mr. 
Sarbanes said talking about education, and then Ms. McCarthy 
made a comment about No Child Left Behind, which is something I 
voted against mainly for the reasons that you said, plus I was 
a former school teacher. Two quick comments. As a former school 
teacher every year in September--and I taught history--we would 
learn about Native Americans, and early American history, and 
things like that and we would cure and tan cow hides in the 
room.
    Now, we had a little easier access to cow hides. We were 
surrounded by dairy farms. We would also send the kids out 
early in September to run to the fields and pick up 
grasshoppers, bring them back in the room and we would fry them 
because Native Americans would eat them when there were not 
other things around. The excitement that these kids generated, 
and their ability to then learn about American history was 
extraordinary.
    The other quick comment I wanted to make about Last Child 
In the Woods by Richard Louv--if you want kids to learn math, 
and science, and literature, and history, and poetry, and art 
and all of those things to make them fundamentally a sound 
human being, the core curriculum could be the environment, 
could be ecology. This is in essence what Richard Louv talks 
about in his book.
    He actually gives, in several chapters, a method of 
employing ecology as the core curriculum because out of ecology 
comes an understanding of human activity, and is compatible 
with nature's design and that includes all of the sciences 
including math and everything else. So I think maybe there 
should be some initiative.
    Mr. Sarbanes could drop this as an amendment, that if we 
want to reauthorize No Child Left Behind the core curriculum 
for public schools to get Federal aid--well, I do not want to 
go that far with all the mandates. We do not want to mandate. 
Thanks again for all your testimony and insight.
    Mr. Cason. Yes. Mr. Chairman, if I could just make the 
comment on this same point. We just had a senior executive 
meeting for the Department of the Interior where we brought 
virtually all of our senior executives together. Richard was a 
lunchtime speaker for us, and we actually passed out a copy of 
his book to all of our senior executives as a further step in 
trying to reinvigorate our thinking process and the looking for 
opportunities within the Department of the Interior to connect 
kids with nature.
    So it is an initiative. It is timely that you were 
commenting on it.
    Mr. Gilchrest. Thank you. Before I close, Mr. Sarbanes, any 
closing comments?
    [No response.]
    Mr. Grijalva. Thank you, again. The comment I am going to 
make, I think Mr. Gilchrest made a good point when he talked 
about let us not get hung up on the issue mandate but really 
concentrate on the idea of initiatives that we need to take and 
the incentives that might accompany those initiatives as we go 
along. The other point I was going to make, and that is about 
the urban interface and the fact that youth have to be 
involved, back home in Tucson we are blessed with many 
beautiful public places.
    Second, third generation kids that live in the community, 
we do outings. Second, third generation never saw the Grand 
Canyon, do not know where Organ Pipe is, have not been to the 
forest or Petrified Forest, have not been to the Saguaro 
National, on, and on and on. I think that to me is probably the 
greatest motivator because once they do they become allied with 
the idea to conserve and preserve those places.
    Hopefully this hearing is going to lead us in that 
direction to concentrate on initiatives and the kinds of 
incentives I think to accompany those initiatives. I want to 
thank the panel very much, and we will call the next panel now. 
Thank you.
    Mr. Cason. Mr. Chairman, I just wanted to add in your 
commenting on that, Gail and I are just going to put out this 
publication in the Sunday paper in Tucson in the next couple of 
weeks to invite people there out to our public lands just like 
you were talking about.
    Mr. Grijalva. Thank you.
    [Pause.]
    Mr. Grijalva. Let me thank the panelists for being here 
today. Very much appreciate it. Looking forward to your 
testimony. As I indicated to the previous panel your written 
testimony will be entered in its entirety in the record, and 
hopefully we can all try to maintain a five minute for the oral 
comments.
    Let me begin with Dr. Ginsburg, American Academy of 
Pediatrics, your testimony, doctor, and thank you.

           STATEMENT OF DR. KENNETH R. GINSBURG, MD, 
                 AMERICAN ACADEMY OF PEDIATRICS

    Dr. Ginsburg. Thank you. Good morning. I am moved by the 
testimony that I have already heard as well as the 
Congressional statements that I have heard, and I am truly 
honored to be here. My name is Dr. Ken Ginsburg, and I am proud 
to represent the American Academy of Pediatrics, which is a 
nonprofit professional organization of 60,000 pediatricians.
    I am an adolescent medicine specialist at the Children's 
Hospital of Philadelphia and an Associate Professor of 
Pediatrics at the University of Pennsylvania School of 
Medicine. My major interest is resilience--the exploration of 
how individuals thrive despite adversity.
    While Ms. Sandlin is not in the room, I want to say that my 
interests and my passion in resilience came from the 
inspiration that I felt during my formative years as a young 
adult when I spent several years on a Cheyenne River 
Reservation in South Dakota. My interest in resiliency stems 
from their spirit and what I learned from those people.
    I have also authored the Academy book, ``A Parents' Guide 
to Building Resilience in Children and Teens: Giving Your Child 
Roots and Wings.'' Simply stated, play is the work of 
childhood. Play is essential to healthy development because it 
contributes to the cognitive, physical, social and emotional 
well-being of children and youth.
    In January the Academy published a new clinical report 
affirming the central importance of play for all children and 
addressing the marked decline in play time available to many 
children. That statement, of which I was the lead author, 
marked the first time that the American Academy of Pediatrics 
considered that children's play time was sufficiently 
endangered to warrant an official policy pronouncement in 
support of its importance.
    This hearing also recognizes that fact by highlighting the 
shrinking opportunities available for most children to engage 
in exploratory play outdoors. Play is so important to optimal 
child development that it has been recognized by the United 
Nations' High Commissions for Human Rights as a fundamental 
right of every child.
    Play allows children to use their creativity while 
developing their imagination, dexterity and physical, cognitive 
and emotional strength. Play is crucial to healthy brain 
development. It is through play that children at a very early 
age engage and interact with the world around them. Play allows 
children to create and explore a world they can master, 
conquering their fears while practicing adult roles sometimes 
together with other children or with their parents.
    As they master their world, play helps children develop new 
competencies that lead to enhanced confidence and the 
resilience they will need to face future challenges. Undirected 
play allows children to learn how to work in groups, to share, 
to negotiate, to resolve conflicts and to learn self-advocacy 
skills.
    When play is allowed to be child driven, children practice 
decision making skills, move at their own pace, discover their 
own areas of interest and ultimately engage fully in the 
passions they wish to pursue. Child driven play can have other 
benefits as well, most notably in promoting physical health.
    It has been suggested that encouraging unstructured play 
may be an exceptional way to increase physical activity levels 
in children, making it an important strategy in the resolution 
of the obesity epidemic. Overweight and obesity increase 
children's risk for a range of health consequences including 
heart disease, diabetes, bone and joint problems and sleep 
apnea. Overweight children often become overweight adults, and 
the affect of obesity in adult health is well-known and 
profound.
    Playing in outdoor natural environment allows children to 
explore both their own world and their own minds. Nature places 
virtually no bounds on the imagination, and it engages all of 
the senses. For all children this setting allows for the full 
blossoming of creativity, curiosity and the associated 
developmental advances. The outdoors also presents marvelous 
opportunities for parents to interact with their children in a 
fashion that fosters both the development of the relationship 
between the child and parent and the child.
    When parents observe their children in play or join with 
them in child-driven play, they are given a unique opportunity 
to see the world from their child's vantage point as the child 
navigates the world perfectly created to fit his or her needs. 
We must emphasize that if we are to successfully connect kids 
with nature to take the fear of nature away from them, we must 
first diminish the fear of nature in their parents and instill 
the love of nature in their parents.
    Play in nature provides children with opportunities for 
self-directed physical activity that can help promote physical 
health and reduce obesity. Unlike team sports, individual play 
in nature allows the child to tailor exercise to his or her own 
interests and abilities, often using the highest levels of 
creativity. The great outdoors can move children away from the 
passive entertainment of computers and TV and into an 
interactive form that engages both body and mind.
    The AAP makes a range of recommendations for our 
pediatricians so that when they interact with families that 
they emphasize the importance of unstructured play for healthy 
child development. Many of these recommendations are equally 
relevant for our governmental policies, and so I would like to 
paraphrase them for you today.
    1. Policy makers should recognize that free play is a 
healthy, essential part of childhood. All children should be 
afforded ample, unscheduled, independent, nonscreen time to be 
creative, to reflect and to decompress.
    2. Governmental policies should emphasize that active, 
child-centered play is a time tested way of producing healthy, 
fit young bodies.
    3. Federal agencies should support the development of safe 
spaces in under-resourced and impoverished neighborhoods. This 
may include initiatives such as opening school, library or 
community facilities to be used by children and their parents 
after school or on weekends, or by establishing programs, and 
we have heard about them, that help connect families with 
Federal parks and lands.
    4. The Federal Government should support a variety of 
physical education opportunities for children in addition to 
school physical education programs. These must include the 
protection of children's recess time and the promotion of 
extracurricular physical activity programs and nonstructured 
physical activity before, during and after school.
    Federal policies should support the reduction of those 
environmental barriers through an active lifestyle, which means 
that the government should adequately fund programs that 
support families' efforts to engage in a healthy lifestyle. 
Federal efforts should build upon social marketing--social 
marketing that promotes increased physical activity.
    Programs and initiatives that Federal agencies can help 
promote active, healthy living as a normative lifestyle. In 
conclusion I genuinely appreciate this opportunity to present 
testimony on behalf of the American Academy of Pediatrics. The 
Academy applauds the Subcommittee's efforts to bring attention 
to the issues associated with the health and developmental 
benefits of unstructured play in a natural environment.
    Federal policies can serve an important role in promoting 
opportunities for active, healthy living for all children 
including through creative use of Federal lands programs. Let 
us never forget that children will lead us into the future. We 
must ensure that our future leaders, the people who will be 
sitting at this table in 30 years, will love, appreciate and 
care for the environment. We look forward to working with you 
to protect and promote the health and well-being of all 
children.
    [The prepared statement of Dr. Ginsburg follows:]

            Statement of Kenneth Ginsburg, MD, MS Ed, FAAP, 
            on Behalf of the American Academy of Pediatrics

    Good morning. I appreciate this opportunity to testify today before 
the Natural Resources Subcommittees on Fisheries, Wildlife and Oceans 
and National Parks, Forests and Public Lands at this hearing, ``No 
Child Left Inside: Reconnecting Kids with the Outdoors.'' My name is 
Dr. Kenneth Ginsburg, and I am proud to represent the American Academy 
of Pediatrics (AAP), a non-profit professional organization of 60,000 
primary care pediatricians, pediatric medical sub-specialists, and 
pediatric surgical specialists dedicated to the health, safety, and 
well-being of infants, children, adolescents, and young adults. For the 
past six years, I have served as a member of the American Academy of 
Pediatrics' Committee on Communications. I am an adolescent medicine 
specialist at the Children's Hospital of Philadelphia and associate 
professor of pediatrics at the University of Pennsylvania School of 
Medicine. I also serve as Director of Health Services at Covenant House 
of Pennsylvania, a shelter for homeless and disenfranchised youth. My 
major interest is resilience, the exploration of how individuals thrive 
despite adversity. I have authored the Academy book, ``A Parent's Guide 
to Building Resilience in Children and Teens: Giving Your Child Roots 
and Wings.''
Play Is Essential to Healthy Child Development
    Simply stated, play is the work of children. Play is essential to 
healthy development because it contributes to the cognitive, physical, 
social, and emotional well-being of children and youth. <SUP>1</SUP> In 
January, the AAP published a new clinical report affirming the central 
importance of play for all children and addressing the marked decline 
in play time available to many children in the U.S. That statement, of 
which I was the lead author, marked the first time that the American 
Academy of Pediatrics considered that children's play time was 
sufficiently endangered to warrant an official policy pronouncement in 
support of its importance. This hearing also recognizes that fact by 
highlighting the shrinking opportunities available for most children to 
engage in exploratory play outdoors.
---------------------------------------------------------------------------
    \1\ American Academy of Pediatrics, Ginsburg, K., and the Committee 
on Communications and the Committee on Psychosocial Aspects of Child 
and Family Health. Clinical Report: The Importance of Play in Promoting 
Healthy Development and Maintaining Strong Parent-Child Bonds. 
Pediatrics. 2007;119:182.
---------------------------------------------------------------------------
    Play is so important to optimal child development that it has been 
recognized by the United Nations High Commission for Human Rights as a 
right of every child. <SUP>2</SUP> Play allows children to use their 
creativity while developing their imagination, dexterity, and physical, 
cognitive, and emotional strength. Play is important to healthy brain 
development. <SUP>3</SUP> It is through play that children at a very 
early age engage and interact with the world around them. Play allows 
children to create and explore a world they can master, conquering 
their fears while practicing adult roles, sometimes in conjunction with 
other children or adult caregivers. <SUP>4</SUP> As they master their 
world, play helps children develop new competencies that lead to 
enhanced confidence and the resiliency they will need to face future 
challenges. <SUP>5</SUP> Undirected play allows children to learn how 
to work in groups, to share, to negotiate, to resolve conflicts, and to 
learn self-advocacy skills. <SUP>6</SUP> When play is allowed to be 
child driven, children practice decision-making skills, move at their 
own pace, discover their own areas of interest, and ultimately engage 
fully in the passions they wish to pursue.
---------------------------------------------------------------------------
    \2\ Ibid (internal endnotes omitted).
    \3\ Ibid, 183 (internal endnotes omitted).
    \4\ Ibid (internal endnotes omitted).
    \5\ Ibid (internal endnotes omitted).
    \6\ Ibid (internal endnotes omitted).
---------------------------------------------------------------------------
    Play is integral to the academic environment. It ensures that the 
school setting attends to the social and emotional development of 
children as well as their cognitive development. It has been shown to 
help children adjust to the school setting and even to enhance 
children's learning readiness, learning behaviors, and problem-solving 
skills. <SUP>7</SUP> Social-emotional learning is best integrated with 
academic learning; it is concerning if some of the forces that enhance 
children's ability to learn are elevated at the expense of others. Play 
and unscheduled time that allow for peer interactions are important 
components of social-emotional learning.
---------------------------------------------------------------------------
    \7\ Ibid (internal endnotes omitted).
---------------------------------------------------------------------------
Play Has Additional Health Benefits
    Child-driven play can have other benefits as well, most notably in 
promoting physical health. It has been suggested that encouraging 
unstructured play may be an exceptional way to increase physical 
activity levels in children, which is one important strategy in the 
resolution of the obesity epidemic. <SUP>8</SUP> We are all aware of 
the alarming statistics with regard to obesity rates: the prevalence of 
overweight among children aged 6 to 11 has more than doubled in the 
past 20 years, going from 7% in 1980 to 18.8% in 2004. The rate among 
adolescents aged 12 to 19 more than tripled, increasing from 5% to 
17.1%. <SUP>9</SUP> Overweight and obesity increase children's risk for 
a range of health consequences, including cardiovascular disease, 
diabetes, bone and joint problems, and sleep apnea.
---------------------------------------------------------------------------
    \8\ Ibid (internal endnotes omitted).
    \9\ Ogden CL, Carroll MD, Curtin LR, McDowell MA, Tabak CJ, Flegal 
KM. Prevalence of Overweight and Obesity in the United States, 1999-
2004. JAMA 2006;295:1549-1555.
---------------------------------------------------------------------------
    Overweight children often become overweight adults, and the effect 
of obesity on adult health is profound.
    Children engaged in creative play frequently are also exercising in 
the process, adjusting their activities to their own physical and 
developmental capabilities. It has been suggested that efforts to 
reduce obesity might be more effective if they promoted ``play'' as 
opposed to ``physical activity'' or ``exercise.'' <SUP>10</SUP> 
Preschool children have been documented to engage in higher levels of 
physical activity while playing outdoors. If prevention is the key to 
reversing obesity trends, then encouraging outdoor play for children 
could be an important component of a comprehensive strategy.
---------------------------------------------------------------------------
    \10\ Burdette HL, Whitaker RC. Resurrecting Free Play in Young 
Children: looking beyond fitness and fatness to attention, affiliation, 
and affect. Arch Pediatr Adolesc Med. 2005:159:46-50.
---------------------------------------------------------------------------
    Unstructured play time can reduce ``screen time'' dedicated to 
television and computer games as well. In sharp contrast to the health 
benefits of active, creative play and the known developmental benefits 
of an appropriate level of organized activities, there is ample 
evidence that passive entertainment such as television viewing and 
video games is not protective and, in fact, has some harmful effects. 
<SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Ibid, 185 (internal endnotes omitted).
---------------------------------------------------------------------------
Time for Free Play Has Been Markedly Reduced For Some Children
    Despite the numerous benefits derived from play for both children 
and parents, time for free play has been markedly reduced for some 
children. This trend has even affected kindergarten children, who have 
had free play reduced in their schedules to make room for more 
academics.
    Currently, many schoolchildren are given less free time and fewer 
physical outlets at school; many school districts have responded to 
pressure to improve academic performance by reducing time committed to 
recess, the creative arts, and even physical education in an effort to 
focus on reading and mathematics. <SUP>12</SUP> This change may have 
implications on children's ability to store new information, because 
children's cognitive capacity is enhanced by a clear-cut and 
significant change in activity. <SUP>13</SUP> A change in academic 
instruction or class topic does not offer this clear-cut change in 
cognitive effort and certainly does not offer a physical release. Even 
a formal structured physical education class may not offer the same 
benefit as free-play recess. <SUP>14</SUP> Reduced time for physical 
activity may be contributing to the discordant academic abilities 
between boys and girls, because schools that promote sedentary styles 
of learning become a more difficult environment for boys to navigate 
successfully.
---------------------------------------------------------------------------
    \12\ Ibid (internal endnotes omitted).
    \13\ Ibid, 184 (internal endnotes omitted).
    \14\ Ibid (internal endnotes omitted).
---------------------------------------------------------------------------
Opportunities for Play in Nature
    Play in an outdoor, natural environment allows children to explore 
both their world and their own minds. Surely many of us have treasured 
memories of time spent as a child in an untamed, natural place--perhaps 
the woods behind one's home, or a summer camp, or the first time 
camping out in a tent. Nature places virtually no bounds on the 
imagination and engages all of the senses. For all children, this 
setting allows for the full blossoming of creativity, curiosity, and 
the associated developmental advances.
    The outdoors also presents marvelous opportunities for parents to 
interact with their children in a fashion that fosters both the 
development of the relationship and the child. Families may hike, fish, 
camp, or canoe together. Children and parents can explore the bugs and 
mushrooms of the forest floor, or observe the patterns of the pebbled 
stream. When parents observe their children in play or join with them 
in child-driven play, they are given a unique opportunity to see the 
world from their child's vantage point as the child navigates a world 
perfectly created to fit his or her needs. The interactions that occur 
through play tell children that parents are fully paying attention to 
them and help to build enduring relationships. <SUP>15</SUP> Parents 
who have the opportunity to glimpse their child's world learn to 
communicate more effectively with their child and are given another 
setting in which to offer gentle, nurturing guidance. Less verbal 
children may be able to express their views, experiences, and even 
frustrations through play, allowing their parents an opportunity to 
gain a fuller understanding of their perspective.
---------------------------------------------------------------------------
    \15\ Ibid, 183 (internal endnotes omitted).
---------------------------------------------------------------------------
    Play in nature provides children with opportunities for self-
directed physical activity that can help promote physical health and 
reduce obesity. Unlike team sports, individual play in nature allows 
the child to tailor exercise to his or her own interests and abilities, 
often in conjunction with creative efforts. The great outdoors can move 
children away from the passive entertainment of computers and TV and 
into an interactive forum that engages both mind and body.
Impediments to Outdoor Play
    The American Academy of Pediatrics has identified a number of 
factors that are currently contributing to the reduction of free play 
time available for children. These include but are not limited to the 
following:
    <bullet>  In many communities, children cannot play safely outside 
of the home unless they are under close adult supervision and 
protection;
    <bullet>  Children are being passively entertained through 
television or computer/video games;
    <bullet>  A national trend to focus on the academic fundamentals of 
reading and arithmetic decreases time left during the school day for 
recess, creative arts, and physical education;
    <bullet>  More families have a single head of household or 2 
working parents and fewer multigenerational households in which 
grandparents and extended family members can watch the children, 
thereby creating the need for children to be involved in structured 
programming;
    <bullet>  Parents wishing to make the most effective use of limited 
time with their children often believe that facilitating their children 
to have every opportunity is the best use of that time. In other words, 
some parents believe that transporting children between activities 
represents better parenting than playfully and directly engaging with 
their children;
    <bullet>  Parents receive messages from a variety of sources 
stating that good parents actively build every skill and aptitude their 
child might need from the earliest ages, and that play may, in fact, be 
a waste of time; and
    <bullet>  The increasing rigor of the college admissions process, 
through which children are encouraged to build a college resume through 
both academic excellence and a wide variety of activities and volunteer 
efforts starting at younger ages, thereby reinforcing the sense that 
play and unscheduled time are wasteful.
    Each of these issues presents unique challenges to any parent or 
community wishing to restore free play time for children. As such, 
there is no single solution that will address all of the issues for 
every community. For all children, however, advocates need to promote 
the implementation of those strategies known to promote healthy youth 
development and resiliency.
Recommendations
    The AAP makes a range of recommendations for pediatricians in their 
interactions with families to help emphasize the importance of 
unstructured play for healthy child development. Many of those 
recommendations are equally relevant for our governmental policies, and 
so I would like to paraphrase them for your use today:
    Policymakers should recognize that free play is a healthy, 
essential part of childhood. All children should be afforded ample, 
unscheduled, independent, nonscreen time to be creative, to reflect, 
and to decompress.
    Governmental policies should emphasize that active child-centered 
play is a time-tested way of producing healthy, fit young bodies. This 
issue must be kept in mind when reauthorizing legislation including 
educational and fitness programs.
    Federal agencies should support the development of ``safe spaces'' 
in underresourced neighborhoods. This may include initiatives such as 
opening school, library, or community facilities to be used by children 
and their parents after school hours and on weekends, or by 
establishing programs that help connect families with federal parks and 
lands.
    The federal government should support a variety of physical 
activity opportunities for children in addition to school physical 
education programs. These should include the protection of children's 
recess time and the requirement of extracurricular physical activity 
programs and nonstructured physical activity before, during, and after 
school hours, that address the needs and interests of all students.
    Federal policy should support the reduction of environmental 
barriers to an active lifestyle. The government should adequately fund 
programs that support families' efforts to engage in a healthy 
lifestyle, whether through large-scale efforts like creation and 
maintenance of public federal lands or local initiatives such as the 
construction of safe recreational facilities, parks, playgrounds, 
bicycle paths, sidewalks, and crosswalks. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ American Academy of Pediatrics, Council on Sports Medicine and 
Fitness and Council on School Health. Active Healthy Living: Prevention 
of Childhood Obesity Through Increased Physical Activity. Pediatrics. 
2006:117:1834-1842.
---------------------------------------------------------------------------
    Federal efforts should build upon social marketing that promotes 
increased physical activity. Programs and initiatives at federal 
agencies can help promote active, healthy living as a normative 
lifestyle. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
    In conclusion, I appreciate this opportunity to present testimony 
on behalf of the American Academy of Pediatrics. The Academy applauds 
the subcommittees' efforts to bring attention to the issues associated 
with the health and developmental benefits of unstructured play in a 
natural environment. Federal policies can serve an important role in 
promoting opportunities for active, healthy living for all children, 
including through creative use of federal lands programs. We look 
forward to working with you to protect and promote the health and well-
being of all children.
                                 ______
                                 
    Mr. Grijalva. Thank you. Ms. Amy Pertschuk. Did I say it 
correctly?
    Ms. Pertschuk. Pertschuk.
    Mr. Grijalva. Thank you. Managing Director, Children and 
Nature Network.
    Ms. Pertschuk. Yes.
    Mr. Grijalva. Please.

        STATEMENT OF AMY PERTSCHUK, MANAGING DIRECTOR, 
                  CHILDREN AND NATURE NETWORK

    Ms. Pertschuk. On behalf of Richard Louv and the Children 
and Nature Network I am going to be talking today about a 
challenge that will profoundly impact the relationship of 
humans with the environment and on how we can face that 
challenge successfully. I will be reading from testimony 
prepared by Richard Louv, and I would be happy to answer 
questions following the testimony.
    We live in a country of bountiful natural resources, land, 
water, wildlife, yet within the space of a few decades the way 
children understand and experience their neighborhoods and the 
natural world has changed radically. Children are far more 
aware of the global threats to the environment, but their 
physical contact, their intimacy with nature, is fading.
    As one suburban fifth grader put it, in what has become the 
most quoted statement in the emerging children and nature 
movement, ``I like to play indoors better because that is where 
all the electrical outlets are.'' His desire is not that 
uncommon. In a typical week only six percent of children ages 
nine to 13 play outside on their own, and studies also show a 
dramatic decline in the past decade in such outdoor activities 
as swimming and fishing.
    Even bike riding is 31 percent down since 1995. Urban, 
suburban and even rural parents cite a number of everyday 
reasons why their children spend less time in nature then they 
themselves did including access to nature, competition from 
television, computers and Gameboys, dangerous traffic, and more 
homework and other activities.
    Most of all parents cite fear, fear of strangers. 
Conditioned by round the clock news coverage they believe that 
there is an epidemic of abductions despite the evidence that 
the number has actually remained roughly the same for the past 
two decades, and the 2007 data shows that child safety is at an 
all time high.
    Part of our task as a society is to begin to think in terms 
of comparative risks and to consider the great benefits of a 
nature/child reunion. Yes, there are risks outside our homes, 
but there are also risks of raising children under virtual 
house arrest. Threats to their independent judgment and value 
of place, to their ability to feel awe and wonder and to their 
sense of stewardship for the Earth, and most immediately 
threats to their psychological and physical health.
    We have witnessed the rapid increase of childhood obesity, 
Type II diabetes. Healthcare leaders now worry that the current 
generation of children may be the first since World War II to 
die at an earlier age than their parents. Getting kids outdoors 
more, riding bikes, running, swimming and especially 
experiencing nature directly may well serve as an antidote to 
much of what ails the youth.
    Congress has a unique opportunity in this and coming years 
to help turn these trends around. Government cannot do this 
alone nor does it have to. A public movement is growing to 
leave no child inside, but government, with its influence over 
parks, open space and how we use these resources, shape our 
cities, education and healthcare systems has a critical role to 
play.
    Rather than simply stemming the tide, our nation can 
realize enormous benefits for the physical, emotional and 
cognitive health of our children and for the health of the 
Earth itself. What can government do? How can it expand the 
good work that has begun? We spell out a series of specific 
suggestions for programs and initiatives in the prepared 
testimony we submit to you today.
    Here are a few examples. Government could increase the 
number of naturalist interpreters to our national parks and 
other public nature settings. These professionals become even 
more important as children experience less nature in their own 
neighborhoods. Establish national conservation corps to reach 
diverse communities to actively recruit young people into the 
conservation professions.
    Replicate wonderful programs like Connecticut's No Child 
Left Inside, or Texas' Life's Better Outside, or Nebraska's 
Healthy Families Play Outside to repopulate our national parks 
with families. Establish innovative nature attractions such as 
the simple canopy walk created by biologist Meg Lowman in 
Florida which doubled the attendance of one state park.
    Develop new grants programs like the U.S. Forest Service's 
``More Kids in the Woods'' that just this week announced their 
awards to local programs. Encourage national parks to work with 
and support local child and nature movements. Work in 
collaboration with the Departments of the Interior, Education, 
Agriculture, Health & Human Services, to help green the 
nation's crumbling urban parks.
    Under the right conditions cultural and political change 
can occur rapidly. The recycling and antismoking campaigns are 
our best examples how social and political pressure can work 
hand in hand to create a societal transformation in just one 
generation. The Children and Nature movement has perhaps even 
greater potential because it touches something even deeper 
within us biologically, emotionally, physically and 
spiritually. Thank you.
    [The prepared statement of Ms. Pertschuk follows:]

 Statement of Richard Louv, Author, ``Last Child in the Woods: Saving 
 Our Children from Nature-Deficit Disorder'' and Chairman of the Board 
   of Directors, Children & Nature Network (C&NN), Presented by Amy 
 Pertschuk, Managing Director, C&NN, on Behalf of Richard Louv and the 
          Board of Directors of the Children & Nature Network

    Thank you for the opportunity today to testify before the Committee 
on Natural Resources about a challenge that we face that will have a 
profound impact on the human relationship with the environment--and how 
the nation can successfully face that challenge.
    Within the space of a few decades, the way children understand and 
experience their neighborhoods and the natural world has changed 
radically. Even as children and teenagers become more aware of global 
threats to the environment, their physical contact, their intimacy with 
nature, is fading. As one suburban fifth grader put it to me, in what 
has become the signature epigram of an emerging children and nature 
movement: ``I like to play indoors better 'cause that's where all the 
electrical outlets are.''
    His desire is not at all uncommon. In a typical week, only 6 
percent of children, ages nine to thirteen, play outside on their own. 
Studies by the National Sporting Goods Association, and American Sports 
Data, a research firm, show a dramatic decline in the past decade in 
such outdoor activities as swimming and fishing. Even bike riding is 
down 31 percent since 1995. In San Diego, California, according to a 
survey by nonprofit Aquatic Adventures, 90 percent of inner-city kids 
do not know how to swim; 34 percent have never been to the beach. In 
suburban Fort Collins, Colorado, teachers shake their heads in dismay 
when they describe the many students who have never been to the 
mountains, visible year-round on the western horizon.
    Urban, suburban, and even rural parents cite a number of everyday 
reasons why their children spend less time in nature than they 
themselves did, including disappearing access to natural areas, 
competition from television and computers, dangerous traffic, and more 
homework and other pressures. Most of all, parents cite fear of 
stranger-danger. Conditioned by round-the-clock news coverage, they 
believe in an epidemic of abductions by strangers, despite evidence 
that the number (about a hundred a year) has remained roughly the same 
for two decades, and that the rates of violent crimes against young 
people have fallen to well below 1975 levels.
    Congress has a unique opportunity in this and coming years, to help 
turn this trend around. Government cannot do this alone--nor does it 
have to. As I will show, later in this testimony, a public movement is 
growing to leave no child inside. But government, with its influence 
over parks, open space and how we shape cities, education and health 
care, has a crucial role to play. Rather than simply stemming the tide, 
our nation can realize enormous benefits for the physical, emotional 
and cognitive health of our children, and for the health of the earth 
itself.
    Part of our task, as a society, is to begin to think in terms of 
comparative risks, and the great benefits of a national nature-child 
reunion. Yes, there are risks outside our homes. But there are also 
risks in raising children under virtual protective house arrest: 
threats to their independent judgment and value of place, to their 
ability to feel awe and wonder, to their sense of stewardship for the 
earthand, most immediately, threats to their psychological and physical 
health. The rapid increase of childhood obesity leads many health-care 
leaders to worry that the current generation of children may be the 
first since World War II to die at an earlier age than their parents. 
Getting kids outdoors more, riding bikes, running, swimming--and, 
especially, experiencing nature directly--could serve as an antidote to 
much of what ails the young.
    The physical benefits are obvious, but other benefits are more 
subtle and no less important. Take the development of cognitive 
functioning. Factoring out other variables, studies of students in 
California and nationwide show that schools that use outdoor classrooms 
and other forms of experiential education produce significant student 
gains in social studies, science, language arts, and math. One 2005 
study by the California Department of Education found that students in 
outdoor science programs improved their science testing scores by 27 
percent.
    And the benefits go beyond test scores. According to a range of 
studies, children in outdoor-education settings show increases in self-
esteem, problem solving, and motivation to learn. ``Natural spaces and 
materials stimulate children's limitless imaginations,'' says Robin 
Moore, an international authority on the design of environments for 
children's play, learning, and education, ``and serve as the medium of 
inventiveness and creativity.'' Studies of children in schoolyards with 
both green areas and manufactured play areas found that children 
engaged in more creative forms of play in the green areas, and they 
also played more cooperatively. Recent research also shows a connection 
between the length of children's attention span and direct experience 
in nature. Studies at the University of Illinois show that time in 
natural settings significantly reduces symptoms of Attention Deficit 
Hyperactivity Disorder in children as young as age five. The research 
also shows the experience helps reduce negative stress and protects 
psychological well-being, especially in children experiencing the most 
stressful life events.
    Even without corroborating evidence or institutional help, many 
parents notice significant changes in their child's stress levels and 
hyperactivity when they spend time outside. ``My son is still on 
Ritalin, but he's so much calmer in the outdoors that we're seriously 
considering moving to the mountains,'' one mother tells me. Could it 
simply be that he needs more physical activity? ``No, he gets that, in 
sports,'' she says. Similarly, the back page of the October issue of 
San Francisco magazine displays a vivid photograph of a small boy, eyes 
wide with excitement and joy, leaping and running on a great expanse of 
California beach, storm clouds and towering waves behind him. A short 
article explains that the boy was hyperactive, he had been kicked out 
of his school, and his parents had not known what to do with him--but 
they had observed how nature engaged and soothed him. So for years they 
took their son to beaches, forests, dunes, and rivers to let nature do 
its work.
    The photograph was taken in 1907. The boy was Ansel Adams.
    Studies show that almost to a person conservationists or any adults 
with environmental awareness had some transcendent experience in nature 
when they were children. For some, the epiphanies took place in a 
national park; for others, in the clump of trees at the end of the cul-
de-sac. But if experiences in nature are radically reduced for future 
generations, where will stewards of the earth come from? A few months 
ago, I visited Ukiah, California, a mountain town nestled in the pines 
and fog. Ukiah is Spotted Owl Central, a town associated with the 
swirling controversy regarding logging, old growth, and endangered 
species. This is one of the most bucolic landscapes in our country, but 
local educators and parents report that Ukiah kids aren't going outside 
much anymore. So who will care about the spotted owl in ten or fifteen 
years?
    Federal and state conservation agencies are asking such questions 
with particular urgency. The reason: though the roads at some U.S. 
National Parks remain clogged, overall visits by Americans have dropped 
by 25 percent since 1987, few people get far from their cars, and 
camping is on the decline. And such trends may further reduce political 
support for parks.
    In past decades, idealistic, outdoor-oriented young people were 
drawn to government careers in conservation. But as baby boomers move 
toward retirement, the stock of new conservationists simply may not be 
there. Since the 1970s, undergraduate enrollment in traditional 
conservation and natural resource programs fell by half, according to 
research conducted by Terry Sharik, a professor at Utah State's College 
of Natural Resources. Sharik points to decreased physical involvement 
of children in nature as one of the prime reasons. Conservation 
agencies have had a particularly hard time attracting more culturally 
diverse employees and members from inner cities and small towns. For 
all the recruitment shortcomings, Sharik and Cheryl Charles, now 
president of the Children & Nature Network, who organized a conference 
last year on what she calls ``the coming brain drain in government 
conservation agencies,'' point to decreased physical involvement of 
children in nature as a major factor.
    We should point to progress, at the government level. In September 
2006, the National Conservation Training Center and the Conservation 
Fund hosted the National Dialogue on Children and Nature in 
Shepherdstown, West Virginia. The conference drew some 350 people from 
around the country, representing educators, health-care experts, 
recreation companies, residential developers, urban planners, 
conservation agencies, academics, and other groups. Even the Walt 
Disney Company was represented. ``What brought this varied group of 
powerful individuals together and maybe for the first time under one 
roof? The Nation's children brought us to Shepherdstown,'' said 
Interior Sec. Dirk Kempthorne, in his welcoming remarks. ``I think we 
should take a break from our Blackberries in order to encourage the 
nation's children to pick blackberries.''
    At the state and national level, impressive efforts are springing 
up around the country, from Texas' ``Life is Better Outside'' campaign 
to Connecticut's ``No Child Left Inside'' program to get families into 
underused state parks. Nisqually National Wildlife Refuge in Washington 
State successfully brings hundreds of school children to the Refuge and 
combines school lessons with tree plantings for habitat restoration. 
These efforts connect children to nature and give them a sense of hope 
and personal responsibility. In a similar move, the U.S. Forest Service 
is launching More Kids in the Woods, which would fund local efforts to 
get children outdoors.
    In October 2006, the superintendent of Yellowstone National Park 
called for a ``no child left inside'' campaign to make children more 
comfortable with the outdoors. As the participants at Shepherdstown 
came to understand, individual programs can be made far more powerful 
if they are in contact with other programs, if a larger pattern or 
movement, one inclusive of government but not exclusive to it, is 
developed.
    For decades, environmental educators, conservationists, and others 
have worked, often heroically, to bring more children to nature--
usually with inadequate support from policymakers. A number of trends, 
including the recent unexpected national media attention to Last Child 
and ``nature deficit disorder,'' have now brought the concerns of these 
veteran advocates before a broader audience. While some may argue that 
the word ``movement'' is hyperbole, we do seem to have reached a 
tipping point. State and regional campaigns, sometimes called Leave No 
Child Inside, have begun to form in at least 24 urban regions and 
states, including Cincinnati, Cleveland, Chicago, the San Francisco Bay 
Area, St. Louis, Florida, Colorado, Kentucky, Texas, and in Canada as 
well. A host of related initiatives--among them the simple-living, 
walkable-cities, nature-education, and land-trust movements--have begun 
to find common cause, and collective strength, through this issue. It 
has attracted a diverse assortment of people who might otherwise never 
work together.
    Nonprofit environmental organizations are showing a growing 
interest in how children engage with nature. In 2006, the Sierra Club 
intensified its commitment to connect children to nature through its 
Building Bridges to the Outdoors Youth Project, and has ramped up its 
legislative efforts in support of environmental education. The National 
Wildlife Federation is rolling out the Green Hour, a national campaign 
to persuade parents to encourage their children to spend one hour a day 
in nature. John Flicker, president of the National Audubon Society, is 
campaigning for the creation of a family-focused nature center in every 
congressional district in the nation. ``Once these centers are 
embedded, they're almost impossible to kill,'' says Flicker. ``They 
help create a political constituency right now, but also build a future 
political base for conservation.'' Of course, such programs must teach 
children how to step lightly on natural habitats, especially ones with 
endangered species. But these experiences are essential for the 
survival of conservation. The truth is that the human child in nature 
may also be an endangered species--and the most important indicator of 
future sustainability.
    The Conservation Fund is launching a National Forum on Children and 
Nature and have enlisted governors, mayors, cabinet secretaries and 
corporate CEO's and non-government organizations to help raise national 
awareness about the problems facing our children and the role that 
nature can play in addressing those problems. Support comes not only 
from environmental organizations, but also from religious leaders, 
liberal and conservative, who understand that all spiritual life begins 
with a sense of wonder, and that one of the first windows to wonder is 
the natural world. ``Christians should take the lead in reconnecting 
with nature and disconnecting from machines,'' writes R. Albert Mohler 
Jr., president of the Southern Baptist Theological Seminary, the 
flagship school of the Southern Baptist Convention.
    Farsighted members of the business community are awakening to the 
link between this issue and future economic health. The Outdoor 
Industry Association (OIA), which represents hundreds of companies 
selling everything from backpacks to kayaks, reports good sales of 
upscale products--but sales of traditional entry-level gear are nearly 
dead in the water. Discouraged by the trend, some companies have 
dropped their entry-level product lines. The rapid increase in child 
inactivity and obesity has ``sent a big message to the industry that we 
need to do something to reverse this trend,'' according to Michelle 
Barnes, OIA's vice president for marketing. As a result, such companies 
as REI are paying more attention to this issue. Mountain Equipment Co-
op, the largest provider of outdoor equipment in Canada, is also 
concerned. Among other approaches, that company, a co-op with several 
million members, is considering a stunning proposal: to provide free 
rentals of outdoor equipment to children across Canada.
    Health is at the very center of this issue. To build a stronger 
constituency for open space and parks, the children and nature movement 
offers a way to connect nature more directly to health. While public-
health experts have traditionally associated environmental health with 
the absence of toxic pollution, the definition fails to account for an 
equally valid consideration: how the environment can improve human 
health. Howard Frumkin, director of the National Center for 
Environmental Health, points out that future research about the 
positive health effects of nature should be conducted in collaboration 
with architects, urban planners, park designers, and landscape 
architects. ``Perhaps we will advise patients to take a few days in the 
country, to spend time gardening,'' he wrote in a 2001 American Journal 
of Preventive Medicine article, ``or [we will] build hospitals in 
scenic locations, or plant gardens in rehabilitation centers. Perhaps 
the...organizations that pay for health care will come to fund such 
interventions, especially if they prove to rival pharmaceuticals in 
cost and efficacy.''
    This we do know: when people talk about the disconnect between 
children and nature--if they are old enough to remember a time when 
outdoor play was the norm--they almost always tell stories about their 
own childhoods: this tree house or fort, that special woods or ditch or 
creek or meadow--those ``places of initiation,'' in the words of 
naturalist Bob Pyle, where they may have first sensed with awe and 
wonder the largeness of the world seen and unseen. When people share 
these stories, their cultural, political, and religious walls come 
tumbling down.
    And when that happens, ideas can pour forth--and lead to ever more 
insightful approaches to how we educate our children, how to truly 
sustain any future health care system, and how we develop our cities. 
The Sacramento Bee reported in July 2006 that Sacramento's biggest 
developer, Angelo Tsakopoulos and his daughter Eleni Tsakopoulos-
Kounalakis, who together run AKT Development, ``have become 
enthusiastic promoters'' of new designs for residential development 
that will connect children and families to nature. Rather than excusing 
more sprawl with a green patina, developers might even encourage the 
green redevelopment of portions of strip-mall America into Dutch-style 
eco-communities, where nature would be an essential strand in the 
fabric of the urban neighborhood.
    All this may be wishful thinking, of course, at least in the short 
run. But as Martin Luther King Jr. often said, the success of any 
social movement depends on its ability to show a world where people 
will want to go. The point is that thinking about children's need for 
nature helps us begin to paint a picture of that world--which is 
something that has to be done, because the price of not painting that 
picture is too high.
    What can government do, how can it expand the good work in has 
begun? Government could increase the supply of naturalists and 
interpreters at our parks and other public nature settings; these 
professionals will become even more important as children experience 
less nature in their own neighborhoods. Conservation agencies could 
establish a national conservation corps to reach into so-called 
minority communities to actively recruit young people into the 
conservation professions. At the federal and state levels, park systems 
might replicate Connecticut's ``No Child Left Inside'' program, which 
has so successfully repopulated that state's parks with families--or 
establish innovative nature attractions, such as the simple ``canopy 
walk'' created by biologist Meg Lowman in Florida, which doubled the 
attendance of one state park.
    Reauthorization of the Leave No Child Behind Act should assure that 
nature be returned to our schools, by encouraging field trips, natural 
playgrounds, outdoor classrooms, and broad support for outdoor and 
environmental education. Congress might also establish a national Take 
Your Child Outside Week. Federal and state conservation agencies might 
loosen current restrictions of the use of government funds for outreach 
efforts. ``Here we sit with the mandate of managing the resource for 
future generations,'' one state official told me recently. ``The 
legislature wants us to manage habitat and wildlife but minimizes 
support for the other, critical half of the equation, managing the 
people surrounding and influencing that habitat.'' By encouraging and 
working with a national Leave No Child Inside movement, government 
agencies could seek philanthropic partners beyond traditional sources 
of conservation dollars: for example, foundations concerned about child 
obesity; education philanthropies promoting experiential learning; 
civic organizations that see the link between land and community.
    Collaborations between the Departments of Interior, Education, 
Agriculture, and Health and Human Services could help green the 
nation's crumbling urban and suburban parks Farms and ranches could 
become the new schoolyards--if government can pay farmers not to plant 
crops, surely it can pay farmers and ranchers to plant the seeds of 
nature and rural cultures in the next generation. Much more can be 
done.
    Under the right conditions, cultural and political change can occur 
rapidly. The recycling and antismoking campaigns are our best examples 
of how social and political pressure can work hand in hand to create a 
societal transformation in just one generation. The children and nature 
movement has perhaps even greater potential--because it touches 
something even deeper within us, biologically, spiritually.
    In January 2005, I attended a meeting of the Quivira Coalition, a 
New Mexico organization that brings together ranchers and 
environmentalists to find common ground. The coalition is now working 
on a plan to promote ranches as the new schoolyards. When my turn came 
to speak, I told the audience how, when I was a boy, I pulled out all 
those survey stakes in a vain attempt to keep the earthmovers at bay. 
Afterward, a rancher stood up. He was wearing scuffed boots. His aged 
jeans had never seen acid wash, only dirt and rock. His face was 
sunburned and creased. His drooping moustache was white, and he wore 
thick eyeglasses with heavy plastic frames, stained with sweat. ``You 
know that story you told about pulling up stakes?'' he said. ``I did 
that when I was a boy, too.''
    The crowd laughed. I laughed.
    And then the man began to cry. Despite his embarrassment, he 
continued to speak, describing the source of his sudden grief: that he 
might belong to one of the last generations of Americans to feel that 
sense of ownership of land and nature. The power of this movement lies 
in that sense, that special place in our hearts, those woods where the 
bulldozers cannot reach. Developers and environmentalists, corporate 
CEOs and college professors, rock stars and ranchers may agree on 
little else, but they agree on this: no one among us wants to be a 
member of the last generation to pass on to its children the joy of 
playing outside in nature.
    Richard Louv is the author of ``Last Child in the Woods: Saving Our 
Children From Nature-Deficit Disorder'' and chairman of the Children & 
Nature Network (www.cnaturenet.org). E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3547595a4043755641461b565a58">[email&#160;protected]</a>
    Portions of this testimony were adapted from ``Last Child in the 
Woods'' and from an article in the March/April issue of Orion Magazine: 
http://www.orionmagazine.
org/pages/om/07-2om/Louv.html
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Mr. Calengor, past 
Chairman of the Board, American Sportfishing Association. Sir?

   STATEMENT OF JERRY CALENGOR, PAST CHAIRMAN OF THE BOARD, 
               AMERICAN SPORTFISHING ASSOCIATION

    Mr. Calengor. Thank you. My name is Jerry Calengor and I am 
the Chairman of Normark Corporation, an international fishing 
tackle and manufacturing company. I am here today on behalf of 
the American Sportfishing Association, the Recreational Fishing 
Tackle Industry's trade association, and we appreciate this 
invitation to testify.
    Recreational fishing has been and remains one of the most 
popular outdoor activities. Over the last five years over 80 
million Americans have ventured into the outdoors to enjoy 
fishing. However, we in the industry see several disturbing 
trends. For many years the growth in fishing participation 
followed the growth of our nation's population, but in the mid-
1990s this trend peaked as you can see on the chart.
    Since then fishing popularity has started a slow decline, 
and our children are following the same trend. According to a 
report released in February by the U.S. Fish and Wildlife 
Service the percentage of children introduced to fishing 
declined from 53 percent of the population in 1990 to 42 
percent in 2000. The only good news in this report is that it 
appears that the decline has stabilized in the last few years.
    Now, let me talk a minute about what the recreational 
fishing community has done to respond to this challenge. In the 
mid-1990s we, along with the state boating and fishing 
managers, recognized a downward trend in participation and 
asked Congress to respond. As a result, in 1998 Congress passed 
the Sportfishing and Boating Safety Act.
    This Act required the Secretary of the Interior to 
implement a national outreach plan to address these concerns. 
The Recreational Boating and Fishing Foundation, the RBFF, was 
created to carry out the mission. Today RBFF has eight years of 
experience in developing an effective outreach program for 
boating and fishing. I have had the pleasure of serving on the 
RBFF board of directors and with the experience I can say the 
organization is ahead of the curve in thinking about kids, the 
outdoors, as well as thinking about kids and families.
    In fact RBFF created Take Me Fishing, the ad campaign, 
which is also, by the way, a call to action. You could see it 
on the chart. Who is making this call to action? The children 
of course. It is the children who are saying take me fishing. 
RBFF has also created a unique website directed at connecting 
families through fishing and boating experiences, and I would 
urge you to take a close look at takemefishing.org, see Figure 
4, for the breadth of where-to and how-to information.
    Also, they have assembled the education that surrounds 
introducing kids to fishing in a series of best practices. We 
have learned that one-day or half-day fishing events just are 
not enough. You cannot introduce a child to fishing one 
Saturday in May and create a lifetime love of angling and 
outdoors. It takes time, and it takes repetition. As a father 
of three and nine grandchildren I can tell you it takes a lot 
of time and a lot of worms.
    Further, RBFF research has shown that being good stewards 
of our resources comes through great interaction. A child who 
thinks the river is cool is one thing. A child who thinks the 
river is cool and fishes it has a greater experience, and a 
greater desire to participate in the sport and a greater 
awareness and concern of resource stewardship. Finally, one of 
the most important things we have learned along the way is that 
the way fishing was taught to our generation is not the way 
fishing is taught to the children of today.
    If you are under the age of 35, the odds are high that 
neither your parent nor your grandparent introduced you to 
angling. In a recent survey of avid anglers among those whose 
dads introduced them to fishing 88 percent were 35 or older. 
The majority of those under 35 are being introduced by someone 
else. Mr. Chairman, the world has changed and the children have 
changed, so we should not be surprised that the activities they 
participate in are changing.
    Our role models were parents and grandparents who 
introduced their kids to the outdoors. That process is broken 
or at least is not working as well as it once did. If we as a 
society want to reconnect our children with nature, we need to 
develop a new model.
    Many parts of this model are outlined in Richard Louv's 
book, The Last Child In the Woods, but one part of the model 
that receives little attention is the role that Federal and 
state resource management, along with everyone else involved, 
will have to take the credo that if we build it they will come 
and revise it. They believed and for years it was true that if 
we properly managed our natural resources the public would come 
to enjoy them.
    However, the testimony I am hearing today I do not think 
that is true anymore. So I believe the job that we all have to 
be involved in and must change is we must work to ensure 
healthy, abundant natural resources, and they must also design 
programs and policies that encourage and engage the public in 
enjoying those resources. Our nation's future depends on it. 
Thank you for the opportunity to be here.
    [The prepared statement of Mr. Calengor follows:]

      Statement of Jerry Calengor, Chairman, Normark Corporation, 
           on behalf of the American Sportfishing Association

    Mr. Chairman, and members of the subcommittee, my name is Jerry 
Calengor. I am Chairman of Normark Corporation an international 
sportfishing corporation. I am here today to testify on behalf of the 
American Sportfishing Association (ASA). The ASA is the recreational 
fishing tackle industry's trade association. We have as members over 
650 companies, organizations, and agencies representing thousands of 
people throughout the world, includes members of the sportfishing and 
boating industries, state fish and wildlife agencies, federal land and 
water agencies, conservation organizations, angler advocacy groups and 
the outdoor media. We appreciate the opportunity to testify here today 
on this important issue.
    And Mr. Chairman, I would also like to thank the various angling 
organizations that provided material on their programs. These include 
the Recreational Fishing and Boating Foundation, the Alliance for Fly 
Fishing Education, the Daniel Hernandez Youth Foundation, Family Tyes, 
the Future Fisherman Foundation, and the National Recreation and Park 
Association.
The Status of Fishing
    Recreational fishing has been and remains one of the largest 
outdoor recreational activities in this nation. Along with swimming and 
camping, it is one of the most popular outdoor activities. Over the 
last 5 years, over 80 million Americans have ventured into the outdoors 
to enjoy fishing. However, we in the industry see several disturbing 
trends. For many years, the growth in fishing participation followed 
the growth in our nation's population. But, in the mid-1990s, this 
trend peaked and since then fishing's popularity has started a gradual 
decline (see Figure 1). Unfortunately, fishing is not the only outdoor 
sport in stagnation or decline.
    In a 2006 study, the Nature Conservancy found that Americans are 
growing less and less interested in spending time outside. The report 
showed that over a 16-year period, from 1987 to 2003, adult visitation 
to national parks decreased by 25 percent. It should come as no 
surprise that of the two dozen possible explanations for this trend, 
video games, movie rentals, internet use and rising fuel prices ranked 
the highest.
    And kids are following this same trend. According to a report 
released in February by the U.S. Fish and Wildlife Service, the 
percentage of children introduced to sportfishing declined from 53 
percent of the population in 1990 to 42 percent in 2000. The only good 
news that I can see is that this decline has appeared to have 
stabilized in recent years. A closer look at the data shows that this 
decline is in even greater in children from urban areas. No surprise 
there but as our society continues to urbanize, introducing our 
children to fishing and the positive effects it can have on their lives 
is proving to be a significant challenge. And why should we care? I 
believe there are three primary reasons. The first is basic economics. 
Quite simply, anglers, boaters, and hunters pay for a significant 
majority of the conservation work that occurs on in this country. Each 
year, anglers and the industry they support pay over a billion dollars 
in licenses fees and excise taxes for fish and wildlife resource 
management. As a nation, we can't afford to loose those funding 
sources.
    The second reason is succinctly and alarmingly illustrated in 
Richard Louv's recent book, Last Child in the Woods. Mr. Louv makes a 
clear connection between a series of disturbing childhood trends--the 
rise in obesity, attention disorders and depression--to the absence of 
outdoor activity in their everyday lives.
    Finally, the last reason why we should be so gravely concerned 
about our children losing touch with the natural world may also be the 
most important. For as a society, if we--if our children--lose our 
affinity for the natural world around us, where will the next 
generations of stewards come from?
The Progress
    In the mid-1990s, the boating and fishing industries, along with 
state boating and fishing managers, recognized the downward trend in 
participation levels and asked Congress to respond. As a result, in 
1998, Congress passed the Sportfishing and Boating Safety Act. The Act 
required the Secretary of the Interior to implement a national outreach 
and communication plan to address participation issues associated with 
recreational fishing and boating, while ensuring public support for 
aquatic resource conservation. The Recreational Boating and Fishing 
Foundation, or RBFF, was created to carry out this mission.
    Today, RBFF has eight years of experience in developing an 
effective, consensus based outreach and communications program for 
boating and fishing. I've had the pleasure of serving on the RBFF Board 
of Directors. By working cooperatively with state managers and the 
boating and fishing industries, the organization has successfully built 
a platform of consumer awareness and created a core constituency of 
stakeholder partners. RBFF is ahead of the curve in ensuring that there 
are a variety of programs aimed at introducing children to the 
outdoors.
    RBFF is also ahead of the curve in doing the research that 
confirmed that fishing is an effective way of connecting children with 
nature--as well as connecting children with their families. As a 
result, RBFF created the ``takemefishing'' ad campaign--which is also, 
by the way, the call to action (see Figure 2). And who is making the 
call to action? The children, of course! It's the children who are 
saying ``take me fishing'' (see Figure 3).
    The campaign has received broad industry support. Since its 
inception, the boating and fishing industries have contributed more 
than $17 million in support through both cooperative marketing and 
outdoor media support. Here are some examples of those media 
organizations that have donated advertising space (see Figure 4) to 
broadcast the ``take me fishing'' message. RBFF has also received 
additional support from partners in the form of donated time, show 
space, value-added advertising, event placement and cooperative 
partnerships.
    RBFF has also created a unique web site directed at connecting 
families to fishing and boating experiences. I would urge you to take a 
close look at takemefishing.org (See Figure 5) for the breadth of 
``where to'' and ``how to'' information. This web site has a database 
of over 10,000 places to boat and fish around the country. In addition, 
the site has tips on family recreation, license requirements and 
aquatic conservation.
    RBFF has also assembled the education that surrounds introducing 
children to fishing into a series of Best Practices. I'm pleased to 
report that the Association of Fish and Wildlife Agencies has endorsed 
the use of these guidelines in state aquatic education programs around 
the country. We've learned that one-day or half-day fishing events, 
although they have their place, just aren't enough. You can't introduce 
a child to fishing one Saturday in May and create a life time love of 
angling, and the outdoors. It takes time and repetition.
    We've also learned that adequate skills development does work to 
create a long term connection to the outdoors. RBFF research has shown 
that being good stewards of our resources comes through repeat 
interaction. A child who thinks the river is cool is one thing. A child 
who thinks the river is cool--and who also has some fishing 
experience--has a much greater desire to participate in the sport and a 
greater awareness and concern for resource stewardship.
    Finally, one of the most important things we've learned along the 
way--is that the way fishing was taught to our generation is not the 
way fishing is taught to today's kids. If you're under the age of 35, 
the odds are high that neither your parent nor your grandparent 
introduced you to angling. In a recent survey of avid anglers, among 
those whose dads introduced them to fishing, 88 percent were 35 or 
older. The majority of those under 35 are being introduced by someone 
else. In other words, the recruitment model that many of us in this 
room grew up with is no longer working!
Grassroots Efforts
    While RBFF has contributed substantially to our efforts to learn 
and understand the best ways to introduce children to boating and 
fishing, as well as providing the necessary tools, much of the 
important work is done on the ground at the grass roots level--actually 
taking children fishing. A variety of clubs and organizations as well 
as state and federal agencies conduct such programs. Some of the better 
known programs are listed below.
Alliance for Fly Fishing Education
    Launched in 2001, the Alliance for Fly Fishing Education (AFFE) is 
a collaborative partnership of national fly fishing education 
providers. AFFE's mission is to generate life-long fly anglers and 
resource stewards through providing quality learning experiences based 
on Best Practices in aquatic education. AFFE accomplishes this mission 
by serving as the nexus for fly fishing education resources and 
connecting available assets (i.e., grassroots clubs, organizations, 
NGOs, retailers, and the fly fishing industry) with interested 
newcomers to fly fishing and promoting meaningful threshold experiences 
and long term mentorship.
    For the last 5 years, the ``Discover Fly Fishing'' program has 
conducted threshold experience fly casting programs in a general 
outdoors shows across the country. This program reaches over 5,000 new 
fly anglers annually, taking them through their first steps with a fly 
rod and guiding them to local resources to support and expand on their 
fly fishing experiences. The ``Discover Fly Fishing'' web site now 
serves as a national resource of existing fly fishing education 
programs and as a tool to keep the general public updated as to where 
to connect with high quality instruction and support.
    Even though it represents a small percentage of the general angling 
community, fly anglers historically and by default have a close 
association with the natural world. A new campaign will connect local 
youth service organizations with their local communities fly shops, 
Trout Unlimited chapters and Federation of Fly Fisher clubs. This 
Mentor Outreach program will guide youth and adults in to the 
complexity or fly fishing. This project holds great promises to not 
only expand the sport in a meaningful way, but to educate communities 
about a way to interact with their local natural resources for the rest 
of their lives.
Daniel Hernandez Youth Foundation
    Founded in 2001 by professional angler Dan Hernandez, the Daniel 
Hernandez Youth Foundation holds free local fishing events and boating 
trips throughout California in an effort to ensure that every child 
gets an opportunity to experience the thrill of sportfishing and a 
basic introduction in the marine sciences. Since its inception 6 years 
ago, the foundation has reached over 9,500 youths with its Open Ocean 
Adventures and lake events.
    The Foundation's events are held in underserved communities 
throughout Southern California. The hands-on activities help them 
engage an interest in and learn about marine life. The foundation 
utilizes two key programs ``Open Ocean Adventures'' which is an event 
catering to at-risk, inner city kids ages 7-15. The children board a 
chartered fishing boat and are taken out to the open ocean for a day of 
ocean fishing and instruction in boating safety. The ``Meet Me at the 
Lake'' program is a volunteer-lead, half-day youth fishing event at a 
local city lake where youth meet and interact with local firefighters 
and police officers as well as learn to practice casting, knot tying, 
and marine life education. Everything needed for a day of fun and 
fishing is provided free of charge to all attending children.
Family Tyes
    Founded in 1979, the Family Tyes program goal is to provide youth 
and families with life-long, positive alternatives to negative 
influences. Family Tyes is committed to youth development, family 
values and environmental conservation. For over 20 years, the program's 
fly fishing activities have reconnected thousands of Pennsylvania and 
New Jersey children and their families to their environment through fly 
fishing.
    Fly fishing creates a curiosity and connection that leads directly 
to a lifetime passion for the natural world as well as creates a 
culture and language that breaks down barriers, encourages 
communication and fosters lasting relationships among youth and among 
youth and the natural world.
    The Family Tyes program engages over 2,000 youth from 22 school 
programs in fly fishing activities including, fly tying and rod 
building with an extensive trip itinerary including local, state and 
national sites. Family Tyes offers a positive alternative to troubled 
lifestyles which results in opportunities for youth to gain confidence, 
to overcome shyness and stress, and to build confidence through 
achievement, hard work and commitment. When the Family Tyes system is 
offered collaboratively through youth-serving organizations such as at 
risk urban teens in inner city high school or outreach events, the 
experience becomes a tool of racial reconciliation, violence prevention 
and source of deep personal pride.
Hooked on Fishing Not On Drugs
    For more than 20 years, the Future Fisherman Foundation has been 
providing youth across the nation with the opportunity to learn how to 
fish and learn positive life skills through the Hooked on Fishing Not 
on Drugs (HOFNOD) program. More than 500,000 youth participate in 
HOFNOD programs and activities each year. HOFNOD helps reinforce 
academic concepts while providing important life lessons about 
patience, stewardship, and helping youth reconnect with themselves, 
their communities, and nature. The HOFNOD program is an important link 
to engaging youth in fishing as a life long recreational activity. 
Through a nation-wide network of partnerships among state aquatic 
educators, HOFNOD state coordinators and local volunteers, HOFNOD 
delivers positive life skills and angling activities in a variety of 
ways based on long-term mentorship programs.
    Studies have shown that more than 60 percent of youth participants 
report a stronger interest in fishing following their participation in 
the program. The strong partnerships that exist among state and 
national groups help to fuel the need to create new conservation minded 
anglers. Currently, there are 23 states with active HOFNOD state 
coordinators and more than 14,000 instructors have been trained to 
conduct HOFNOD programs over the 20 year history of the program.
National Recreation and Park Association (NRPA)
    The Recreational Boating and Fishing Foundation (RBFF) and the 
National Recreation and Parks Association formed a partnership in 2005 
to provide community-based fishing and boating instruction and 
participation opportunities through NRPA's extensive parks and 
recreation network. The program is national in scope with 300 sites 
around the country including six anchor locations in Ft. Worth, TX, 
Baltimore, MD, Lacrosse, WI, Tacoma, WA, Columbus, OH, and Miami, FL. 
Recognizing fishing as an ideal way to introduce children to nature and 
foster long term-recreational activities, parks create on-the-water 
instructional programs as well as provide loaner equipment and social 
networking that help support continued participation.
    The community based parks and recreation setting removes the 
majority of barriers to participation for all populations. Low- or no-
cost programs in convenient, safe and familiar settings help to 
facilitate trial experiences for many participants. Additionally, the 
majority of these programs are located in urban settings close to 
public transportation. The ``neighborhood'' aspects of these parks also 
provide children and their families an opportunity to develop 
``ownership'' of the resource and grow to understand and want to 
preserve and protect it. The 2006 pilot program featured 10 sites and 
touched nearly 13,000 individuals. Approximately 60,000 participants 
are expected in 2007.
Physh Ed--National Physical Education Grant Program
    The Physh Ed program is an educational effort coordinated through 
the Future Fisherman Foundation and the Recreational Boating and 
Fishing Foundation. The program is designed to provide K-12 public, 
private and charter schools the resources and training they need to 
teach fishing and boating as part of the school's in-class physical 
education curricula. Since the program's inception in the 2003/2004 
school year, over 40,000 youth in 152 schools in 39 states have been 
introduced to fishing and boating. Approximately 95 new schools are 
expected to participate in the 2007/2008 school year.
    Individual school based programs are designed to be long-term 
programs that focus on skill development and the infusion of 
conservation messages. Fishing and boating activities provide ample 
opportunities to children to connect with nature. The school 
environment provides the ideal avenue to introduce youth at an early 
age to the skills and knowledge needed to ensure that outdoor 
recreational activities such as fishing and boating remain a 
recreational activity for life. The success and scope of many Physh Ed 
programs expand beyond the walls of the classroom to include community 
based partnership programs involving local retailers, after-school 
clubs, and weekend and community events.
Recommendations
    Mr. Chairman, the world has changed. The way children are raised 
has changed. Where they're raised has changed and who's raising them 
has changed. So we shouldn't be surprised that the activities they 
participate in have changed. Our old model, the one I grew up with, 
where parents or grandparents introduced their children to the outdoors 
is broken. It is not working any longer, at least to the magnitude it 
once did.
    We in recreational fishing have tried to change with the times. But 
as you can see, we've only been able to slow the decline. I would argue 
that if we, as a society, are to reconnect our children with nature, we 
need to develop a new model. Many parts of this model are outlined in 
Louv's book, Last Child in the Woods. But one part of the model that 
Louv fails to address and that receives little attention is the role 
that federal and state resource managers could have in reconnecting our 
children to the natural world.
    For years these managers have worked under the credo that ``if we 
build it, they will come.'' In other words, state fish and wildlife and 
federal land management agencies have viewed their role in managing 
natural resources, as exactly that...to manage wildlife and their 
natural habitats. They believed, and for years it was true, that if 
they appropriately managed our natural resources, the public would come 
to enjoy it. As long as one generation took on the responsibility of 
introducing the next generation to the out-of-doors, this model worked.
    However, the data and trends that we are addressing in this hearing 
suggests that this may not be true today and certainly will not be true 
in the future. So, I believe the job of our natural resource managers 
must change. Not only must they have the resources to ensure healthy 
abundant natural resources, they must also have the resources to design 
programs and policies that encourage and engage the public in enjoying 
the same. Our nation's future depends on it.
                                 ______
                                 

                                 [GRAPHIC] [TIFF OMITTED] 35982.001
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 35982.002
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 35982.003
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 35982.004
                                 
                                 .eps[GRAPHIC] [TIFF OMITTED] 35982.005
                                 

    .epsMr. Grijalva. Thank you, sir. Next is Mr. Richard 
Dolesh, Director of Public Policy, National Recreation and Park 
Association. Sir?

  STATEMENT OF RICHARD J. DOLESH, DIRECTOR OF PUBLIC POLICY, 
            NATIONAL RECREATION AND PARK ASSOCIATION

    Mr. Dolesh. Thank you, Mr. Chairman. Thank you to members 
of the Committee for the invitation to be here. I am the 
Director of Public Policy for the National Recreation and Park 
Association, but I worked 30 years in parks and recreation. I 
began my career as a park naturalist and eventually came to 
manage and develop nature programs and nature interpretation 
facilities, and manage natural area parks. I have extensive 
experience working with kids, teens and park visitors of all 
ages.
    We believe that connecting children to nature and the 
outdoors always has been a core mission of public parks and 
recreation. Sometimes public parks and recreation is seen as 
the provider of ball fields and athletic fields, but we are all 
about providing a connection to nature and to our public lands. 
However, it has become evident in recent years that both 
children and their parents have begun to lose touch with nature 
and the outdoors.
    In fact this trend is reaching crisis proportions among 
some age groups, and we are really in danger of losing a whole 
generation of kids who have lost that essential connection with 
the values and rewards that nature and the outdoors bring. 
These fears are not unfounded. This trend is of great concern 
to the members of the National Recreation and Park Association.
    It is abundantly clear to us that the Federal Government 
has an essential and continuing role to play in connecting kids 
to nature. Our extensive system, the national parks and Federal 
public lands, is the envy of the world. It is admired 
throughout the world. How many kids really can have that 
national public lands or national park experience, go to a 
campfire led program by a ranger or take a nature hike with a 
national park ranger?
    While it can be a transforming experience for children and 
adults alike, there are really very few who get to have that 
experience. There are millions of kids however who are becoming 
disconnected with nature and do not have that opportunity to go 
to a national park. In many ways our state and local parks, our 
urban parks and our regional parks are the answer.
    NRPA recently sent out a survey to public park and 
recreation agencies to learn what programs and facilities the 
public sector is providing to connect kids with nature and the 
outdoors. We sent it to about 2,000 agencies and about 250 to 
300 responded. We are still analyzing the data, but among the 
findings 68 percent of local, municipal, regional public park 
and recreation agencies provide nature programs for the public.
    That means that fully one-third do not. The most successful 
nature-based programs by agency measures were nature-based 
education programs in cooperation with local schools followed 
by nature-based summer camps and nature day camps. Sixty-one 
percent of the public park and recreation agencies surveyed had 
nature-based parks and facilities such as nature centers, 
outdoor classrooms or self-guided nature trails.
    However, that means that 40 percent of public park and 
recreation agencies responding had no such nature facilities. 
Interestingly, over 74 percent of public park and recreation 
agencies utilized public/private partnerships for nature 
activities. Fifty-three percent had partnerships with the 
private sector to manage parks and operate facilities.
    Tellingly, 91 percent of agencies that were not offering 
nature-based programs declared they would do so if they had 
adequate funding available for staff and additional resources. 
Eighty percent of agencies said they were interested in opening 
new nature-based facilities if funds were available. You know, 
some of these preliminary findings are surprising.
    That one-third of public park and recreation agencies offer 
no nature-based programs at all show that there could be 
significant gaps in opportunities for parents and children to 
connect with nature through close-to-home park and recreation 
facilities. Of equal concern is that 40 percent of public park 
and recreation agencies did not have nature-based parks or 
facilities.
    However, there was good news in the survey results. We 
found that although admittedly from a small sample of a 
fraction of the total number of local park and recreation 
agencies we learned that these 250 agencies alone had more than 
1.3 million children under the age of 13 who participated in 
nature-based programs in 2006, and that their programs also 
served 170,000 teenagers.
    Even if 40 percent of these 250 agencies had no dedicated 
nature parks the remaining agencies who responded had more than 
350,000 acres public land devoted primarily to nature. We 
believe that the heart of the challenge to connect kids to 
nature is a connection of parks and public lands. Children must 
be able to have safe access to parks and public lands, and the 
importance of such a connection to the land cannot be 
overestimated.
    We have come to see that having close-to-home access to 
nature and parks is vital to kids establishing and maintaining 
a lifelong connection to nature and the outdoors. The effort to 
connect kids to the outdoors and to come to love nature, 
though, is one in which the challenges should not be minimized.
    We continue to ask ourselves how do we get a generation of 
kids interested in nature if their parents may not even be 
interested in nature or, worse, fearful at turning them loose 
to go exploring in fields, forests and wetlands like we used 
to. In fact, in discussions with nature and program facility 
managers I found them to be quite perplexed about how to deal 
with the perception of a safety issue.
    Many think it is far safer for kids to play in natural 
areas than to be on the streets or perhaps cruising the 
internet, but the perception of the lack of safety is real and 
it can create fear. We jokingly suggested perhaps we need dog 
parks for kids where parents can turn their kids loose to turn 
over rocks and streams, and go exploring and feel completely at 
ease about their safety.
    All joking aside, there is a significant and important role 
that the Federal Government plays in enabling kids to connect 
with nature. The Land and Water Conservation Fund State 
Assistance Program is a perfect example of how the Department 
of the Interior can play a vital role in connecting kids to 
nature. Since the beginning of this program over $4 billion and 
41,000 projects have been aided with local and state 
government.
    It is the one Federal program that buys land, protects in 
perpetuity and makes it available for the public. Just to give 
you an idea, in the last seven years there have been 3,300 Land 
and Water Conservation Fund projects and over a half billion 
dollars of Federal assistance matched by a half billion dollars 
of local government assistance. Of these, 800 had directly had 
nature-related activities, programs or facilities.
    There are other programs, too. The Rivers, Trails, and 
Conservation Assistance Program with the National Park Service, 
a technical assistance program that helps local communities 
build greenways, trails, parks, heritage tourism. The Urban 
Park and Recreation Recovery Act, which has not been funded for 
four years. Vital to connecting the hardest to serve, the 
hardest to reach kids.
    I have given you prepared testimony with many examples of 
local Land and Water Fund projects, many in your own districts. 
I urge you to consider looking at that and see what the Land 
and Water Conservation Fund has done for your communities in 
your states.
    Mr. Grijalva. If I may, sir, I am going to have to ask you 
to----
    Mr. Dolesh. Yes, sir. I am glad to close. We will not meet 
this challenge unless we are prepared to take bold action. This 
should be a national priority for us, and you are uniquely 
positioned to do something meaningful about it. We stand ready 
with a host of private sector, nonprofit educational 
institutions to deliver with the Federal Government agencies 
and the Federal investment, and we thank you for your help and 
the opportunity to do this.
    [The prepared statement of Mr. Dolesh follows:]

      Statement of Richard J. Dolesh, Director of Public Policy, 
                National Recreation and Park Association

    Good morning Mr. Chairman and Madame Chairman, and members of the 
subcommittees. My name is Richard Dolesh and I am the Director of 
Public Policy for the National Recreation and Park Association. I am 
pleased to present testimony on the subject of reconnecting kids with 
nature and the outdoors.
    By way of background, I worked for 30 years in parks, recreation, 
and conservation, beginning in 1972 for the Maryland-National Capital 
Park and Planning Commission and then from 1999 to 2002 for the State 
of Maryland Department of Natural Resources. I began my career as a 
park naturalist and came to manage natural area parks and develop 
nature interpretation facilities and programs for the public. I have 
had extensive experience working with children and youth as well as 
park visitors of all ages in nature-based programs, nature education 
facilities, and natural area parks.
    Since 2002, I have been employed by the National Recreation and 
Park Association, first as a Senior Policy Associate, and since 2005, 
as the Director of Public Policy.
    NRPA is a national non-profit 501(c)3 organization dedicated to 
advancing parks, recreation, and conservation efforts that enhance the 
quality of life for all people. NPRA's network of more than 20,000 
citizen and professional members represents public parks and recreation 
at all levels. NRPA encourages the promotion of healthy lifestyles, 
recreation opportunities for all Americans, and the conservation of our 
nation's natural and cultural resources.
    Connecting children to nature and the outdoors always has been a 
core mission of public parks and recreation. However, it has become 
evident in recent years that both children and their parents have begun 
to lose touch with nature and the outdoors. In fact, this trend is 
reaching crisis proportions among some age groups, and the fears that a 
generation of kids is losing touch with the essential values and 
rewards that nature and outdoor recreation bring. This trend is of 
great concern to the members of the National Recreation and Park 
Association.
    I would like to offer a few observations from my personal 
experiences and from knowledge gained from colleagues working in parks 
and recreation across the country. I would also like to offer some 
comments on what we at NRPA see as the vital role that the federal 
government can and should play in bringing solutions to this urgent 
challenge. Finally, I would like to offer some comments about what 
public parks and recreation at the local, regional, and state level can 
do to contribute solutions, for it is in close-to-home parks that kids 
have the greatest opportunity to reconnect with nature and the 
outdoors. Many ask, what can the federal government do and what can 
Congress do to help reverse this disturbing trend?
    It is abundantly clear that the federal government has an essential 
and continuing role to play in connecting kids to nature. Our extensive 
system of federal public lands and the many interpretive services and 
educational opportunities in our national parks, forests, and other 
federal public lands constitutes the best system of parks, facilities, 
and programs in the world. Based on a long history and tradition of 
interpretive programs and services, park rangers and naturalists have 
become iconic figures in American history in the ways that they have 
connected families and children to nature and natural history over 
nearly one hundred years of service. They have communicated not just 
the facts of natural science, but a love of nature and a philosophy of 
stewardship that has built knowledge and a love of nature in 
generations of those who share in the experience.
    As the 100th anniversary of the National Park System approaches, it 
is entirely fitting that funding and resources are in place to welcome 
visitors to learn and enjoy our magnificent national parks.
    However, how many kids can go to a national park and participate in 
a nature hike or a ranger-led campfire program? While this can be a 
transforming experience for children and adults alike, there really are 
very few who are able to participate in such activities. There are 
millions of kids who are becoming disconnected with nature who will not 
have the opportunity for a national park experience.
    NRPA is attempting to gain an overview of just what local and 
regional park and recreation agencies are doing to provide close-to-
home places for kids and adults to connect with nature and the 
outdoors. At the initiative of two of our professional branches, the 
National Society for Park Resources (NSPR) and the American Park and 
Recreation Society (APRS), NRPA recently sent out a survey to about 
1900 public park and recreation agencies to learn what programs and 
facilities the public sector is providing to connect kids to nature and 
the outdoors. The survey questions focused primarily on what type of 
nature-based programs, parks, and facilities these agencies had, if 
any, and what opportunities they offered to the public to connect with 
nature.
    Approximately 250 agencies responded, and while the data is still 
being analyzed, there are some highlights to share from those agencies 
that responded:
    <bullet>  68% of public park and recreation agencies provide nature 
programs for the public, but nearly one third have appeared to have no 
nature programs.
    <bullet>  Of the public park and recreation agencies that do 
provide nature programs, naturalist led nature hikes are largest type 
of nature program, offered by 82% of agencies, but 69% had nature arts 
and crafts activities, 63% had fishing related activities, and 63% had 
nature based summer camps or day camps.
    <bullet>  The most successful nature based programs by agency 
measures were nature-based education programs in cooperation with local 
schools, followed by nature based summer camps
    <bullet>  61% of the public park and recreation agencies surveyed 
had nature-based parks and facilities such as nature centers, outdoor 
classrooms, or self-guided nature trails. However, nearly 40% of the 
public park and recreation agencies responding had no nature-based 
parks or facilities.
    <bullet>  Over 74% of public park and recreation agencies utilized 
public/private partnerships for nature activities, and 53% had 
partnerships in managing and operating facilities
    <bullet>  91% of agencies that were not offering nature based 
programs declared they would do so if adequate funding were available 
for staff. 80% of agencies are interested in opening new nature based 
facilities if funds were available.
    Some of these preliminary findings are surprising. That one third 
of public park and recreation agencies offer no nature based programs 
at all show there could be significant gaps in opportunities for 
parents and children to connect with nature through close-to-home park 
and recreation nature-based programs.
    Of equal concern is that nearly 40% of responding public park and 
recreation agencies said that they have no dedicated nature parks or 
facilities. If these results prove to be true for a larger sample of 
public park and recreation agencies, this is a signal for concern.
    However, there is good news from public park and recreation 
agencies as well. While this survey s admittedly only a snapshot from a 
fraction of the total number of public park and recreation agencies in 
the nation, we learned that these 250 agencies alone had more than 1.3 
million children under age 13 who participated in nature-based programs 
in 2006, and their programs also served more than 170,000 teenagers. 
And even if 40% of the 250 responding agencies have no dedicated nature 
parks, the remaining agencies protect more than 350,000 acres of public 
park land devoted primarily to nature
    At the heart of the challenge to connect kids to nature and the 
outdoors is a connection to parks and public lands. Children must be 
able to have safe access to parks and public lands, and the importance 
of such a connection to the land cannot be overstated. We have come to 
see that having close-to-home access to nature in parks and outdoor 
recreation areas is vital to kids' establishing and maintaining a 
lifelong connection to nature and the outdoors.
    The effort to reconnect kids to nature and the outdoors is a 
difficult one, and the challenges must not be minimized. We must 
continue to ask ourselves, how do we get a generation of kids 
interested in nature when their parents may not have any interest, or 
worse, may be fearful of turning their children loose to go exploring 
in fields and forests and wetlands like we used to.
    In fact, in discussions with nature facility and program managers, 
I have found them to be quite perplexed on how to deal with this 
perception of safety issue. Many think that it is far safer for kids to 
play in natural areas than to be on the streets or perhaps even to be 
cruising websites, but the perception of a lack of safety can create 
fear. I jokingly suggested that perhaps we need ``dogparks for kids'' 
where parents can turn their kids loose to turn over rocks in streams 
and go exploring and feel completely at ease about their safety.
    There is significant and important role that the federal government 
plays in enabling kids to connect with nature. The federal government, 
through the federal land managing agencies provides matching grants and 
technical assistance programs to state and local governments. These 
matching federal grant programs are vitally important to achieving the 
goal of connecting children and families to nature and the outdoors 
because they enable literally thousands of local communities to build 
parks, develop greenways and trails, conserve open spaces, and protect 
wildlife habitat--interesting natural places that kids and their 
parents can visit and get in touch with nature.
    This is why the technical assistance programs and matching federal 
investments made in partnership with states and local communities are 
so important to the effort to connect kids with the outdoors.
    The Land and Water Conservation Fund (LWCF) is a perfect example. 
Both the federal side of LWCF and the state side of LWCF enable the 
purchase of public lands that will be open to the public for 
recreation, and best of all, in perpetuity. I will concentrate most of 
my comments on the state side of the LWCF since it has such an impact 
on helping communities and localities connect kids to the outdoors. And 
even though my comments about the federal side of LWCF are limited, 
this part of the program is extremely important to our national public 
lands since it enables purchase of additions to National Parks, 
National Forests, National Wildlife Refuges, and other federal public 
lands.
    By way of brief overview, since the beginning of the LWCF program, 
the state side of the program has aided almost 41,000 local and state 
park, recreation, and conservation projects. Almost $4 billion dollars 
in matching funds have been provided. These ``matching'' federal grants 
are often matched at a much higher rate than 50% since the local and 
state agencies provide much more in in-kind resources and local 
funding. Project sponsors commit to keeping the lands and facilities 
open to the public and available for public use in perpetuity.
    The LWCF is the one federal program targeted to conservation and 
recreation that protects lands and waters and makes them available to 
the public in perpetuity.
    Just to give you an idea of what good the LWCF accomplishes in 
allowing kids to connect to nature, in just the last seven years, since 
FY 2000, the LWCF state assistance grants have funded over 3,300 state 
and local projects with over a half billion dollars in matching 
assistance. Note that in the past seven years, the states and 
localities have provided more than one half billion of their locally 
generated funds to match the federal investment.
    Of the 3300 facilities and public lands projects that have been 
aided in the last seven years, over 800 have included purchase of land 
or the development of trails. While some might be part of larger parks, 
238 projects had campgrounds; 192 had fishing facilities; 21 had public 
hunting lands; 267 were for natural area parks; and nearly 1000 had 
facilities for family picnicking.
    Just to give you a few examples of LWCF projects that enable kids 
to connect to nature and the outdoors, some of which are in your home 
districts, here is a partial list of recent LWCF projects:
State of Washington
Bainbridge Island--Gazzam Lake acquisition--WA
    LWCF project assisting in the acquisition of 50 acres in addition 
to 300 acres existing. The acquired parcel will provide an important 
trail connection for people accessing the park from the south, allowing 
better pedestrian connectivity. This park protects important forests 
and wetlands and will also eventually provide a trail linkage to the 
Puget Sound.
City of Poulsbo--Liberty Bay Park--WA
    LWCF project provided assistance for a new seawall, and a new 
waterfront trail, as well as lighting and benches, etc. It was recently 
inspected by a staff member who concluded that the city did a beautiful 
job in providing waterfront access. The trail also connects with 
another LWCF site.
    Two excellent projects are pending in Bremerton, WA. One is the 
acquisition of a parcel that will expand the existing Evergreen Park, 
an urban waterfront park. The other is a park development project at 
Blueberry Park that will result in a small paved loop trail primarily 
for children on tricycles and small bikes and additional improvements 
planned such as restroom and field improvements. This park is within 
walking distance of a school.
State of Oregon
Beazell Memorial Forest Development--Benton County, OR
    Project funds are being used to construct a recreational and 
interpretative infrastructure in Beazell Memorial Forest, a forest-
conservation zone resource near Corvallis, Oregon. The project will 
complete the site's trail loop system, install interpretive signs, 
construct bridges for pedestrian creek crossings, construct two open 
forest observation shelters, and remove invasive species along creek 
riparian areas.
Clearwater/Vinyard Park Acquisition--Willamalane Park and Recreation 
        District, OR
    Project funds were used to acquire a 17.6-acre addition to 
Clearwater Park. in Springfield, Oregon. It provides surrounding 
residents public access to the Springfield Millrace and Willamette 
River. Possible future site development includes pedestrian, bicycle 
and equestrian trails; picnic facilities, and interpretative signs and 
kiosks.
State of Maryland
Chesapeake Bay Conservation Easement & Land Acquisition--Centreville, 
        MD
    Total Cost--$4,180,000, LWCF Assistance--$1,250,000
    This project is a Federal, State and County (Queen Anne's) 
partnership that acquired 312+ acres of farmland previously known as 
the Riggs farm in the Town of Centreville. This property will be used 
for multiple recreation purposes that include active and passive 
outdoor recreation development, preservation of wildlife and water 
quality areas and a demonstration farm. Activities will be developed to 
meet a wide variety of recreational needs for children, youth, adults 
and senior citizens.
State of New Jersey
Hoboken Waterfront Park--NJ
    Total Cost--$3,026,840, LWCF Assistance--$1,513,420
    This project acquired 2.03+ acres of prime property near the 
waterfront along the Hudson River with views of Mid-Manhattan in a 
densely populated area in the City of Hoboken and Weehawken Township. 
The city plans to link this property with Hoboken Cove Park (across the 
street) with a pedestrian walkway beneath Park Avenue. The city also 
intends to develop active and passive recreation amenities including 
walkways, benches, lighting, and landscaping. The proposed development 
will provide children, youth, adults and senior citizens with 
neighborhood recreational opportunities that are close-to-home.
State of New York
Roe Park, Highland Falls, NY
    Total Cost--$500,000, LWCF Assistance--$250,000
    LWCF assistance will help renovate Roe Park, a 9.45+ acre facility 
in the Village of Highland Falls. The park is being rehabilitated due 
to safety concerns and overuse of existing facilities. Proposed work 
includes improvements to the picnic area, sports and playfields, pond 
renovation and support facilities. Once the proposed development is 
completed, children, youths, adults and senior citizens will enjoy a 
safer and more user friendly park recreation experience.
State of West Virginia
April Dawn Park, Huntington, WV
    Total Cost--$519,840, LWCF Assistance--$259,920
    The Greater Huntington Parks and Recreation District used LWCF 
assistance to create this unique playground for children that has a 
play structure of a fictitious monster ``Teays Valley Monster'' that is 
the first water playground structure in West Virginia. One section 
contains the face and spray apparatus of the monster, the middle 
section contains play forms that comprise the body, and lastly, the 
monster's tail contains a sand mystery dig section for children to 
explore and use their imagination. This play apparatus has become the 
center piece of this one acre park that is enjoyed by children and 
youth as adults and senior citizen watch in amazement. The park also 
has a picnic shelter, comfort station, gazebo, open play area, benches, 
and walkways.
State of North Carolina
Azalea Park, City of Asheville
    LWCF Development assistance at this 15o acre park includes picnic 
areas, fishing facilities, trails, and support facilities. This site 
provides activities for a variety of interest and age groups. Three new 
pedestrian bridges will also be developed in future development phases.
State of Florida
Dreher Park, City of West Palm Beach
    Dreher Park, which totals about 100 acres, first received L&WCF 
assistance in 1976 for site preparation, water and sewer system, 
irrigation, roads, parking areas, landscaping, picnic facilities, 
restrooms and other support facilities. The most recent project 
provided assistance to install 3 new playgrounds, a freshwater fishing 
pier, and 2 new miles of nature trails at this urban park site. In 
addition, three existing picnic facilities and the restroom facilities 
were renovated. Located in a well developed residential area in the 
southeastern quadrant of the City of West Palm Beach, this park is one 
of the last remaining parcels of open space bordering I-95 within the 
City limits. Dreher Park is a unique environmental experience and 
features different ecosystems, native plantings and freshwater habitat.
State of Louisiana
Brechtel, Sam Bonart and Village De L'est Playgrounds New Orleans
    Brechtel Park, which totals 122 acres, is located adjacent to a 
residential area and while many of its users walk to the park, it is 
considered a regional park and its users come from the general 
population of the City. The park has several nature trails, picnic 
facilities, natural areas, a lagoon, tent pad camping, an exercise 
trail for the physically challenged and a playground. Bonart Park is 
also located adjacent to a residential area. In addition, it is 
bordered on one side by an elementary school and is heavily used by its 
students. Village De L'Est Park is located adjacent to a residential 
area and is also bordered on one side by an elementary school. L&WCF 
assistance was used to replace deteriorated playground equipment at all 
of these parks.
State of Minnesota
City of Baxter--Mississippi River
    Total project costs: $1,200,000; Federal share: $ 260,123
    In this Land and Water Conservation Fund project, the Trust for 
Public Land will convey 63 acres overlooking the Mississippi River to 
the city of Baxter for the creation of a new natural resource-based 
regional park. This site will serve one of the fastest growing areas of 
Minnesota, enhance public access to the Mississippi River, and 
complement an existing state park, state trail, city canoe landing, and 
nationally significant river corridor.
State of Oklahoma
Boley Historical Pond, Boley, OK
    Total project costs: $26,352; Federal share: $13,176
    The town of Boley (Oklahoma) will utilize this L&WCF grant to 
create a 1.5-acre recreational fishing pond at the Boley Historical 
Park. Boley received a previous L&WCF grant for the development of 
picnic areas and a concession/restroom facility at this same park. 
Located in Okfuskee County, 67 miles east of Oklahoma City, Boley is 
nationally significant historically because it is representative of the 
many towns established by African Americans who migrated from the south 
to northern and western communities after the abolishment of slavery.
State of Texas
Penitas Park and Wildlife Refuge, City of Penitas, TX
    Total project costs: $845,440; Federal share: $422,720
    The city of Penitas, in Hildago County, Texas will utilize a 
$422,720 Land and Water Conservation Fund grant to assist in the 
acquisition and development of the 37.5-acre Penitas Park and Wildlife 
Refuge. This NPS grant, awarded to the city of Penitas through the 
Texas Parks and Wildlife Department, will help the city develop a 
number of outdoor recreational facilities to include picnic areas, a 
playground, a natural area with a nature trail, an exercise trail, a 
fishing pier, shuffleboard courts and horseshoe pits, an exercise 
garden, a pavilion, and a visitors station. The refuge portion of the 
project is especially important because it contains native brush 
habitat as well as a wetlands area. The refuge is situated in a major 
flyway for migratory birds.
Fort Bend County Regional Park and Trail, Ft. Bend, TX
    Total project costs: $1,000,000; Federal share: $500,000
    Fort Bend County, Texas, will utilize a $500,000 Land and Water 
Conservation Fund grant to assist in the acquisition and development of 
Regional Park and Trail. This NPS grant, awarded to Fort Bend County 
through the Texas Parks and Wildlife Department, will help the county 
develop a number of outdoor recreational facilities which include 
picnic areas, a playground, a baseball/softball field, a soccer field, 
a natural area with a nature/hike trail, and a canoe launch site. Some 
of the donated 19.2 acres will become a dedicated wetland.
Montgomery County Spring Creek Greenway, Montgomery County, TX
    Total project costs: $2,000,000; Federal share: $1,000,000
    Montgomery County (Texas) will acquire and develop 407 acres of 
land along Spring Creek. Spring Creek is the boundary between 
Montgomery County and Harris County. Spring Creek Greenway straddles 
the two counties, with access and facilities on both sides of the 
creek. Montgomery County and Harris County have an interlocal agreement 
to participate and administer the lands and facilities in this grant 
application.
    Both Montgomery and Harris County plan to preserve, through 
donations, purchases, or conservation easements, 33 linear miles of 
forest along Spring Creek. Larger forested preserves, known as gateway 
parks, will eventually be connected by a forested ``trunk line trail.'' 
One of the existing gateway parks, John Pundt Park, will also be 
developed under this L&WCF grant including new picnic areas, a 
playground, a canoe landing, a natural area with a nature trail, hike/
bike/horse trails, a pavilion, trail access routes, and a restroom 
facility.
    This Spring Creek Greenway project will connect and protect over 
800 acres of forest, on both sides of the creek, in order to preserve, 
protect, restore, and educate the public about an ecological gem--a 
biologically diverse ecosystem that provides important habitat for many 
wildlife species just north of Houston.
Hays County San Marcos Springs Conservation Park, Hays County, TX
    Total project costs: $800,000; Federal share: $400,000
    Hays County, Texas, will utilize a $400,000 Land and Water 
Conservation Fund (LWCF) grant to assist in the development of the 
250.7 acre San Marcos Springs Conservation Park. This NPS grant, will 
help the county create a new park and develop a number of outdoor 
recreational facilities to include; picnic areas, tent campsites, a 
natural area with a nature trail, xeriscape garden, amphitheater, 
wildlife/wetlands observation stations, and a night-time classroom.
Houston Sims Woods Park, Houston, TX
    Total project costs: $800,000; Federal share: $400,000
    The city of Houston, Harris County, Texas will utilize a $400,000 
Land and Water Conservation Fund (LWCF) grant to assist in the 
acquisition and development of 27.3 acres of land at Sims Woods Park. 
This NPS grant, awarded to the city of Houston through the Texas Parks 
and Wildlife Department, will help the city create a new 75.3 acre park 
which will include a canoe launch site; a natural area with a nature 
trail and numerous outdoor teaching/observation stations related to 
nature/wetlands; and, cultural topics.
    This is just a small sample of the hundreds of LWCF projects that 
have been funded in the past seven years. However, since 2005, the LWCF 
has not been funded to the level it should be, and NRPA and a host of 
national, regional, and local conservation and recreation advocacy 
groups have brought this matter to Congress. In fact, we find it very 
difficult to understand that in the face of this urgent national 
challenge that the Administration would propose terminating this 
extremely valuable and worthwhile program for the past three years. The 
LWCF state assistance program is proposed for termination and zero 
funding in the 2008 budget. We hope that the members of this committee, 
along with all the Members of Congress, see the worth of the Land and 
Water Conservation Fund and recommend that Congress restore an adequate 
and appropriate level of funding, at least $100 million, for 2008.
    There are a number of other technical assistance programs and 
matching federal grant programs that enable local communities to do 
more to provide nature-based programs, parks, and facilities to 
families and children that are close to home, safe, and easily 
accessible.
    These programs include the National Park Service's River's Trails 
and Conservation Assistance program, a technical assistance program 
that provides planning assistance and coordination among government 
agencies and private sector entities for greenways, hiker-biker trails, 
water trails, heritage tourism promotion, and assistance with local 
projects that connect kids with nature and the outdoors. The $8.2 
million RTCA program budget has suffered a series of cuts in recent 
years, but is proposed for a $650,000 increase in 2008. The Rivers, 
Trails and Conservation Assistance Coalition, a group of national and 
regional advocacy organizations has called for a $3.8 million increase 
in the program budget for 2008 which would restore the program to its 
2002 level and enable it to do more projects annually, projects that 
would undeniably contribute to connecting kids with nature.
    Another National Park Service program that assists cities and urban 
counties rehabilitate deteriorating urban park facilities is the Urban 
Park and Recreation Recovery Program (UPARR), authorized under the 
UPARR Act of 1978. The National Park Service has provided matching 
federal funds for 1529 urban park projects. However, UPARR has not 
received funding since 2002, and is in danger of being terminated. 
Congress must act to revitalize this necessary and important program 
that enables cities to reach their most at risk and underserved kids to 
help them reconnect with nature. NRPA along with a number of national 
organizations has requested that $30 million be appropriated for UPARR 
in 2008.
    There are many not for profit, educational, philanthropic and 
conservation organizations that are poised and ready to be partners in 
this effort. NRPA, for example, is taking several specific initiatives 
to better connect kids to nature and the outdoors. Our National 
Partnerships department is coordinating the innovative Teens Outside 
program with a generous grant from the Outdoor Industry Foundation. The 
Teens Outside pilot program, first modeled in Asheville, NC, is an 
eight week outdoor skills and activities program designed to get teens 
involved through outdoor recreation such as mountain biking, kayaking, 
hiking, and rock climbing. The hope is that the experiences of the 20 
agencies in expanded pilot programs will lead to a nationwide model for 
other communities and agencies.
    Also, NRPA in cooperation with the National Boating and Fishing 
Foundation (RBFF) is implementing the ``2007 Take Me Fishing Community 
Initiative,'' a program to encourage development of community based 
fishing and boating education and appreciation programs. Resources to 
eligible communities may include grants-in-aid, equipment grants, and 
scholarships to training workshops, as well as program materials, 
promotional material and toolkits. This initiative is expected to 
eventually involve hundreds of communities.
    There is much that Congress and the federal agencies can do to 
address this urgent national crisis. First and foremost should be to 
commit to providing funds for those matching grant programs and 
technical assistance programs that can do the most good to connect kids 
to the outdoors. With your help, local park and recreation agencies are 
poised and ready to provide safe, close-to-home places for kids and 
their parents to explore nature on their own terms.
    We will not meet this challenge unless we are prepared to take bold 
action. This should be a national priority, and you are uniquely 
positioned to take actions that will meaningfully address the crisis. 
However, we respectfully point out that it cannot be done at the 
sacrifice of those programs and services that also needed and doing so 
much good. It is vital to connect our national public lands and 
resources to state, regional, and local parks and conservation lands. 
In this way we can build long-lasting partnerships that go to the heart 
of every community, and strengthen and support each other in this 
mission, which will not be accomplished in a year or even a decade. 
Your help and your leadership is truly needed, and our children yet to 
come will thank you for it.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Mr. Dale Penny, CEO, Student 
Conservation Association. Mr. Penny, I understand you have a 
guest that we will yield some time, too, and introduce for the 
Committee?
    Mr. Penny. I do, sir. I will do it.
    Mr. Grijalva. Thank you.
    Mr. Penny. Thank you, Mr. Chairman.

   STATEMENT OF DALE PENNY, CHIEF EXECUTIVE OFFICER, STUDENT 
     CONSERVATION ASSOCIATION, ACCOMPANIED BY JEREMY BYLER

    Mr. Penny. Thank you, Mr. Chairman. My name is Dale Penny. 
I am President of the Student Conservation Association or SCA, 
and I want to thank you for inviting Jeremy Byler, a student 
member of SCA, and me to be here today to speak about one 
successful and sustaining model of getting young people 
connected to the outdoors. SCA's mission for the past half 
Century has been to connect young people to our natural world 
and through meaningful hands-on service create the next 
generation of conservation leaders.
    SCA was started by a young woman still in college who saw 
the need to engage young people in helping preserve national 
parks, and since then nearly 50,000 high school and college age 
students have volunteered through SCA to provide over 26 
million hours of service in America's parks, forests and public 
lands in all 50 states.
    The results of these efforts has not only been an enormous 
benefit to the environment and the agencies, but it has also 
attracted and inspired thousands of young people to form a 
lifelong connection with the natural world and for many of them 
to pursue conservation careers. In fact, the National Park 
Service reports in an informal survey that about 10 percent of 
its field staff employees were Student Conservation Association 
alumni.
    Key to SCA's success over these 50 years has been that we 
have operated as a genuine public/private partnering 
organization with the public land management agencies through a 
cooperative agreement. SCA and each agency share a commitment 
and work together to accomplish a critical public purpose, to 
preserve this nation's natural and historical heritage while 
attracting and preparing the next generation of conservation 
stewards.
    Today as we have heard the need to engage young people with 
nature is more acute than ever. As this nation becomes more 
diverse and more urban it is essential that our Federal 
agencies reach out in new ways to embrace new populations and 
make the experience on public lands more relevant to diverse 
backgrounds, and that the agencies themselves become more 
representative of the changing face of our nation.
    Here is some of what I have learned about youth and nature 
through SCA. First, young children find real joy in nature when 
introduced in a fun way and especially when they see role 
models of high school students and college students leading 
them and enjoying the outdoors. The older youth act as a sort 
of a pied piper in a way that older adults just cannot.
    Second, children connect with and learn more from nature 
when they are engaged in fun, hands-on activities to protect 
the land, whether that be trail building, or tree planting, or 
gardening. This touches something deep within them and changes 
their relationship to that place.
    Finally, when young people are actively engaged in 
exploring and giving back to the land they leave the 
environment healthier, but they also realize more of their 
personal potential, develop the ethics and commitment to become 
engaged citizens, proponents for protecting our public lands 
and active conservation votes.
    Therefore, I have three specific recommendations for these 
Committees in order to overcome some administrative barriers 
and enhance the value of nonprofit partners working with 
Federal agencies.
    1. Explicitly authorize the Departments of the Interior and 
Agriculture to enter into cooperative agreements with 
nonprofits that engage young people in voluntary conservation 
service learning experiences on our public lands, especially 
those organizations that actively reach out to diverse 
populations. Cooperative agreements are the appropriate legal 
instrument to memorialize the respective roles the Federal Land 
Management Agency and the nonprofit partners have in 
accomplishing this public purpose.
    2. Encourage the bureaus to develop more programs in 
partnership with nonprofits in which high school and college 
age young people serve as role models for outreach and 
education of young children such as the Junior Ranger Program 
which is administered by the National Park Service and SCA 
members participate in as Ambassadors.
    3. With appropriate youth serving nonprofits such as SCA 
open the door for our young people to qualify for entry level 
jobs within the interior and agricultural bureaus. These 
actions would enable us as nonprofits to be more effective 
partners with the land management agencies and attract a more 
diverse new generation of young conservation professionals who 
will in turn inspire and engender a love for the outdoors with 
many more children through environmental education, outdoor 
adventure and hands-on experience in nature.
    I look forward to answering any questions you might have. 
As you mentioned I actually have two of our current students 
that are here with us today. I want to introduce first is 
Monica Baltimore back here, and then Jeremy Byler is going to 
say a few words about his experience. Maybe he can say more 
than all of us have been able to say about this so far.
    [The prepared statement of Mr. Penny follows:]

                  Statement of Dale Penny, President, 
                    Student Conservation Association

    My name is Dale Penny, President of the Student Conservation 
Association (SCA).
    Thank you for inviting Jeremy Byler, a student member of SCA, and 
me here today to speak about SCA's efforts to get kids outdoors. 
Nothing could be closer to those of us who work with the Student 
Conservation Association. SCA's mission, for the past half century, has 
been to connect young people to our natural world through meaningful 
hands-on service and create the next generation of conservation 
leaders.
    SCA was started in 1957 by Elizabeth Cushman Titus Putnam who saw 
the need to engage young people in helping preserve National Parks. 
Since then, nearly 50,000 high school and college students have 
volunteered through SCA to provide over 26 million hours of 
conservation service in America's parks, forests and public lands. SCA 
student volunteers have served from the back country of Alaska to the 
urban centers of America's great cities in all 50 states.
    The results of these efforts has not only been an enormous benefit 
to our environment and land management agencies, but it has also 
attracted thousands of young people to form a lifelong connection with 
the natural world and for many of them to become rangers, scientists, 
environmental educators and resource managers within all the bureaus of 
the Departments of the Interior and Agriculture. In fact, the National 
Park Service has informally estimated that over 10% of its current 
employees were Student Conservation Association volunteers.
    Key to SCA's success over these 50 years has been that we have 
operated as a genuine Partnering organization with the public land 
management agencies through a Cooperative Agreement. SCA and each 
agency share a commitment and work together to accomplish a critical 
public purpose: to preserve this nation's natural and historical 
heritage while attracting and preparing the next generation of 
conservation stewards.
    I will note that a number of members of the Natural Resources 
Committee have experience with SCA. Representative Jay Inslee's parents 
led SCA crews on Mount Rainier when he was young, and Representatives 
Jim Costa, Ron Kind and Henry Brown have each had SCA interns in their 
Congressional offices to learn about resource management policy before 
completing their internship in a National Park where they learned about 
the practical application of those policies. I believe these 
Representatives can readily attest to the value of developing a love of 
nature and a conservation ethic at a young age.
    Today the need to engage young people with nature is more acute 
than ever for all the reasons that have been outlined and for which 
these committees are meeting. Therefore, I will not take the 
committee's time elaborating. I will, however, add that as this nation 
becomes more diverse and more urban, it is essential that our federal 
agencies reach out in new ways to embrace new populations and make the 
experience on public lands more relevant to diverse backgrounds, and 
that they become more representative of the changing face of our 
nation.
    Here is what I have learned about youth and nature through SCA:
    First, most young children find real joy in nature when introduced 
in a fun way and when they see role models, especially high school and 
college students, enjoying the outdoors.
    Second, children connect with and learn more from nature when they 
are engaged in hands-on activities to protect the land rather then 
simply being in the outdoors. This can always be done in age-
appropriate and fun ways.
    Third, teens and young adults are a valuable asset to land managers 
by getting actual work done while serving as examples for younger 
children.
    Fourth, non-profit organizations that focus on youth and 
conservation provide essential complementary capabilities for federal 
agencies when they are embraced as full partners.
    Finally, when young people are actively engaged in giving back to 
the land they leave the environment healthier, realize more of their 
personal potential and develop the ethics and commitment to become 
engaged citizens, proponents for protecting our public lands and 
conservation voters.
    Therefore, we have three specific recommendations for these 
committees in order to overcome administrative barriers and enhance the 
value of non-profit partners working with federal agencies:
    I. Explicitly authorize the Departments of the Interior and 
Agriculture to enter into Cooperative Agreements with non-profits that 
engage young people in volunteer conservation service-learning 
experiences on our public lands, especially those national and local 
not-profits that actively reach out to diverse populations. Cooperative 
agreements are the appropriate legal instrument to memorialize the 
respective roles of the federal land management agency and non-profit 
partners in accomplishing this public purpose.
    II. Encourage the bureaus to develop more programs, in partnership 
with non-profits, in which high school and college-aged young people 
serve as role models for outreach and education of young children, such 
as the Junior Ranger program administered by the National Park Service.
    III. With appropriate youth serving non-profits, such as SCA, open 
the door for our young people to qualify for entry level jobs within 
the Interior and Agriculture departments.
    These actions would enable us to be a more effective partner with 
the land management agencies and attract a more diverse new generation 
of young conservation professionals who will, in turn, engender a love 
for the outdoors with many more children through environmental 
education, outdoor adventure and hands-on experience in nature.
    Thank you.
                                 ______
                                 

              STATEMENT OF JEREMY BYLER, SENIOR, 
            SCHOOL WITHOUT WALLS SENIOR HIGH SCHOOL

    Mr. Byler. Mr. Chairman, distinguished representatives, my 
name is Jeremy Byler, and I have the lofty task of representing 
the youth bracket that we are talking about. I live in 
Washington, D.C., and I am a senior at the School Without Walls 
Senior High School here in the District. I have been involved 
with the Student Conservation Association for four years and 
have been on two of the Organization's month-long summer crews, 
one in Yellowstone National Park and another in the White 
Mountains of Alaska.
    In the four years that I have been involved with SCA, I 
have gone through considerable growth. The experience has 
opened my eyes to a world much larger than the D.C. 
metropolitan area. I am a strong believer in the power of 
experiential learning and have many stories that have impacted 
my life. The one that sticks out the most to me is my first 
Student Conservation Association summer crew to Yellowstone 
back in 2004.
    Before this trip I was an incredibly shy and timid person 
who was hesitant to talk in public or try anything new. I came 
out of the experience as an outspoken and passionate advocate 
for conservation. The experience of being away from my family 
and familiar surroundings taught me a greater independence and 
has allowed me to finally begin speaking my thoughts and 
passions instead of just holding them inside.
    The crew members become a supportive family of friends that 
encourages and teaches one another, learns from each other and 
fosters growth and development in each of its members. If not 
for this experience designing and building bridges, camping 15 
miles away from a dirt road, roughing it out in the wild for a 
month and gaining confidence from a supportive crew, I would 
not psychologically be able to get up in front of a group of 
people, let us say Members of Congress, and speak my mind.
    Since returning from Yellowstone, I have become an avid 
public speaker, and I have spoken at the Conservation Learning 
Summit among leaders in the National Park Service and other 
conservation organizations, and I was on a panel at the D.C. 
Green Festival in 2006 discussing the importance of youth in 
conservation. Due to my experiences with the Student 
Conservation Association, I have grown as a leader and 
passionate advocate in the conservation field.
    Strictly because of my involvement with SCA I have now 
devoted my life to conservation. In fact, in the fall I will 
begin pursuing a degree in civil and environmental engineering 
at Bucknell University. As I continue to grow in this next 
stage of my life, I feel confident that the independence and 
the awe-inspiring wonder that I experienced through my summer 
crews will continue to act as catalysts for the journey.
    SCA sent me out and reconnected this kid with the outdoors, 
and I am forever changed because of it. I strongly wish this 
experience for any and every youth across the nation. Thank 
you.
    Mr. Grijalva. Thank you very much, Jeremy, and I appreciate 
your comments. If it were not for the protocol, I would 
probably ask you to continue to chair this meeting. Mr. Alan 
Lambert, Scout Executive, National Capital Area Council. Sir, 
welcome.

STATEMENT OF ALAN F. LAMBERT, SCOUT EXECUTIVE, NATIONAL CAPITAL 
              AREA COUNCIL, BOY SCOUTS OF AMERICA

    Mr. Lambert. Thank you, Mr. Chairman. I appreciate the 
opportunity to come today and discuss with you one of the most 
challenging issues that we face in the healthy development of 
our children. Regardless of where we grew up most of us 
remember a much different childhood than the youth of today. 
Unstructured outdoor play was a significant part of our early 
childhood. For us suburban and urban kids, mom's rule to come 
in when the streetlights came on was the time boundary we had.
    Vacant lots became the frontier. Forts and treehouses were 
built in open spaces. Games, stickball, softball, dodgeball, 
football, capture the flag, kick the can, tag, you name it, 
were the order of the day. The games had no adult supervision 
and were put together by groups of kids playing. Members needed 
to be recruited, the rules were set and off we went.
    We played and played, forgetting the pressures of the day, 
learning to resolve our conflicts and in most cases coming home 
slightly after the streetlights went on. Somewhere along the 
way we have forgotten the importance of unstructured play in 
the healthy development of our children's lives. The incredible 
discoveries that are found in a stream or an open field are 
being replaced by surfing the web.
    The healthy competitions found in the games of my childhood 
are being replaced by the individual competition found in the 
gaming world. Play has become organized and structured. 
Everything has a time and a place, a need for sign ups, mom or 
dad's help and transportation. Come home when the streetlights 
come on has been replaced by a schedule of activities to 
participate in, much like school, or by the words entertain 
yourself, which to today's youth means something electronic.
    The result is a loss of imagination and the skyrocketing 
health issues associated with youth obesity and behavior. Was 
the energy that we burned playing each day a result of ADD or 
ADHD or did play provide the therapy for the restless active 
youth of my day? The Boy Scouts of America has been an outlet 
for the energies of boys for almost 100 years. Established by 
congressional charter our mission is to instill values in young 
people helping them to achieve their fullest potential.
    The classroom we use for character development is the 
outdoors. The founder of scouting, Lord Robert Baden-Powell, 
observed the youth of London using military training manuals as 
part of their play. He felt that if these youth, usually poor, 
inner-city youth without structure at home, were excited by 
what they read in these manuals he could design a program that 
focused them on outdoor skills, fitness and fun.
    In the process they also learned a code to live by, to be 
responsible and disciplined and the importance of being self-
reliant. American naturalists Dan Beard and Ernest Thompson 
Seton saw the possibilities in combining a love of the outdoors 
with Baden-Powell's plan and helped design the core of the 
programs we use today. The results are impressive.
    Since 1910 over 100 million youth have experienced the fun 
and adventure of scouting in America. Almost all of them 
participate in the core outdoor programs: camping, hiking, 
conservation and learning the skills to protect and enhance the 
natural environment around us. In 2006 more than one million 
youth experienced long-term outdoor camping programs. We 
operated 404 scout summer camps across America and many 
millions more participated in short-term weekend camping and 
hiking programs throughout the year.
    I represent the National Capital Area Council which serves 
the youth and families of 16 counties in Maryland and Virginia 
plus the District of Columbia. In that territory we serve over 
85,000 youth in our programs. The core of our strategy is to 
implement the mission of scouting through the outdoors. We have 
taken this responsibility seriously. In 1996 our Council 
acquired the property that Disney had targeted to become a 
northern Virginia theme park.
    Located less than 50 miles west of the capital near 
Haymarket, Virginia, this property was perfect for our mission. 
After a period of planning and development and an investment of 
$18 million we opened the property for full programming last 
year. When fully operational Camp William B. Snyder will allow 
us to expose thousands of youth to the fun and adventure of the 
outdoors.
    We also operate Goshen Scout Reservation, a 3,500 acre 
traditional scout camp located near Lexington, Virginia. Since 
1966 Goshen has been a place where thousands of youth have 
learned to camp, cook their first meal, participate in a 
conservation project and have fun. Besides the periods of 
instruction everything that happens at camp is aimed at fun 
with a purpose.
    A couple of our local efforts with those of our national 
office, places like Philmont Scout Ranch, the Florida Sea Base 
and the Northern Minnesota Canoe Base. The Boy Scouts of 
America have committed to using the outdoors as a platform to 
help develop healthy children, but the story does not stop 
there. All across America scouts use public lands as part of 
their program.
    From local community parks to our nation's largest forests 
scouts connect their inside learning with outside applications. 
Fun with a purpose has practical, educational meaning. The 
impact on fitness is also huge. Prepare for a 25 mile hike at 
10,000 feet in the mountains of New Mexico carrying a 40 pound 
backpack. You will learn the definition of fitness real quick.
    So why is this important? Why should we be discussing some 
fun childhood memories here in Congress? Interestingly, our 
success with connecting youth with nature has a direct impact 
on many of the issues we have wrestled with today. Let me offer 
you some examples. First, the issue of youth fitness is the 
most obvious and most pressing to today's healthcare debate.
    If you think sports programs are the answer, from 1981 to 
1997 youth participation in organized sports increased by 27 
percent across America. It is ironic that the childhood obesity 
issue has coincided with this increase. One wonders if the 
strict schedules and lack of unsupervised play are more the 
issue. Access to parks, public lands and outdoor programs are 
certainly part of the solution.
    Next, consider the availability of individuals interested 
in science, technology and math. As we continue to structure 
our lives we take away the most potent tool in our toolbox, 
fostering their imagination, innovation and dreams. Connecting 
with nature and allowing unstructured play time provide a 
tremendous and proven method for sparking an interest in 
America's lifelong pursuit.
    Last, I believe the outdoors provide us with a platform for 
our great partnerships between government, business, educators 
and parents. There are few places that can effectively bring 
this large group together. Whether for social or educational 
purposes, our outdoor resources are places that people can 
gather. Strategic partnerships can be created to link with 
schools, and parks and camps to teach science, and math and the 
outdoors, presenting these subjects in a totally different 
light--fun with a purpose.
    Almost 100 years ago when asked what makes a good scout 
leader----
    Mr. Grijalva. Sir, I am going to have to ask you to wrap it 
up.
    Mr. Lambert. Robert Baden-Powell thought a moment and said 
a good leader of youth is someone who can find adventure in a 
mud puddle. As we debate the issues that confront us, let us 
always be mindful that our children need places to play, to 
dream the dreams that will take us to new places, and to learn 
to be good stewards of the open spaces entrusted to us. Thank 
you.
    [The prepared statement of Mr. Lambert follows:]

            Statement of Alan F. Lambert, Scout Executive, 
          National Capital Area Council, Boy Scouts of America

    Thank you for providing me with the opportunity to discuss one of 
the most challenging issues that we face in the healthy development of 
our children. The picture isn't pretty--our youth have retreated 
indoors, to a life that revolves around electronic games, television, 
and the internet. The result we see is also not a pretty one--youth 
obesity rates are reaching epidemic proportions; the impacts of this 
will be felt for years to come.
    Regardless of where we grew up, most of us remember a much 
different childhood than the youth of today. Unstructured outdoor play 
was a significant part of our early childhood. For us suburban and 
urban kids Mom's rule to ``come home when the street lights come on'' 
was the time boundary we had. Vacant lots became the frontier. Forts 
and tree houses were built in open spaces. Games--stickball, softball, 
dodge ball, football, capture the flag, kick the can, tag--you name 
it--were the order of the day. The games had no adult supervision and 
were put together by group of kids playing. Members needed to be 
recruited, the rules were set and off we went. We played and played--
forgetting the pressures of the day, learning to resolve our conflicts, 
and in most cases--coming home slightly after the street lights went 
on.
    Somewhere along the way, we have forgotten the importance of 
unstructured play in the healthy development of our children's lives. 
The incredible discoveries that are found in a stream or and open field 
are being replaced by surfing the web. The healthy competitions found 
in the games of my childhood are being replaced by the individual 
competition found in the gaming world--play stations, Xboxes, et 
cetera. Play has become organized and structured--everything has a time 
and a place, a need for sign ups, mom or dads help, and transportation. 
``Come home when the street light come on'' has been replaced by a 
schedule of activities to participate in--much like school or by the 
words ``entertain yourself''--which to today's youth means something 
electronic. The result is a loss of imagination and the skyrocketing 
health issues associated obesity and behavior. Was the energy that we 
burned playing each day a result of ADD or ADHD or did play provide the 
therapy for the restless, active youth of my day? I'll point you at an 
excellent resource for these issues--a book titled ``The Last Child in 
the Woods'' by Richard Louv which discusses the impacts of the nature 
deficit and some great solutions.
    The Boy Scouts of America has been an outlet for the energies of 
boys for almost 100 years. Established by Congressional Charter, our 
mission is to instill values in young people helping them to achieve 
their fullest potential. The classroom we use for character development 
is the outdoors. The founder of Scouting Lord Robert Baden-Powell 
observed the youth of London using military training manuals as part of 
their play. He felt that if these youth, usually poor inner city youth 
without structure at home, were excited by what they read in these 
manuals he could design a program that focused them on outdoor skills, 
fitness, and fun. In the process they also learned a code to live by, 
to be responsible and disciplined, and the importance of being self 
reliant. American Naturalists Dan Beard and Ernest Thompson Seton saw 
the possibilities of combining a love of the outdoors with Baden 
Powel's plan and helped design the core of programs we use today.
    The results are impressive. Since 1910, over 100 million youth have 
experienced the fun and adventure of Scouting in America. Almost all of 
them participate in the core outdoor programs--camping, hiking, 
conservation, and learning the skills to protect and enhance the 
natural environment around us. In 2006, more than 1 million youth 
experienced long term outdoor camping programs--we operated 404 Scout 
summer camps across America--and many millions more participated in 
short term weekend camping and hiking programs throughout the year.
    Recently, the BSA commissioned the folks at Louis Harris & 
Associates to look at the outcomes of Boy Scout Summer Camp. They found 
through their survey of youth and parents some interesting benefits 
beyond the obvious connections to the outdoors and fitness 
requirements.
    Scouts indicate that summer camp is more than just a place to have 
fun. It also offers Scouts the opportunity to participate in physically 
and intellectually challenging activities, introduces them to new and 
rewarding experiences, and provides them with supportive and caring 
relationships.
    This study infers that positive outcomes of Scout summer camp occur 
because the environment and activities at camp incorporate all of the 
elements of healthy youth development.
    Strong Personal Values and Character. Reflective and thought-
provoking activities are one avenue through which summer camp helps 
build strong values and character.
    Positive Sense of Self-Worth and Usefulness. Summer camp helps to 
instill a positive sense of self-worth and usefulness in young people 
by providing them with service opportunities, as well as positive peer-
to-peer and intergenerational communications. In addition, summer camp 
helps to build young people's leadership skills, confidence, and self-
esteem.
    Caring and Nurturing Relationships with Parents, Other Adults, and 
Peers. Summer camp builds caring and nurturing relationships by 
engaging young people in group activities with both peers and adults. 
And for a majority of Scouts, strong bonds of friendship are developed 
at summer camp.
    A Desire to Learn. Summer camp inspires young people to think about 
nature and consider the environment.
    Productive and Creative Use of Time. Summer camp provides young 
people with productive and creative uses for their time by offering a 
valuable mix of both physical and intellectual activities.
    Social Adeptness. Summer camp helps young people to become more 
socially adept by offering them opportunities to participate in and 
contribute to team-building activities.
    Overall, parents speak highly of and appear very impressed with 
Scout summer camps. Nationally, 93 percent of parents say their son's 
summer camp experience met or exceeded their expectations. Almost all 
(96 percent) say they would recommend Scout summer camp to others.
    Leaders enjoy and appreciate their time spent at Scout summer 
camps. Nationally, 94 percent of leaders say they met all or some of 
their goals, and 53 percent say their experience was better than they 
thought it would be.
    Leaders who attend Boy Scout summer camp overwhelmingly agree that 
the camp offers them the following benefits:
    <bullet>  Played a role in helping young people succeed/grow
    <bullet>  Helped youth realize their own abilities
    <bullet>  Was with people I respect
    <bullet>  Built friendships with youth
Findings from Scout Journals
Strong Personal Values and Character
    A strong sense of character is evident when a person chooses to do 
what is right, even when no one else is around. A person's character is 
built from the inside out. It starts and ends within the individual. To 
build this critical trait, young men need opportunities that challenge 
them personally to consider their beliefs and to reflect on the things 
that are important to their growth.
    Summer camp supports the building of character and values by 
engaging young men in things like ``decision making'' (80 percent) and 
``flag ceremonies'' (68 percent). Additionally, boys at camp 
participate in religious services/devotions/prayers (67 percent).
    As important, Scouts in a fast-paced society are given time to 
reflect on their personal relationship with God (69 percent) and 
personal principles and values (56 percent) at camp.
Positive Sense of Self-Worth and Usefulness
    Young men have a need to feel useful, capable, and valued. These 
are the components that build self-confidence. Among boys who are 
entering their teen-age years (the average Scout camper is 12.8 years 
old), perhaps no other time in their life is more important for 
building self-esteem.
    Positive communication between boys and their peers and between 
youth and adults leads to feelings of self-worth. At summer camp, the 
majority of Scouts are complimented by adults (76 percent) and peers 
(72 percent).
    Additionally, Scouts feel that their opinions are valuable and 
heard. More than six of 10 Scouts (63 percent) are asked to give their 
opinion while at camp. This seemingly simple gesture results in 
feelings of personal value. Three-quarters or more indicate that they 
are listened to by other Scouts (80 percent) or adult leaders (74 
percent).
    Boy Scouts at summer camp attain growth through serving others. 
Such activities result in a sense of being valuable and useful. 
Majorities of boys serve their peers at camp through helping clean up 
campsites (89 percent), helping clean up after meals (87 percent), and 
serving food (76 percent).
    Service also comes through personally helping someone who may have 
received an injury (39 percent).
    When boys take leadership responsibility, they gain self-esteem. At 
summer camp, one-half (50 percent) of the boys are given an opportunity 
to lead others in an activity or service.
Caring and Nurturing Relationships with Parents, Other Adults, and 
        Peers
    Children crave strong relationships with people they can trust. 
Having someone to connect with is critical to positive, healthy 
development. These relationships allow for the sharing of interests, 
struggles, and successes. It is through these relationships with 
parents, role models, and friends that young people learn to 
effectively handle the difficulties and challenges of life.
    At Scout summer camp, boys commonly listen to (84 percent) and 
compliment (75 percent) other Scouts. Also, they make a new friend or 
become better friends with someone (80 percent). Friendships are an 
outcome of summer camp that can impact lives well beyond the camp 
experience.
    Mentoring requires working together, and this happens at Scout 
summer camp in two key ways: adult leaders who teach boys (76 percent) 
and Scouts who learn new skills from other Scouts (72 percent).
    The fact that many boys talk with an adult leader for advice (60 
percent) while at camp suggests that a level of trust and respect is 
established in the relationship.
A Desire to Learn
    Life is about learning and using what is learned to improve things 
for oneself and others. Youth who are not given opportunities to test 
and explore new things may never live up to their full potential.
    Summer camp is, in effect, an outdoor classroom for learning 
experiences. The majority of boys ``try something they have never tried 
before'' (86 percent), ``test a new skill'' (81 percent), ``see 
something they have not seen before'' (75 percent), or ``learn about 
the environment'' (65 percent) while at camp.
    Other important learning-related factors found at camp are that 
Scouts feel challenged (69 percent) and test their mental/thinking 
abilities (71 percent).
    A natural extension of the desire to learn, fostered at camp, is to 
put it into action through experiential learning. This type of learning 
is the best kind because it means a boy learns by doing!
    The opportunity to earn more than 31 merit badges while at camp 
amply meets this need. Merit badges are discussed more specifically in 
the next section of this report.
Productive and Creative Use of Time
    Because so many lead full-scheduled lives, young people understand 
the value of time, and they consider it important to use their time 
efficiently and productively. While redundancy is important for 
reinforcing positive values, young people desire activities and 
opportunities that they perceive as new and relevant to their growth. 
For this reason, various merit badge options are an important aspect of 
camp.
    Time spent achieving goals is a common positive aspect of Scout 
summer camp. Almost all Scouts ``complete a merit badge'' (83 percent) 
or ``work with others on a badge or task'' (88 percent) while at camp. 
Also, significant percentages of Scouts ``work on a camp-improvement 
project'' (60 percent) or ``learn/practice first aid'' (49 percent).
    Majorities of Scouts felt prepared (80 percent), that they 
accomplished something worthwhile during camp (78 percent), and useful 
(64 percent). Productive use of time matches with good feelings of 
contribution (57 percent).
Social Adeptness
    Positive and healthy relationships are essential for successful 
youth development. By being placed in social settings, young people 
learn such social skills as the art of conversation, how to contribute 
to team goals, and how to resolve interpersonal conflicts in a healthy 
way.
    Camps are structured to encourage boys to spend time working and 
playing together in ways that seldom happen outside of the camp 
environment. In the outdoors, boys are removed from independent 
activities, such as playing video games and watching television, and 
are encouraged instead to socially interact with peers. At summer camp, 
almost every boy meets new people (94 percent). Additionally, 
majorities of Scouts collaborate with other youth on accomplishments 
(73 percent), participate in group decision making and activities (64 
percent), and even help resolve interpersonal conflicts (53 percent). 
These social growth experiences are outcomes of the design of summer 
camps.
Other Important Findings
    Other important findings from the research include the high 
proportion of boys who participate in fitness-building activities and 
events. Perhaps not surprising, swimming (85 percent) and hiking (70 
percent) are among the most common fitness activities experienced.
    These experiences are frequently tied to goal achievement. Many 
boys set personal goals for things they want to accomplish while at 
camp. Among these, 70 percent indicate they met those goals during 
camp.
    Perhaps the best indication of the ``satisfaction'' that boys have 
at camp is the finding that more than three-of-four boys (78 percent) 
who attend camp would recommend camp to others.
Findings from Parents of Scouts
    To fully understand whether or not Scout summer camp is making a 
difference in the lives of boys, Harris Interactive included a survey 
among parents of boys who attended summer camp. This section of the 
report provides responses received from parents of boys who attended 
summer camp.
    For decades, parents have given anecdotal evidence to BSA camp 
directors and staff members that the camp experience changed their 
sons. One commonly communicated sentiment has been ``You took my boy 
and he came home more like a young man.'' More than 80 percent of 
parents (81 percent) indicate that summer camp resulted in a positive 
change in their sons.
    When asked to describe the reasons they believe a positive change 
took place, parents mention growth in self-esteem, new skills learned, 
and increased levels of personal responsibility.
    Overall, parents are very satisfied with their son's experience at 
Scout camp. More than nine of 10 parents (93 percent) indicate their 
son's summer camp experience met or exceeded their expectations. In 
addition, almost all parents (96 percent) say they would recommend to 
other parents that their sons attend Scout summer camp.
    Since its inception, the Scouting program has been designed to 
encourage interaction between parents and their children. Scout summer 
camp follows this design, and the fact that almost every parent (98 
percent) discusses the summer camp experience with their son validates 
that the design works.
Findings from Scout Leaders
    The outcomes of Boy Scout summer camp are not exclusively 
beneficial to Scouts. By surveying adult leaders who attended summer 
camp, it was determined that Scoutmasters and other adult leaders also 
grow and learn while at camp.
    Summer camp meets (35 percent) or exceeds (56 percent) the 
expectations of adult leaders. This is a significant finding since a 
majority have been to summer camp three or more times as an adult.
    Most leaders set personal goals for camp (79 percent), and almost 
all achieve at least some of those goals (94 percent).
    Adult leaders understand the focus of summer camp is on supporting 
the growth of youth. Notably, more than nine of 10 adults (96 percent) 
agree that they ``played a role in helping young people succeed/grow'' 
during the camp experience. A similar percentage agree that they 
``helped youth realize their own abilities'' (92 percent). At a time 
when many youth experts are concerned that boys are becoming socially 
independent at younger ages, Scout camp helps bring people of all ages 
together. Adult leaders who attend camp clearly agree that they ``built 
friendships with youth in the unit'' (92 percent). This finding is 
coupled with the fact that 82 percent of adult leaders agree that they 
increased their understanding of today's youth while at camp.
    Personal growth benefits for leaders are another outcome of Scout 
summer camp. The majority of adult leaders agree that they were with 
people they respect (92 percent), they had fun (91 percent), they felt 
close to nature (84 percent), they built friendships with other leaders 
(81 percent), they learned from other leaders (71 percent), and they 
reduced their stress (65 percent).
    I represent the National Capital Area Council which serves the 
youth and families of 16 counties in Maryland and Virginia and the 
District of Columbia. In that territory, we serve over 85,000 youth in 
our programs. The core of our strategy is to implement the mission of 
Scouting through the outdoors. We've taken this responsibility 
seriously. In 1996, our Council acquired the property that Disney had 
targeted to become a Northern Virginia theme park. Located less than 50 
miles west of the Capitol near Haymarket Virginia, this property was 
perfect for our mission. After a period of planning and development, 
and an investment of almost $18 million dollars we opened this property 
for full programming last year.
    When fully operational, Camp William B Snyder it will allow us to 
expose thousands of youth to the fun and adventure of the outdoors. 
Young boys and girls from at risk communities within a short distance 
from this building have already experienced the thrill of spending time 
outdoors. Thanks to the tenacity of our Board of Directors, the vision 
of my predecessor, Ron Carroll, and the generosity and commitment of 
Bill and Sally Snyder we will be uniquely positioned to provide outdoor 
experiences for our areas youth.
    We also operate Goshen Scout Reservation--a 3,500 acre traditional 
Scout Camp located near Lexington Virginia. Since 1966, Goshen has been 
a place where thousands of youth have learned to camp, cook their first 
meal, participated in a conservation project, and had fun. Beside the 
periods of instruction, everything that happens at camp is aimed at 
``fun with a purpose''.
    Couple our local efforts with the resources of our National 
Office--facilities like Philmont Scout Ranch in New Mexico, the Florida 
Sea Base located in the Florida Keys, and the Northern Minnesota Canoe 
Base in the Boundary Waters area the Boy Scouts of America have 
committed to using the outdoors as a platform to help develop healthy 
children. But the story doesn't stop there. All across America, Scout 
use public lands as part of their program. From local community parks 
to our nations largest forests Scouts connect their inside learning 
with outside applications. Fun with a purpose has practical, 
educational meaning. The impact on fitness is also huge--prepare for a 
25 mile hike at 10,000 feet in the mountains of New Mexico carrying a 
40 pound backpack--you learn the definition of fitness real quick.
    So why is this important? Why should we be discussing some fun 
childhood memories here in Congress? Interestingly, our success in 
connecting youth with nature has direct impact on many of the issues we 
wrestle with today. Let me offer a few examples.
    First, the issue of youth fitness is the most obvious and most 
pressing related to the heath care debate. The ramifications of unfit 
young people and the health problems they will face in the future will 
certain strain an already stressed system. Think sports programs are 
the answer? From 1981 to 1997, youth participation in organized sports 
increased by 27 percent across America. It is ironic that the childhood 
obesity issue has coincided with this increase. One wonders if the 
strict schedules and the lack of unsupervised play time are more the 
issue. Access to parks, public lands, and outdoor programs are 
certainly part of the solution.
    Next, consider the issue of the availability of individuals 
interested in science, technology, and math for our future workforce. 
As we continue to structure our children's lives we take away the most 
potent tool in our tool box--fostering their imagination, innovation, 
and dreams. Connecting with nature and allowing unstructured play time 
provide a tremendous and proven method for sparking an interest in a 
lifelong pursuit. Examples from the America experience are countless--
the impact of the Badlands on Teddy Roosevelt which helped create and 
protect our vast national forests, children learning about the stars 
have yearned to explore and become astronauts, and no doubt learning 
about nature at an early age will help us all be better stewards of our 
resources in the future. Technology is at play everywhere--I learned to 
use a map and compass as a Scout--today's youth learn how to use a GPS. 
Scouts used to learn Morse Code--which was the Instant Messenger of 
that day. The outdoors provide a great place to put technology to use 
in practical was that kids can connect with. More important--they learn 
to say ``What if...'' Americans have always had the ability to dream 
great dreams--I believe the outdoors is a perfect place to teach our 
youth to dream.
    Last, I believe the outdoors provide us with a platform for great 
partnerships between government, business, educators, and parents. 
There are few places that can effectively bring this large group 
together. Whether for social or educational purposes, our outdoor 
resources are places that people gather. Look at the Mall--within our 
view people running and playing, learning about nature here in the 
city, greeting each other, and relaxing. Business is done. The 
tranquility of the environment makes it attractive to most. And dreams 
are made. As a young man of 17, I made the decision to dedicate my 
life's efforts to working with young people while standing at the 
Lincoln Memorial working with the BSA and the National Parks Service. 
Strategic partnerships can be created to link schools with parks and 
camps to teach science or math in the outdoors--presenting these 
subjects in a totally different light. Fun with a purpose!
    Almost 100 years ago, when asked what makes a good Scout leader 
Robert Baden Powell thought a moment and said--a good leader of youth 
is someone who can find adventure in a mud puddle. As we debate the 
issues that confront us, let us always be mindful that our children 
need places to play, to dream the dreams that will take us to new 
places, and learn to be good stewards of the open spaces entrusted to 
us. Our future rest with unlocking the potential of the children we 
serve. Help us use the outdoors as a tool to ignite the possibilities 
and future capabilities of these youth. The Boy Scouts of America 
stands ready to help and to combine our resources with those of our 
government and community to address the difficult issues that face us. 
America's youth will respond!
    Thank you.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me begin some 
questions, and let me begin with Ms. Pertschuk. I have a couple 
of questions, and also, I am beginning with you because you 
stuck to the five minute rule.
    Ms. Pertschuk. Thank you.
    Mr. Grijalva. In your testimony you suggested the Federal 
agency might want to consider the establishment of a youth 
conservation corps?
    Ms. Pertschuk. Yes.
    Mr. Grijalva. Yes. To recruit the people to participate.
    Ms. Pertschuk. Yes.
    Mr. Grijalva. Could you elaborate just a little bit more on 
that? How do you see it working?
    Ms. Pertschuk. Yes. I know that there are recruitment 
programs in place now, but I think what we need to do is look 
beyond what we have traditionally thought of as recruitment, 
for example, college campuses. When I think of recruitment I 
think of the opportunities that someone like Gina McCarthy is 
creating in Connecticut. Families that are turned on in a very 
holistic way to nature.
    We should be recruiting at that point as well. There are 
other sorts of innovative ways of thinking about recruitment in 
general. If we are talking about a generation that is really 
going to care, and take care of and be stewards for the lands I 
would go so far as to say that we should be recruiting future 
stewards in nature preschools. We cannot think that we are 
going to find the students in colleges that are turned on by 
this, we have to start earlier.
    So at every stage of development children need to 
understand that there is a potential for them to participate 
both personally and professionally in conservation and land 
stewardship.
    Mr. Grijalva. Thank you very much. The last point you made 
goes to the point that Congressman Sarbanes was making about 
how we connect the very important public education function 
with the very important subject that we are talking about here 
today, and maybe recruitment is one of those areas as well.
    Ms. Pertschuk. Yes.
    Mr. Grijalva. Last quick question, if I may. You suggested 
Federal and state agencies should loosen up the use of funds 
for outreach efforts. What did you mean by loosen up?
    Ms. Pertschuk. Well, I think that we talk about funds being 
used for the maintenance and care of our lands, and we do not 
take into account the fact that we need to care for those 
people that are going to enjoy those lands as well. I think we 
need to expand the definition of what healthy land management 
is, and land use is, and try and combine those and expand the 
ability for us to fund programs that not only educate but bring 
families and children into the parks.
    I think that would be a really good direction to see this 
go in.
    Mr. Grijalva. Thank you very much. Mr. Calengor, at the end 
of your statement you mentioned that state and Federal fish and 
wildlife agencies perhaps spend too much time on managing fish 
and wildlife resources and perhaps not enough time in 
attracting the public to enjoy these resources. What do you 
think is needed in that regard? Your campaign, Take Me Fishing, 
is a very good example of the kind of attracting people to the 
resources, but what did you mean in general about the agencies 
just to clarify that?
    Mr. Calengor. Mr. Chairman, I think that what we should do 
is to break down any barriers that are there that prevent 
people from entering the world of fishing, angling and 
consequently the outdoors. I think that we should take a long, 
hard look at how we treat licenses and how they are issued.
    I think that from my point of view coming from 
manufacturing do a better job of marketing this through the 
group where we have all this electronic data to date, run the 
licenses and we should be able to go and meet and contact each 
and every licensed recipient and resell him on the fact that 
programs are available for them to reposition themselves and 
possibly address a program, and this is just off the top of my 
head, we are losing the older fishermen and maybe there could 
be a two year license at a rate or whatever.
    All of these things have to be monitored as far as cash 
flow and things are concerned. I think we should be looking out 
of the box a little bit.
    Mr. Grijalva. Thank you. Mr. Dolesh, a quick question 
before my time runs up. Some are going to argue, and some do 
argue, that states and localities should pay for the land and 
open space for recreation, and that the Federal rules should be 
minimal at best. In your testimony you talked specifically 
about two funding sources that have been either frozen, cut or 
not funded, but why do you think the Federal Government 
involvement in these efforts is so vital and important?
    Mr. Dolesh. Well, Mr. Chairman, the Federal Government 
cares about investing in education, and transportation, and 
urban development and public safety. When have we stopped 
caring about investing in our kids' future and connecting them 
to our public lands? The funding source for the Land and Water 
Conservation Fund, as you know, is the conservation royalties 
that come from the offshore drilling in the Gulf of Mexico, a 
vastly undertapped amount of money that has been devoted to 
that purpose but rarely appropriated by Congress.
    The unmet need is incredible. The National Park Service 
estimates the unmet need of states and localities and each five 
years NRPA does a capital investment survey. It is in the tens 
of billions of dollars of land that public park and recreation 
agencies need to buy and want to buy. There is far more need 
than there are quality public lands for people to have close-
to-home access.
    Mr. Grijalva. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. Dr. Ginsburg, if I 
could start with you because I apologize that I missed your 
actual testimony. I was having some unstructured time outside 
at the moment. So if I can ask you some specific questions 
about obesity rates in the research you have done. Is there a 
difference in obesity rates between urban and rural areas?
    Dr. Ginsburg. I know that I cannot comment on the exact 
difference. I could get that to you. I can tell you that in 
urban America we know that obesity rates are particularly 
skyrocketing among impoverished populations that we know.
    Mr. Bishop. All right. Actually, I do not need specifics, 
but if you would just give me those general areas I appreciate 
that. How about between the east and the west in the nation?
    Dr. Ginsburg. I do not have that data right now.
    Mr. Bishop. Is obesity in any way class related?
    Dr. Ginsburg. Obesity is definitely related to poverty and 
to chronic stress.
    Mr. Bishop. Are there also social and cultural issues that 
relate to obesity, i.e., crime is a deterrent, latchkey kids, 
single parent families, et cetera?
    Dr. Ginsburg. We know that under resourced kids are less 
likely to be able to go out and explore the world on their own 
because the adults are needing to watch them very closely, the 
communities may not be safe. So we know that in areas of 
poverty a major barrier to outdoor exploration is the fact that 
the world may not be safe, and there may not be enough adults 
to watch the kids because they are working one or two jobs.
    Mr. Bishop. Yes. I appreciate that, again. You also said 
many schoolchildren are given less free time and fewer fiscal 
outlets at schools. Why do you think schools are cutting back 
in that area?
    Dr. Ginsburg. It is hard for me to comment on that, but it 
is clear that recently there has been a greater attention to 
the fundamentals of reading and math and that many of the other 
issues around art, music, physical education and those other 
things are being cut down severely. We know that in general if 
we look at sixth grade, for example, we know that about 13 
percent of sixth graders have no recess at all.
    However, if you look at people in the lowest poverty rate 
that becomes 34 percent of sixth graders have no recess at all. 
So in those schools that serve our poorest kids those kids have 
the fewest recesses as well as the lowest exposure to physical 
education classes.
    Mr. Bishop. Now, you could have won me if you would have 
said history as part of those that are being, you know--
    Mr. Ginsburg. I love history.
    Mr. Bishop. OK. That is much better then. Thank you. You 
are learning.
    Mr. Ginsburg. All right.
    Mr. Bishop. Ms. Pertschuk, if I could ask a question. In 
your written testimony you talk about environmental groups like 
Sierra Club beginning programs to get children outdoors, I 
think it is Building Bridges to the Outdoors or something like 
that.
    Ms. Pertschuk. Yes.
    Mr. Bishop. Do you know how much money groups like the 
Sierra Club are putting to that outdoor activity?
    Ms. Pertschuk. I wish I did. I do not have that 
information. I can get it for you.
    Mr. Bishop. All right. Thank you. That would be very 
helpful if we could do that at the same time.
    Ms. Pertschuk. OK. Sierra Club, Trust for Public Land, 
National Wildlife Federation now has a program that they are 
targeting in this area as well.
    Mr. Bishop. I think if the testimony that Boy Scouts gave 
of what they are doing as far as this effort if these 
organizations could put more of that type of commitment to 
those areas we could see the private sector taking up a big 
slack in some of these programs there.
    Jeremy, I appreciate your testimony. I certainly hope you 
do not think that testifying before Congress was one of the 
highlights. If you are you missed the educational value, it was 
there, but thank you for being here. I appreciate the comments 
that were there.
    Mr. Dolesh, you just said the Land and Water Conservation 
Fund is funded partially by the Owen Gas receipts for offshore 
drilling. Does your group support then increasing the drilling 
in the outer continental shelf to get more money for these 
programs?
    Mr. Dolesh. Sir, we supported the expansion of Area 181 
last year, the proposal to allow 12 and a half percent of those 
royalties to go to the Land and Water Conservation Fund. It is 
a direct investment in conservation and recreation for all 
American people from the royalties of that expanded drilling.
    Mr. Bishop. Did I hear a yes in there?
    Mr. Dolesh. We did not take a position to say we support 
expanded drilling. We said if you are going to drill, just as 
when the Land and Water Conservation Fund Act was authorized in 
1965, there ought to be a permanent benefit for conservation 
and recreation as it was done 40 years ago.
    Mr. Bishop. Mr. Dolesh, I am going to submit for the 
record, I will ask you now to consent, to add this chart that 
was prepared by Center for Disease Control that relates the----
    Mr. Grijalva. Without objection.
    Mr. Bishop. Thank you, sir. That relates the obesity rates 
to different sections of the country. It clearly illustrates 
here that there is a regional pattern in obesity rates. In 
fact, if you look over that, the one that has the Federal land 
ownership, the area of the United States everything in blue is 
how much of that state is owned by the Federal Government. Joy 
of joys for those of us in the west.
    You see the areas with the heavy blue are not necessarily 
the areas with the most obesity issues, which simply means can 
you say there is a connection between Federal land and obesity 
or are you saying there is a connection between public land and 
obesity? You have 30 seconds because I am over. I apologize.
    Mr. Dolesh. It is a very tantalizing question. The State of 
Georgia is analyzing this very data in their state recreation 
planning. The issue is more to how close is the access to home. 
How can you get to places where you can get healthy and stay 
fit? That is the key to solving the issue of connecting kids to 
nature and the outdoors.
    Mr. Bishop. So then the key area is those areas that are 
having problems with obesity in some situation are the ones in 
which the land situation needs to be the most accurate, which 
this map does not relate or correlate in any way to that map, 
so when we are talking about public land we are not necessarily 
talking about Federal land we are talking about all public 
land, state, localities and those types of things?
    Mr. Dolesh. We believe there is an important connection to 
it.
    Mr. Bishop. OK. I have just one more comment, but I will 
wait until I have an extra shot at this.
    Mr. Grijalva. OK. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman. I thank the witnesses 
for coming and giving testimony. This is kind of a new concept 
I believe, and it is an educational issue for me. As a boy I 
was raised on a farm and my back door neighbor was the Francis 
Marion National Forest, which was 250,000 acres, and so I still 
have that farm today, and I still enjoy going out there and 
commuting with nature, and riding that tractor, and cutting 
that grass, and, you know, fishing those ponds.
    My grandchildren have access to that, and so I think it is 
a good notion. I am just trying to I guess put in my mind 
exactly how we can expand that so more people can be inclusive 
because it really is a good life. I have gained a few pounds 
since then, but back in those days we always had enough chores 
to keep us pretty occupied and I guess keep that obesity from 
setting in. Anyway, just to get a little bit of information 
about what is happening what is a nature park?
    I know we said we need to expand our regular parks and 
include a nature park. Tell me what differentiates just a 
regular. We have a lot of parks down our way, and I guess I am 
trying to decide how that qualifies. What amenities do you have 
that would set them apart from just a regular park?
    Mr. Dolesh. Sir, a nature-based facility is one that 
invites the public in to explore nature and experience it on 
its own terms. It might have a nature trail, it might have 
interpretive information, there might be staff assigned, a 
visitor center, a nature center, a nature museum. All of these 
are ways that people can experience nature, but the best 
teacher is nature itself.
    We believe that if you can connect kids to nature it is 
inherently interesting to them, and just the opportunity to do 
so. So any park can qualify as a nature park.
    Mr. Brown. What we actually did was we had what we call the 
Palmetto Trail. You know, we are pretty protective of--South 
Carolina is the Palmetto State--right, and so we call it a 
Palmetto Trail. It is really a hiking trail that actually goes 
from the ocean to the mountains, which we enjoy both in South 
Carolina. So I guess that would be considered part of a nature 
park since it goes through not only public lands but private 
lands, too, in order to make that track.
    A lot of it tracks the national forest lands, but some 
private lands are in between, too. OK. I was just interested in 
Jeremy's testimony. I thought that was a pretty good testimony 
to prove that communing with nature is certainly some benefit. 
I was just wondering how many people are in that particular 
program that Jeremy was participating in?
    Mr. Penny. Yes, sir. Each year we put about 3,000 interns 
into working with all the Federal land management agencies and 
state land management agencies all over the country. In 
addition, we have about 1,000 young people that are in the high 
school program that provides a continuum of opportunities from 
urban parks all the way through the Federal lands, and then 
through them they extend that to tens of thousands of other 
young people that have that opportunity.
    I might also say that we do a variety of internships 
including one of our interns has been in your office, 
Congressman, and we appreciate that.
    Mr. Brown. I think he is going to Fort something next.
    Mr. Penny. That is right. Learning about policies in the 
congressional offices and then going to a national park and 
learning about the practical resource management.
    Mr. Brown. Well, I can tell you that young man, I could see 
a real growing experience with him as he came in and had a 
chance just to kind of interact with House staff, and with me 
and I think it was a growing experience. In fact, we have a 
program, too, that we developed in Charleston as part of the 
Tall Ship Program----
    Mr. Penny. Right.
    Mr. Brown.--where we are having what they call the Spirit 
of South Carolina. It is just about in its final build out and 
that will be a similar type program except it will be at sea 
rather than be I guess on land, but I commend you for 
addressing this effort and trying to bring new opportunities to 
youth that is really at disadvantage. Anyway, thank you all for 
coming and being part of this discussion today.
    Mr. Grijalva. Thank you very much, sir. Some quick follow-
ups. I know Mr. Bishop has some other questions as well. 
Perhaps Mr. Brown as well.
    Dr. Ginsburg, elaborate a little bit for us the differences 
between participation in organized sports and the kind of 
unorganized, creative outdoor play that you were discussing in 
your testimony today, and what are the benefits to both?
    Dr. Ginsburg. Right. We want to be clear. We are not 
against organized sports. Organized sports are great ways of 
kids to work together, to learn about leadership, to work with 
adults and to be supervised by adults. What we want is for kids 
to have some unscheduled free time to go explore their own 
areas of interest. What an organized sport allows you to do is 
spend a couple of hours a day working on a specific issue, and 
then you are likely to maybe go home and spend time in screen 
time or doing homework.
    What the outdoors allows you to do is not only explore the 
world, and to explore your own creativity and to find your 
interest, define who you are in the context of the environment, 
but it also is constant movement. We have a situation right now 
where kids are so deeply scheduled from one activity to another 
inclusive of organized sports, but also perhaps tutoring, and 
music lessons and other things.
    Kids are so over scheduled right now that one of the 
mantras we here from kids all day long is I am bored, I have 
nothing to do. What stimulates them is to turn to screen time, 
to the Gameboys and to the other activities. We believe that as 
long as there are clouds in the sky, as long as there are 
trees, as long as there are birds, as long as you can turn over 
a rock and find an ecosystem, there is no reason to be bored.
    The interaction with nature allows you to be constantly 
moving, constantly playing. That has a real impact on not only 
physical health--we keep talking about obesity, but please let 
us not forget about stress, and emotional health and the 
connection with nature that is going to help with.
    Mr. Grijalva. Thank you. I appreciate the clarification 
because your point should be noted if this is not an issue 
against organized sports. It is a call for----
    Dr. Ginsburg. Balance. We seek balance.
    Mr. Grijalva.--a little bit of balance. Thank you. Mr. 
Penny, your testimony was excellent descriptions of the 
benefits of SCA partnerships with the Federal Government, how 
good it is for the young people involved and how good it is for 
the receiving agency that gets the benefit of their talent, but 
you also seemed to indicate that there are some arrangement 
problems.
    What is the problem with the current arrangement, and what 
would you recommend in terms of fostering those private/public, 
nonprofit/public relationships?
    Mr. Penny. Yes, sir. We feel that the very best way for 
nonprofits to work with the agencies is through what is called 
a cooperative agreement. At the heart of the cooperative 
agreement is not a contractual arrangement, but it is a shared 
commitment to improve the land and enhance and enrich the 
experience of the young person. That is the way it has worked 
with us.
    Particularly with us with every time we place a young 
person with a Federal agency the agency pays about 80 percent 
of the costs and SCA makes a cash match of getting private 
individuals through philanthropic support to invest in public 
lands by supporting that young person. So the value of that is 
that it benefits the young person, it benefits the agency, it 
leverages Federal dollars with private dollars.
    There is some concern about that, and understandably so. We 
do not want agencies using these to just get cheap labor, and 
that is not the point. A cooperative agreement requires that it 
is not that.
    Mr. Grijalva. You are not supplanting another function.
    Mr. Penny. They are not supplanting another function. They 
are together working for a higher purpose.
    Mr. Grijalva. Thank you on that important point, and thank 
you. Mr. Lambert, I do not have a question, but I do want to go 
to the points that you were making I think and give you an 
example that dealt with the Boy Scouts. I think last Congress 
we passed legislation for Valle Vidal, to protect Valle Vidal 
from gas and oil development.
    The Boy Scouts were an important part of that legislation 
because the ranch is nearby, the activities of the young people 
that participate in there, and I think that is a good example 
of a private/public protect of a forest area that was very 
important, a lot of great natural resources, got great outdoor 
activities for people, and those are the kinds of 
encouragements. I just wanted to acknowledge that because your 
organization had a great deal to do with convincing many of us 
that was the right way to go.
    Mr. Lambert. Thank you, sir. We are the stewards of a lot 
of land in America, and we have to pass it on to future 
generations, so that partnership is important to us. Thank you.
    Mr. Grijalva. Before I close is there any questions?
    Mr. Bishop. Let me just do a couple. I appreciate the 
gentleman from Arizona. Great minds must go there because the 
first two questions you asked are two I had, so thank you for 
those.
    Mr. Grijalva. I was just trying to cut in our time.
    Mr. Bishop. Yes. We got done in earlier. Let me just make a 
couple of points if I could just at the very end of this 
hearing. First, I appreciate this hearing on obesity issues. I 
just want you all to know that when the big famine hits I am 
going to be the last one to go, so there. There are a couple of 
things especially for this panel I would like to keep in mind, 
and there are only about four.
    Number one is that we tend when we try to focus in on one 
issue like this to look at public lands as simply the 
recreation for those without public lands. Public lands have a 
function that is far and deep more than that, so I do not want 
us to narrow in and lose that concept. Second, there is always 
the ability for this issue to be captured by other groups. 
There are bills that are floating around.
    I have had groups that come in here who are basically 
trying to sell recreation stuff, and that now becomes the key 
element. As they told me, we are talking about real recreation 
not having a kid stand out there waiting for somebody to kick 
the soccer ball to him. Yes, you want somebody standing out 
there waiting for somebody to kick the soccer ball to him.
    There is a third one that I think is very clear here in 
that there are some who are talking about public lands for the 
concept of obesity and some for the concept of building 
conservation for the future. Even though we have tied them 
together in this hearing those are two separate and distinct 
concepts that we should not try to marry together because it 
becomes an unnatural one.
    Second to the last point deals with what we are trying to 
look at as far as Federal land ownership versus the need that 
is out there. As I think we tried to illustrate with the 
obesity chart that I put into the record there is a correlation 
between need that is not necessarily the direct correlation 
with Federal lands which means I appreciate you all coming 
here, but you should not be here. That is possible for you to 
get the Federal Government to pass a law to mandate all sorts 
of activities, and it will not mean diddly squat.
    It is kind of like when you were talking about cigarette 
consumption declining. It is not being mandated by the Federal 
Government to tell people to quit smoking. It has to be an 
education issue where they decide to do it themselves because 
still people are free to make those choices. It has to be an 
educational process.
    You should be doing this in every state Capitol in major 
county areas because if they do not buy into it there is 
nothing we are going to mandate that is going to make a big 
difference. Final one I want to do is a very personal one, and 
it goes to the message that we are giving as we start talking 
about obesity in kids. I apologize for taking the time of doing 
this, and this is almost like personal revelation time. I have 
to tell it to somebody.
    You happen to be here, so you are stuck listening to it. I 
do have a daughter that when she was in the third grade had a 
disease that was extremely rare, and because of that the 
medication that she was on bloated her significantly. She was 
huge. She was not fat, she was just big on medication. I have a 
number of times the painful experience of having her come back 
as a small girl in tears because of comments people made about 
the fat kid.
    Now, I want to know as we go forward with this discussion 
about obesity we need to make sure that we are very sensitive 
in the way you do that. There are a lot of kids out here who 
are going to be called fat kids as we have tried to narrow in 
saying how wrong it is to be slightly overweight, and they are 
not overweight simply because they are playing games. There are 
all sorts of factors that are involved in that.
    Some time in the rhetoric that we have to try and pass 
these bills and bring this issue our rhetoric is so terribly 
insensitive that it hurts kids who are very, very much aware of 
the situation they are in. Our rhetoric in an effort to pass 
bills, or to get more money or anything else is one of those 
things that actually rips people apart on the inside. I know I 
am not fat, I am a nutritional overachiever. I recognize. I 
have learned to live with it.
    Kids are not. Some time in our effort to sell equipment, or 
to get more money, or to emphasize a need we really are 
insensitive to how we are ripping kids apart on the inside. So 
I just want the rhetoric as we go along here to understand that 
we can do some great harm in our zeal to do a great deal of 
good. With that I will yield back and quit rambling on. I 
apologize you had to listen to that. Somebody did.
    Mr. Grijalva. Thank you very much, Mr. Bishop. Being 
somewhat challenged in the consumption area myself, I would 
agree with you. I don't think we heard it any time in this 
discussion or any discussions on the subject of obesity about 
what needs to be done about the issue of cruelty. I do not 
think everybody is aware that there is a great deal of 
sensitivity on the issue, but there is a great deal of urgency 
as well to deal with it.
    I appreciate your comments. Thank you very much. This panel 
has been particularly enlightening, and I appreciate it. Just 
to say a couple of things, as we work to reconnect, because I 
do not think it is connect I think it is reconnect, families 
and youth with our great public places and public lands I think 
we have to keep in sight what the role of the Federal 
Government is going to be.
    I believe there is a role--whether it is a role of 
intervention and creating initiatives and incentives to move 
forward or whether it is the role of ensuring the proper 
funding is there for our agencies that manage our public lands 
so that outreach and connection efforts can be developed and 
organized--I think that is as well because we are dealing with 
a quality of life issue that is generational.
    We seem to be losing that aspect in the generations that 
are coming up, the connection to our natural places. We are 
also dealing with a health issue, both mental and physical. 
Then there is a whole underlying issue which is history, and 
legacy about our public places, and the need to conserve them 
and a new generation of constituents to support and protect 
those areas.
    So thank you very much, and I look forward to continuing to 
work with you on this issue and appreciate your testimony. The 
meeting is adjourned. Thank you.
    [Whereupon, at 12:30 p.m. the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
